 Office of Inspector General

SEMIANNUAL REPORT TO
    THE CONGRESS
     April 1–September 30, 2012
OFFICE OF INSPECTOR GENERAL

    SEMIANNUAL REPORT
     TO THE CONGRESS

  April 1—September 30, 2012
                                Inspector General
                                         HOTLINE
The hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or misconduct in the
programs and operations of the United States Agency for International Development (USAID), the Millennium
Challenge Corporation (MCC), the United States African Development Foundation (USADF), the Inter–
American Foundation (IAF), and the Overseas Private Investment Corporation (OPIC). Employees of these
organizations, as well as contractors, program participants, and members of the general public, may report
allegations directly to the Office of Inspector General (OIG). Complaints may be submitted electronically by
using e–mail or OIG’s online complaint form.

E–mail                  ighotline@usaid.gov
Complaint form          http:// oig.usaid.gov/content/oig–hotline

Individuals who are concerned about the confidentiality or anonymity of electronic communication may
submit allegations by telephone or mail.

Telephone        1–202–712–1023
                 1–800–230–6539
Mail             USAID OIG HOTLINE
                 P.O. Box 657
                 Washington, DC 20044–0657

The Inspector General Act of 1978, as amended, and other laws protect those who make hotline complaints.
Individuals who contact the hotline are not required to identify themselves and may request confidentiality
when submitting allegations. However, OIG encourages those who report allegations to identify themselves so
that they can be contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, MCC, USADF, IAF, or OPIC who provides
information unless that employee consents or unless the Inspector General determines that such disclosure is
unavoidable during the course of an investigation.


              Semiannual Report to the Congress: April 1–September 30, 2012
                                      USAID Office of Inspector General


                                                  Contents


Message From the Deputy Inspector General………………………………………………..............................                         1

Introduction……………………..……………………………………………………....................................................                    3

Reporting Requirements……………………………………….………………………………………………………………                                                    6

OIG Organizational Performance Measures…………….………………………………………………………………                                             8

Summary Table of Audits Conducted…………………………………..…………………………………................. 10

Investigative Activities……………………………………………..…………………………………………………………… 12
Fraud Awareness Briefings Conducted Worldwide………………………………………….……………………... 13

Peer Reviews……………………………………………………………………………………………………………………….. 15

United States Agency for International Development

Significant Findings and Activities.………….…………………………………………………………………….……..                                          16

       Response to Crisis, Conflict, and Instability……………………………………………………………………… 16

       Democracy…………….…………………………………………………………………………………………………                                                       21

                Good Governance…….……………………………………………………….……………………….                                                21

                Rule of Law and Human Rights……………………………………………….…….…………...                                         23

       Economic Growth ……..………………………………………………………………………………………….….                                                  25

       Environment and Climate Change……………………………………………………………………….………..                                            32

       Education….…………………………….……………............................................................................   36

       Food Security………………………….……………………………………………………….…….………………….                                                  38

       Humanitarian Assistance……………………………………………………………………………………………………. 41

       Global Health and Health Systems……………….……………………………………………………………….                                           41

                   HIV/AIDS……………………………………………………………………………………………..                                                  41

                   Malaria, Tuberculosis, and Neglected Tropical Diseases………………………………                             45

                   General Health Programs…………………………………………………………………………                                            48




             Semiannual Report to the Congress: April 1–September 30, 2012
                                    USAID Office of Inspector General




       Management ….………………………………………………………………………………………………………                                                  50

                Science and Technology……………………………………………………………………,,………                                        50
                Financial Management.………….……………………………………………………..……………                                        50
                Management Capabilities………………………….…………………………………………….…                                        51

                Employee Misconduct….…………………………………………………….………………………                                          56

                Expanding Accountability…………………………………………………………………………..                                       57

                Contractor and Grantee Accountability —Audits………….…………………………….                               59

                Contractor and Grantee Accountability—Investigations……………………………….                            61

Significant Recommendations Described Previously Without Final Action…………..…………………                           63
Incidents in Which OIG Was Refused Assistance or Information………………………………………….                                67

Statistical Reports………….……………………………………………………………………………….….………………                                              68

       Financial Audits…………………………………………………………….………….……….……………………                                             68

       Performance Audits…………………………………………………………….……………….……………………                                            102

       Miscellaneous Reports…………….…………………………………………………………………………..........                                    104

       Reports With Questioned and Unsupported Costs………….……………………………..……………......                           106

       Reports With Recommendations That Funds Be Put to Better Use.………...................................... 107

Reports Over 6 Months Old With No Management Decision……………………..…............................ 108

Significant Revisions of Management Decisions……………………………………………………………………                                     109

Management Decisions With Which the Inspector General Disagrees…………………….………………                              109

Noncompliance With the Federal Financial Management Improvement Act of 1996……………….                          110

Significant Findings From Contract Audit Reports…….…………………………………………………………                                   111

Millennium Challenge Corporation

Significant Findings and Activities………….…………………………………………………….…………………….                                      112

       Economic Growth………….…………………………………………………………………………………………                                               112

       Good Governance…………….………………………………………………………………………………………. 113



            Semiannual Report to the Congress: April 1–September 30, 2012
                                                    USAID Office of Inspector General




            Management Accountability………………………………………………………………………………………..                                                                            114

            Financial Management………………………………………………………………………………………………                                                                                115

Significant Recommendations Described Previously Without Final Action……………………………… 122

Incidents in Which OIG Was Refused Assistance or Information…………………………………………..                                                                      128

Statistical Reports………….…………………………………………………………………………………………………… 129

            Financial Audits………………………………………………………………………………………………………. 129

            Performance Audits…………………………………………………………………………………………………..                                                                               132

            Miscellaneous Reports…………….…………………………………………………………………………………                                                                              133

            Reports With Questioned and Unsupported Costs………….………………………………………………..                                                                  134

            Reports With Recommendations That Funds Be Put to Better Use.………………………………………. 135

Reports Over 6 Months Old With No Management Decision…………............................................. 136

Significant Revisions of Management Decisions……………………………………………………….…………… 139

Management Decisions With Which the Inspector General Disagrees……………………………..……… 139

Significant Findings From Contract Audit Reports…….…………………………………………………..…….                                                                         140

United States African Development Foundation

Significant Findings……………………………………………………………………………………………………………                                                                                       141

Other Required Reports……………………………………………………………………………………………….…….                                                                                      142

Inter–American Foundation

Significant Findings……………………………………………………………………………………………………………                                                                                       148

Other Required Reports……………………………………………………………………………………………….……                                                                                       149

Abbreviations....................................................................................................................................   154




                    Semiannual Report to the Congress: April 1–September 30, 2012
                USAID Office of Inspector General




Semiannual Report to the Congress: April 1–September 30, 2012
                                         USAID Office of Inspector General


                      Message From the Deputy Inspector General


                                 I am pleased to            by our workforce and recognize the difficulties
                                 present the                they face every day to carry out their
                                 Semiannual Report          responsibilities. In particular, I want to recognize
                                 to the Congress for        those who have, over the course of OIG’s history,
                                 the period April 1—        sacrificed their lives serving their country and our
                                 September 30,              organization—including Oscar C. Holder, Sidney
                                 2012. This report          B. Jacques, Charles Hega, William Stanford,
                                 features highlights        Robert Hebb, and Rolando Barahona—whose
of oversight activities of the Office of Inspector          names are etched in USAID’s memorial wall.
General (OIG) for the United States Agency for
                                                            OIG’s employees serve to safeguard the integrity
International Development (USAID), the
                                                            of worldwide development and humanitarian
Millennium Challenge Corporation (MCC), the
                                                            assistance programs. OIG’s high–impact audits
United States African Development Foundation
                                                            and investigations help improve agency
(USADF), and the Inter–American Foundation
                                                            performance and are holding employees and
(IAF). During the reporting period, notable
                                                            contractors accountable to U.S. taxpayers. In the
highlights include $43.3 million1 in questioned
                                                            past 6 months, we have seen several
costs and funds recommended to be put to better
                                                            accomplishments in programs and operations of
use; nearly $500,000 in investigative recoveries
                                                            the organizations for which we provide oversight.
and savings; and 70 administrative actions.
                                                            For example, the Pakistan Anti–Fraud Hotline
The activities and achievements described in this
                                                            demonstrated noteworthy success when OIG
report are carried out by a staff of dedicated Civil
                                                            initiated an investigation into the $20 million
Service and Foreign Service professionals
                                                            Pakistan Children’s Television Project after
worldwide who make countless personal sacrifices
                                                            receiving numerous hotline complaints. The
to support our mission. They often live and work
                                                            investigation exposed substantial violations of
in areas that are far from home and fraught with
                                                            USAID procurement policies and standards.
violence and hardship, as we have witnessed
                                                            OIG referred the implementer to USAID for
recently in Egypt, Pakistan, and elsewhere. I want
                                                            debarment in May 2012, and USAID/Pakistan
to commend the significant contributions made
                                                            terminated the project in June 2012.
1
 Revised from previously issued report to reflect
corrections in data on pages 11 and 106.


             Semiannual Report to the Congress: April 1–September 30, 2012  1
                                       USAID Office of Inspector General


A recent OIG audit of Pakistan’s Gomal Zam                the USAID employee was suspended and all
Multipurpose Dam Project provides an example              51 contractors were referred to USAID for
of USAID progress in frontline states. In January         debarment.
2011, USAID Pakistan entered into an
                                                          For OIG to be a productive oversight
agreement with the Water and Power
                                                          organization, we must ensure that our own
Development Authority to finish the Gomal Zam
                                                          operations are efficient and effective. We have
Dam. At the time of OIG’s audit, the dam was
                                                          undertaken several initiatives toward that end.
98 percent complete, and the irrigation system
                                                          We have begun to implement our 2012–2016
was nearly halfway complete. OIG noted that the
                                                          strategic plan and have included in this report a
dam helped mitigate flood damage in 2011 and
                                                          summary of the organizational measures OIG will
that dam construction was expected to meet a
                                                          use to gauge its performance. Further, we are
critical need for water and energy in the region.
                                                          conducting an OIG employee satisfaction and
Oversight challenges remain, however. In the past         customer service survey to identify internal
6 months, OIG has noted concerns about the                improvement opportunities.
sustainability and efficiency of a number of
                                                          Although we have decreased our staff in Iraq, we
agency programs. For instance, OIG auditors
                                                          still must safeguard resources for planned
uncovered extensive vulnerabilities in building
                                                          projects. As I testified before Congress, OIG’s
the Juba–Nimule road in South Sudan. OIG
                                                          challenge as USAID continues to increase host–
determined that the road was not on schedule,
                                                          country participation in development activities
was not within budget, and would likely not be
                                                          will be to develop viable partners in the Iraqi
sustainable because the South Sudan
                                                          Government to coordinate prosecutions. As we
Government is unlikely to maintain it.
                                                          tackle this challenge, we will be able to apply
In addition, our investigations help maintain the         lessons to future drawdowns in other countries.
integrity of agencies’ activities and protect funds
                                                          We look forward to continuing to work with the
provided by U.S. taxpayers. Recently, an OIG
                                                          Congress and our partners and stakeholders to
investigation revealed that 51 local contractors
                                                          improve the efficiency and effectiveness of U.S.
and one USAID employee had participated in
                                                          foreign assistance programs.
fraudulent activity in Tanzania. In August 2012,




            Semiannual Report to the Congress: April 1–September 30, 2012  2
                                       USAID Office of Inspector General


                                               Introduction

                               History and Mandated Authority

USAID’s OIG was established on December 16,               The Inspector General Act authorizes the Inspector
1980, by statutory amendment2 to the Foreign              General to conduct and supervise audits and
Assistance Act of 1961.3 On December 29, 1981,            investigations. Our mission is to provide
the International Security and Development                independent oversight that promotes efficiency
                           4
Cooperation Act of 1981 brought the USAID                 and effectiveness and safeguards the integrity of
Inspector General under the purview of the                programs and operations under our jurisdiction.
                                 5
Inspector General Act of 1978. OIG assumed                Some of our work is mandated by statute or other
audit and investigative oversight of USADF and            requirements; other work is performed at the
IAF in 19996 and of MCC in 2004.7 OIG also                discretion of OIG. When identifying and
maintains limited oversight authority of the              prioritizing appropriate audit and investigative
Overseas Private Investment Corporation under             activity, we consider stakeholder interests and
22 U.S.C. 2199.                                           needs, alignment with strategic goals, program
                                                          funding, and the risks associated with the agency
                                                          programs, including potential vulnerabilities in

2
                                                          internal controls.
 International Security and Development
Cooperation Act of 1980, Public Law 96–533.
                                                                    Areas of Responsibility
3
    Public Law 87–195.
4
    Public Law 97–113.
5
    Public Law 95–452.                                    Audits. OIG audits activities relating to the
6
  Consolidated Appropriations Act, 2000, Public Law
106–113, Division B, Section 1000(a)(7), Admiral          worldwide foreign assistance programs
James W. Nance and Meg Donovan Foreign Relations          and agency operations of USAID, MCC,
Authorizations Act, Fiscal Years 2000 and 2001.
7
 Established in 2004 by the Millennium Challenge          USADF, and IAF. Audit activities include
Act of 2003 (Public Law 108-199, Div. D.), MCC is a       performance audits and reviews of programs and
U.S. Government corporation that works to reduce
poverty and stimulate economic growth in some of the      management systems, financial statement audits
poorest countries in the world. It has committed more
than $8 billion in foreign aid to 39 countries.           required under the Chief Financial Officers Act
When a country meets the performance standards of         of 1990,8 and audits related to the financial
MCC’s selection indicators, it may become eligible to
receive a compact—the chief grant instrument between
                                                          accountability of grantees and contractors.
MCC and the country to fund specific programs. Each
compact country identifies an entity or organization
that will manage the compact funds and oversee
compact implementation. Such entities are usually
                                                          8
called Millennium Challenge Accounts (MCAs).                  Public Law 101–576.


              Semiannual Report to the Congress: April 1–September 30, 2012  3
                                       USAID Office of Inspector General


Investigations. OIG investigates allegations of           transparency in USAID operations in
fraud, mismanagement, and misconduct relating             Afghanistan and Pakistan and to assist the
to the foreign assistance programs and operations         Department of Justice in addressing procurement
of our client agencies. Investigations of criminal,       and grant fraud.
civil, and administrative violations cover all facets
                                                          Southwest Asia Joint Planning Group. This
of these worldwide operations. OIG also works
                                                          group was formed to coordinate oversight
proactively by providing fraud awareness training
                                                          activities in Afghanistan and other countries in
and literature, audiovisual aids, and advice on
                                                          the region. The group comprises representatives
fraud prevention strategies for agency personnel
                                                          of the Offices of Inspector General for USAID,
and employees of foreign assistance implementers
                                                          Department of Defense and the Department of
worldwide.
                                                          State, the Government Accountability Office
Locations of OIG Offices. OIG carries out its             (GAO), the Special Inspector General for Iraq
audit and investigative work in about                     Reconstruction, the Special Inspector General for
100 countries from offices in:                            Afghanistan Reconstruction, the U.S. Army
                                                          Audit Agency, the Naval Audit Service, the Air
•   Baghdad, Iraq
                                                          Force Audit Agency, and the Defense Contract
•   Cairo, Egypt
                                                          Audit Agency (DCAA).
•   Dakar, Senegal
•   Islamabad, Pakistan                                   Department of Justice Task Forces. OIG
•   Kabul, Afghanistan                                    actively participates on two Department of Justice
•   Manila, Philippines                                   task forces—the National Procurement Fraud
•   Port–au–Prince, Haiti                                 Task Force and the International Contract
•   Pretoria, South Africa                                Corruption Task Force. The mission of both task
•   San Salvador, El Salvador
                                                          forces is to promote the early detection,
•   Tel Aviv, Israel
                                                          prevention, and prosecution of procurement and
•   Washington, D.C.
                                                          grant fraud associated with increased contracting
                                                          activity for national security and other
      Joint Work and Partners
                                                          government programs.
OIG participates in task forces and cooperates
                                                          Coordinated Audit Plan for HIV/AIDS,
with other interagency groups. In this reporting
                                                          Tuberculosis, and Malaria. OIG collaborates
period, for example, OIG contributed to task
                                                          with its counterparts at the Departments of State
forces to provide oversight for accountability and
                                                          and Health and Human Services (HHS) to


             Semiannual Report to the Congress: April 1–September 30, 2012  4
                                      USAID Office of Inspector General


develop an annual consolidated audit plan. The           issues of mutual interest. In support of the
three OIGs work together to determine the                group’s efforts, OIG is preparing an analysis of
audits each office will conduct to a make the best       the differences between the audit standards
use of U.S. Government resources in the fight            issued by GAO, the International Federation of
against HIV/AIDS, tuberculosis, and malaria. In          Accountants, and the International Organization
FY 2013, the USAID and HHS OIGs will                     of Supreme Audit Institutions. Harmonization of
conduct concurrent audits in Ethiopia.                   audit standards has the potential to achieve
                                                         efficiencies and reduce the audit burden on aid
Working With Bilateral Donors. OIG is
                                                         recipients that receive funding from multiple
participating in a group of 11 bilateral donors
                                                         sources.
that are working to harmonize audit standards,
improve transparency and accountability of
multilateral organizations, and take on other




            Semiannual Report to the Congress: April 1–September 30, 2012  5
                                      USAID Office of Inspector General


                                    Reporting Requirements

The Inspector General Act of 1978, as amended            8. Statistical tables showing:
(5 U.S.C. Appendix 3), and other public laws set
                                                             (a) The total number of reports at the
forth congressional reporting requirements for
                                                                 beginning of the period for which a
the Offices of Inspector General. There are
                                                                 management decision had not been
15 general categories of reporting requirements:
                                                                 made, including the total dollar values of
                                                                 questioned and unsupported costs
1. Significant problems, abuses, and deficiencies
                                                                 associated with these reports.
    uncovered.
                                                             (b) The total number of reports during the
2. Recommendations for corrective action
                                                                 reporting period, including the total
    identified.
                                                                 dollar value of questioned costs and
3. Recommendations described previously for
                                                                 unsupported costs associated with these
    which corrective action has not been
                                                                 reports.
    completed.
                                                             (c) The total number of reports during the
4. Investigative activities, including matters
                                                                 reporting period for which a
    referred to prosecutive authorities.
                                                                 management decision was made,
5. Reports of incidents in which OIG was                         including the dollar value of disallowed
    refused assistance or information.                           costs and the dollar value of costs

6. Questioned costs (QC), unsupported costs                      allowed.

    (UN), and the dollar value of                            (d) The total number of reports for which
    recommendations that funds be put to better                  no management decision had been made
    use (BU).                                                    by the end of the reporting period.

7. A summary of each particularly significant            9. Statistical tables showing:
    report.




              Semiannual Report to the Congress: April 1–September 30, 2012  6
                                        USAID Office of Inspector General



    (a) The total number of reports at the                     end of the reporting period (including the
        beginning of the period for which a                    date and title of each such report), an
        management decision had not been                       explanation of the reasons such management
        made, including the total dollar values of             decision has not been made, and a statement
        recommendations that funds be put to                   concerning the desired timetable for
        better use.                                            achieving a management decision on each
                                                               such report.
    (b) The total number of reports issued
        during the reporting period, including             11. Revisions of management decisions,
        the total dollar value of funds put to                 including a description and explanation of
        better use.                                            the reasons.

    (c) The total number of reports during the             12. Management decisions with which the

        reporting period for which a                           Inspector General is in disagreement.

        management decision was made,                      13. Noncompliance with the Federal Financial
        including the dollar value of                          Management Improvement Act of 1996.
        recommendations that were agreed to by
                                                           14. Significant audit findings from contract audit
        management, and the dollar value of
                                                               reports.
        recommendations that were not agreed
        to by management.                                  15. Peer review results, including the following:

    (d) The total number of reports for which                  (a)    Reviews conducted on OIG during

        no management decision had been made                          the reporting period, or the date of its

        by the end of the reporting period.                           last peer review and any
                                                                      unimplemented recommendations.
    (e) A list of reviews conducted by OIG
        during the reporting period.                           (b)    A list of reviews conducted by OIG
                                                                      during the reporting period.
    (f) A list of outstanding recommendations
        made by OIG during the reporting                       (c)    A list of outstanding

        period.                                                       recommendations made by OIG
                                                                      during the reporting period.
10. Reports previously issued for which no
    management decision had been made by the




           Semiannual Report to the Congress: April 1–September 30, 2012  7
                                        USAID Office of Inspector General



                       OIG Organizational Performance Measures

OIG established the following measures in its 2012–2016 strategic plan. We will report the data on these
measures and establish baselines for future reporting in our spring 2013 semiannual report.

Goal 1: Strengthen the ability of the organizations for which OIG provides oversight to manage and
deliver foreign assistance efficiently and effectively through audit products and activities.

                                              Measure
              Percentage of audits with recommendations that focus on program
              effectiveness and efficiency9
              Percentage of agency expenditures audited
              Hours per audit

Goal 2: Deter and detect fraud, corruption, criminal activity, and misconduct in the programs, operations,
and workforce of the organizations for which OIG provides oversight.

                                                  Measure
              Percentage of OIG investigations resulting in substantiated allegations that
              were referred for criminal, civil, or administrative action
              Percentage of referrals that resulted in criminal, civil, or administrative
              action
              Number of individuals reached through outreach events

Goal 3: Provide useful, timely, and relevant information to enable stakeholders to make informed
decisions.

                                             Measure
              Number of briefings and testimonies provided to Congress
              Number of hits on the OIG Web site




9
 Includes audits with recommendations in the following categories: performance targets not met, insufficient
coordination among development partners, risk to projects’ sustainability, lack of host–country support, inefficient
operations, unsatisfactory contractor performance, and inadequate commodity management or storage.




             Semiannual Report to the Congress: April 1–September 30, 2012  8
                                     USAID Office of Inspector General



Goal 4: Continually improve the efficiency, effectiveness, and quality of OIG operations and outputs.

                                             Measure
            Percentage of employees indicating satisfaction with OIG customer service,
            operations, and initiatives
            Percentage of major management milestones met relating to strategic
            planning, continuity of operations, policy development, financial resource
            management, operations planning, and external reporting requirements
            Percentage of OIG hours spent on indirect tasks

Goal 5: Recruit, develop, and retain a highly qualified, motivated, and diverse workforce with the
necessary tools and training to fulfill OIG’s mission.

                                               Measure
            Percentage of vacancies with qualified candidates accepting an offer of
            employment within 120 days
            Percentage of highly performing employees retained
            Percentage of OIG employees expressing satisfaction with management
            policies and procedures, opportunities to improve their skills, their ability to
            use their talents, recognition for good performance, and personal
            empowerment in work processes and their jobs
            Percentage of employees completing required core curriculum training for
            their level




           Semiannual Report to the Congress: April 1–September 30, 2012  9
                                      USAID Office of Inspector General




                           Summary Table of Audits Conducted
                               USAID, USADF, and IAF
                               April1–September 30, 2012
                                                                             Amount of
                                                         Number of
                         Type of Report                                   Recommendation
                                                          Reports
                                                                               ($)
            Financial Audits
            American Recovery and Reinvestment Act
                                                                0                     0
            of 2009, Public Law III–5 (ARRA)
            USAID programs and operations                       0                     0
            Foundations’ programs and operations                0                     0
            U.S.–based contractors                             23             2,756,015
                  Quality control reviews                       0                     0
            U.S.–based grantees                                46             4,582,210
                  Quality control reviews                       2                     0
            Foreign–based organizations                       179            11,947,895
                  Quality control reviews                       4                     0
            Foreign Government Funding                          3            10,435,607
            Local Currency Trust Fund                           1                     0
            Enterprise funds                                    0                     0

            Performance Audits
            USAID economy and efficiency                       30             2,029,623
            Foundations’ economy and efficiency                 1               36,015
            Other                                               7             3,053,25910

            Total                                            296           34,840,624




10
     Better Use Funds.



              Semiannual Report to the Congress: April 1–September 30, 2012  10
                              USAID Office of Inspector General




                   Summary Table of Audits Conducted
                                  MCC
                       April 1–September 30, 2012
                                                                     Amount of
                                            Number of
         Type of Report                                           Recommendations
                                             Reports
                                                                       ($)
Financial Audits
U.S.–based contractors                            0                        0

U.S.–based grantees                               0                        0

Foreign–based organizations                      12                 2,282,366

  Quality control reviews                         2                        0

Performance Audits
Economy and efficiency                            3                        0

Other                                             4                 6,150,848

Totals                                           21                 8,433,214




   Semiannual Report to the Congress: April 1–September 30, 2012  11
                                            USAID Office of Inspector General


                            Investigative Activities Including Matters
                              Referred to Prosecutive Authorities
                                            April 1–September 30, 2012


                     Workload                                                       Civil Actions

 Investigations opened                               56           Civil referrals                          2
 Investigations closed                               63           Civil declinations                       0
                                                                  Complaints                               0
                                                                  Judgments                                0
                                                                  Settlements                              1
                                                                  Total                                    3

                 Criminal Actions                                           Administrative Actions

 Prosecutive referrals                               12           Reprimands/demotions                     1
 Prosecutive declinations                             2           Personnel suspensions                    4
 Arrests                                              2           Resignations/terminations               30
 Indictments                                          2           Recoveries                               4
 Convictions                                          0           Savings                                  0
 Sentencing                                           0           Suspensions/debarments                  28
 Fines/assessments                                    0           Systemic changes                         0
 Restitutions                                         0           Other                                    3
Total                                                18          Total                                   70
 Judicial recoveries (criminal and civil)                                                           $401,371
 Administrative recoveries                                                                           $88,050
 Savings
 Total savings / recoveries                                                                         $489,421




                Semiannual Report to the Congress: April 1–September 30, 2012  12
                                USAID Office of Inspector General


        Fraud Awareness Briefings Conducted Worldwide
                 April 1–September 30, 2012

Month          Location              Sessions     Attendees                  Affiliation
        Amman, Jordan                     1            54       USAID personnel

        Baghdad, Iraq                     3            12       USAID personnel
 APR    Kabul, Afghanistan                2            60       USAID personnel

        Belize City, Belize               1            7        USAID implementers/subcontractors


                                                                    USAID personnel
        Kabul, Afghanistan                2            11
                                                                    USAID personnel
        Dar es Salaam, Tanzania           2            54
                                                                    USAID contractors
        Washington, D.C.                  2            35
 MAY
                                                                    USAID implementers,
        Islamabad, Pakistan               2            9
                                                                    subcontractors, and contractors
        Chisinau, Moldova                 1            14
                                                                    USAID personnel




        Amman, Jordan                     1            80           USAID partners

        San Salvador, El Salvador         1            15           USAID personnel

                                                                    USAID personnel and implementers
        Islamabad, Pakistan               5           119
                                                                    USAID personnel, contractors, and
        Kabul, Afghanistan                3            96
                                                                    implementers
 JUN    Managua, Nicaragua                4            68
                                                                    USAID personnel and contractors
        Washington, D.C.                  2            50
                                                                    USAID personnel
        Rabat, Morocco                    1            22
                                                                    USAID partners and implementers

        Research Triangle Park, NC        1            83           USAID contractors




   Semiannual Report to the Congress: April 1–September 30, 2012  13
                                    USAID Office of Inspector General


Month             Location               Sessions     Attendees                 Affiliation


           Rabat, Morocco                     2            61           USAID personnel

           Addis Ababa, Ethiopia              1             7           USAID contractors

           Baghdad, Iraq                      1            21           USAID implementers

           Cairo, Egypt                       1            21           USAID contractors

           Karachi, Pakistan                  3            26           USAID contractors
 JUL
           Pretoria, South Africa             1            16           USAID implementers

           Washington, D.C.                   1            11           USAID personnel

           Herat, Afghanistan                 3            120          USAID contractors

           Kabul, Afghanistan                 5            57           USAID personnel and contractors




           San Salvador, El Salvador          1             5           USAID personnel

           Georgetown, Guyana                 1             9           USAID contractors
 AUG
           Pretoria, South Africa             2            42           USAID personnel

           Kabul, Afghanistan                 4            33           USAID personnel




           Baghdad, Iraq                      1            33           USAID implementers

           Harare, Zimbabwe                   2            201          USAID personnel
 SEPT      Kabul, Afghanistan                 3            22           USAID personnel

           Pretoria, South Africa             5            140          USAID personnel and contractors




                                             71          1,614
Total




       Semiannual Report to the Congress: April 1–September 30, 2012  14
                                     USAID Office of Inspector General




                                              Peer Reviews
                              USAID, USADF, IAF, and MCC
                                 April 1–September 30, 2012



The Dodd–Frank Wall Street Reform and                   Investigations: April 2011
Consumer Protection Act (Public Law 111–203)
                                                        Outstanding recommendations for any
requires federal inspectors general to report on
                                                        peer review conducted on USAID OIG
results of peer reviews in their semiannual
                                                        that have not been fully implemented:
reports.
                                                        Audit: None
Results of peer reviews conducted on
USAID OIG during the reporting period:                  Investigations: None

Audit: The U.S. Department of Energy Office of          Peer reviews conducted by USAID OIG
                                                        during the reporting period and any
Inspector General conducted a peer review and
                                                        outstanding recommendations from any
the final report was issued on September 20,
                                                        previous peer review:
2012. USAID/OIG was given a rating of “pass.”
                                                        Audit: USAID/OIG conducted a peer review of
Investigations: No peer reviews were conducted
                                                        the U.S. Department of Treasury Office of
during this period.
                                                        Inspector General, and the final report was issued
Date of the last peer review conducted on               on September 6, 2012, with a rating of “pass.”
USAID OIG:
                                                        Investigations: None
Audit: September 2012




           Semiannual Report to the Congress: April 1–September 30, 2012  15
                                    USAID Office of Inspector General

                            Significant Findings and Activities

              United States Agency for International Development


                                                       agreement with Mercy Corps to implement the
Response to Crisis, Conflict, and
          Instability                                  Localizing Institutional Capacity in Sudan
                                                       (LINCS) civil society program. The 3–year
USAID Ends $20 Million Pakistan                        program, originally budgeted for $8.4 million,
Children’s Television Project. In June 2012,           was subsequently extended and its budget was
USAID terminated the $20 million Pakistan              increased to $39 million. In 2009, the mission
Children’s Television Project implemented by the       entered into a second, nearly 3–year cooperative
Rafi Peer Theater Workshop (RPTW) following            agreement with Mercy Corps for the Mercy
an extensive OIG investigation that was initiated      Corps–Building Responsibility for Delivery of
by several complaints from the OIG hotline. OIG        Government Services (MC–BRIDGE) program,
documented that the organization violated              valued at $53.5 million.11 However, in 2011,
USAID procurement regulations and provided             based on numerous performance concerns,
false information to USAID in order to award           USAID decided to terminate both programs.
funds to certain vendors. Senior personnel from
                                                       Despite spending millions of dollars, neither
the organization admitted to OIG investigators
                                                       LINCS nor MC–BRIDGE completed many
that they misrepresented facts regarding the
                                                       planned activities because of mismanagement by
procurements in documents submitted to
                                                       USAID and Mercy Corps. For instance, instead
USAID. The investigation also revealed
                                                       of having the LINCS chief of party run the
numerous instances of competitive bids from
                                                       program and answer to USAID, Mercy Corps’
nonexistent vendors, placement of fake bids in
                                                       country director assumed responsibility for the
RPTW procurement files, missing inventory, and
                                                       finances and prioritized spending on the staff’s
other violations of USAID regulations. OIG
                                                       residential and office compounds instead of on
referred the organization to USAID for
                                                       the program. In addition, Mercy Corps intended
debarment in May 2012.
                                                       to keep at least five of the compounds for other
Audit of USAID/South Sudan’s Programs
Implemented by Mercy Corps (Report
                                                       11
                                                         Mercy Corps, along with 12 other aid agencies, was
Number 4–668–12–009–P). In 2005,                       expelled from Sudan in March 2009. The aid agencies
                                                       were allowed back into the country in June 2009 to
USAID/Sudan entered into a cooperative
                                                       resume activities.



           Semiannual Report to the Congress: April 1–September 30, 2012  16
                                        USAID Office of Inspector General

programs, including those not sponsored by the             and intentionally overlooked others to further
U.S. Government.                                           program objectives.

Buildings that were started were often left
unfinished or were in substandard condition. A
Mercy Corps official described an
$81,600 project to build four poultry houses in
the Abyei area as a complete fiasco because Mercy
Corps had no expertise in constructing or
operating poultry houses. A vocational training
center, for which construction began without
USAID’s approval, was never finished despite
                                                             This unused LINCS computer room in Yei lacks
more than $1 million having been spent on the                       Internet access (photo by OIG).
project. A Mercy Corps official who visited the            Many projects were also not sustainable. At
center during audit fieldwork said he was                  several resource centers, auditors observed that
repulsed by its condition. Ceilings, walls, and            advisory boards lacked the capacity and resources
floors were nonexistent or incomplete in some              to operate the centers and noted their inability to
structures, and no water, plumbing, or septic              pay monthly phone, Internet, and fuel expenses,
systems were in place. In addition, the center was         in addition to essential staff. As a result,
in a remote location that is essentially                   computer and Internet services were unavailable.
inaccessible during the rainy season.                      Advisory board members pointed out residential
                                                           and work structures in need of repair.
Mercy Corps also did not comply with
environmental requirements. In some cases,                 OIG made 14 recommendations, and
proper documentation was missing or was not                management decisions were made on 9 of them.
submitted until construction had already started.          Four recommendations for $1,576,419 in
Mercy Corps could not provide documentation                questioned costs—including construction
to support arsenic or fecal testing at any water           activities begun prior to USAID approval and
sources constructed or refurbished under MC–               unsupported compensation costs—await the
BRIDGE, although USAID informed Mercy                      agreement officer’s determination. One
Corps on at least two occasions that it was                additional recommendation remains open
responsible for maintaining these results. These           pending the agreement officer’s determination of
instances of noncompliance occurred because                any compensation required to be paid to the U.S.
Mercy Corps misunderstood some regulations                 Government in connection with Mercy Corps’

            Semiannual Report to the Congress: April 1–September 30, 2012  17
                                         USAID Office of Inspector General

retention of certain office compounds built with            and issued certificates indicating transfer of
U.S. Government funds.                                      ownership. The contractor turned the facilities

Audit of USAID/Pakistan’s                                   over to the Government of Pakistan within the

Reconstruction Program in Earthquake–                       estimated time and budget, and the government

Affected Areas (Report No. G–391–12–                        was using most of these facilities for their

007–P). On October 8, 2005, a 7.6–magnitude                 intended purposes. Construction was under way

earthquake struck the mountainous region of                 on 21 buildings (20 schools and a district

northern Pakistan. In response to this disaster,            hospital), and the contractor was bidding on sites

the Government of Pakistan established the                  for 5 additional structures.

Earthquake Reconstruction and Rehabilitation
                                                            However, several problems need to be addressed.
Authority (ERRA) to coordinate, monitor,
                                                            OIG observed that a two–story health–care
regulate, and oversee all reconstruction and
                                                            facility built by the implementer was not in use
rehabilitation activities in earthquake–affected
                                                            and had deteriorated without maintenance. OIG
areas. In January 2006, USAID/Pakistan and the
                                                            noted damage to the roof tiles, a high–voltage
Government of Pakistan signed a $200 million
                                                            electrical cable running across the roof of the
special objective assistance agreement that
                                                            building, a broken window, mold on the interior
formalized U.S. support for Pakistan’s
                                                            walls, and the absence of running water or
reconstruction program. The largest component
                                                            electricity. According to the contractor, a land
was a 5–year, $120 million contract awarded to
                                                            dispute concerning the old facility kept the
the construction firm Camp Dresser and McKee,
                                                            Government of Pakistan from moving, and as a
International, Inc.12 In June 2011, USAID/
                                                            result, the local residents could not use the new
Pakistan extended the contract to June 2013 and
                                                            facility, for which USAID/Pakistan spent
increased its ceiling to $180 million.
                                                            $864,000. In addition, OIG noted damaged roof

USAID/Pakistan’s reconstruction activities have             tiles at many completed facilities. Contractor staff

made progress. As of May 2012, the contractor               members said that damaged roof tiles would be

had completed 51 of the 77 facilities (36 schools           replaced with better tiles at no cost to USAID.

and 15 health–care facilities) and turned them
                                                            To comply with Part XIV of the Pakistan
over to the Government of Pakistan. ERRA
                                                            Companies Ordinance of 1984, the contractor
officials inspected the completed buildings to
                                                            engaged a local accounting firm to conduct four
verify that they met the technical specifications
                                                            audits from 2007 to 2010. The contractor did
                                                            not submit these audit reports to USAID because
12
  In 2011, Camp Dresser and McKee, International,
Inc., changed its name to CDM Smith.                        the audits were not required under the contract,


           Semiannual Report to the Congress: April 1–September 30, 2012  18
                                      USAID Office of Inspector General

and the contractor saw no reason to submit               monitoring plans and data quality assessments.
them. Moreover, although the reports were not            Because it is designed to respond quickly to
required, multiple deficiencies were noted that          disasters, OFDA lacks a systematic monitoring
related directly to the USAID–funded program,            process. However, when OFDA engages in long–
including questioned costs of approximately              term, risk–reduction programming designed for
$117,800 related to large purchases made in cash,        sustainability, the rationale for this exemption is
purchases missing approvals, incomplete                  no longer valid. Without this long term planning
receiving reports, and purchases made from               in place, OIG determined that, although the
vendors that were not the lowest bidders.                project was mitigating the ongoing effects of the
                                                         complex emergency in Zimbabwe, multiple
Management decisions have been reached on
                                                         problems still existed.
three of four recommendations, and final action
was taken on one.                                        OFDA does not have a comprehensive
                                                         monitoring and evaluation system to assess the
Audit of USAID’s Office of Foreign
                                                         success of its activities. For example, OFDA’s
Disaster Assistance Activities in
                                                         strategy for disaster risk reduction emphasizes
Zimbabwe (Report No. 4–613–12–008–P).
                                                         rainwater harvesting tanks rather than the use of
In fiscal year 2012, Office of Foreign Disaster
                                                         wells, because well pumps need to be maintained.
Assistance (OFDA) operations in Zimbabwe
                                                         However, during site visits, auditors found that 5
shifted from disaster response activities to risk
                                                         of 14 recently constructed USAID rainwater
reduction programming. For this audit, OIG
                                                         harvesting tanks were no longer functional.
focused only on certain projects that were active
                                                         Another reason for OFDA’s emphasizing
as of February 2012, and which totaled
                                                         rainwater harvesting tanks was to mitigate cholera
$6.5 million. Implementers included Medair
                                                         outbreaks. However, tanks generally collect water
International, GOAL (a relief and development
                                                         only during the rainy season. Water collected
organization based in Ireland), International
                                                         may be consumed within days or weeks, whereas
Medical Corps, the International Rescue
                                                         wells provide water throughout the year. In
Committee, Population Services International,
                                                         addition, one of the worst cholera outbreaks in
Adventist Development and Relief Agency
                                                         recent years started during the dry season, when
International, and Mercy Corps.
                                                         the tanks would have been empty or at their
To allow OFDA to respond to emergencies,                 lowest levels. In addition, 2 of 14 water samples
USAID exempts the office from some                       collected from USAID–sponsored wells and
management requirements, such as performance             tanks tested positive for coliform bacteria,



            Semiannual Report to the Congress: April 1–September 30, 2012  19
                                     USAID Office of Inspector General

indicating that some beneficiaries were drinking        was designed to help Haiti strengthen its
potentially unsafe water. Further, beneficiaries        economy and public institutions in the three
trained by OFDA grantees did not build some             strategic development corridors of Port–au–
latrines at the recommended distance from their         Prince, Saint–Marc, and Cap–Haitien.
water source.
                                                        OIG found that many OTI activities are
                                                        providing benefits, such as relocating more than
                                                        1,200 internally displaced families and providing
                                                        temporary meeting space for the Haitian
                                                        Parliament, whose headquarters partially
                                                        collapsed during the earthquake.

                                                        Although individual activities had positive local
                                                        impact, OIG found that OTI was not using a
                                                        structured system for measuring and reporting
                                                        whether the initiative was meeting its national
                                                        objectives, thereby making it difficult to measure
                                                        the program’s impact. Furthermore, the initiative
                                                        was not on track to complete all activities before

 This rainwater–harvesting tank built by Adventist      the scheduled end date of September 2012,
Development and Relief Agency International did
                                                        leaving nearly $18 million available for new
not cure properly and shows water seeping through
             the side (photo by OIG).                   activities that needed to be approved,
OIG made two recommendations to address this            implemented, completed, and closed in the 7
issue and management decisions have been                months that remained.
reached on both recommendations.
                                                        OIG also found that more community
Audit of USAID/Haiti’s Recovery                         involvement was required in developing
Initiative Activities Managed by Office of              programs. For example, program officials
Transition Initiatives (Report No. 1–521–               expressed concern that some activities did not
12–009–P). In March 2011, the Office of                 take advantage of local knowledge of the area,
Transition Initiatives (OTI) awarded Chemonics          using contractors from other locations. As a
International, Inc. a $53 million contract to           result, local residents saw jobs going to outsiders,
continue work under the second phase of Haiti           and they did not understand how they were
Recovery Initiatives, known as HRI–II. HRI–II           directly benefitting from activities. In one



           Semiannual Report to the Congress: April 1–September 30, 2012  20
                                     USAID Office of Inspector General

instance, a lack of coordination in a tree–             Transition Initiatives for Stabilization programs
planting effort resulted in seedlings’ dying from       from Nairobi, Kenya. The OIG investigation
lack of care.                                           revealed that, not only were payments made to
                                                        the COR for travel expenses (including airfare,
Short–term technical assistance provided to
                                                        lodging, and per diem), but procurements were
Haiti’s national mapping agency did not meet the
                                                        also made on behalf of multiple USAID
organization’s expectations. Although the
                                                        employees. Investigators also discovered that the
consultant told Chemonics that she was having
                                                        COR had provided an unauthorized
difficulty discerning what the mapping agency
                                                        memorandum on USAID letterhead to the
wanted from her, Chemonics did not ask the
                                                        USAID contractor stating that the contract
organization whether the consultant was meeting
                                                        allowed for procurements for USAID staff such
its needs.
                                                        as equipment, office space, and travel expenses.
Finally, OIG found that in the case of one              In addition, the COR directed the USAID
activity—jatropha planting—the required                 implementer and staff to book travel and receive
environmental review and mitigation and                 per diem through the contractor. The mission
monitoring plan had not been conducted before           revoked the PSC’s COR designation, placed the
planting commenced; a mitigation and                    employee on administrative leave, and decided
monitoring plan was submitted to USAID/Haiti            not to renew the PSC’s contract. The PSC’s
and OTI for approval only after the work had            employment with USAID was terminated in
been done.                                              September 2012.

Management decisions were reached on all eight                           Democracy
OIG recommendations, and final action was
taken on six.                                                         Good Governance

USAID Contractor Suspended for                          Employee Debarred After Embezzling
Misconduct and Mismanagement. In                        Approximately $180,000 From a USAID
September 2012, OIG learned from officials at           Project in Ukraine. In November 2011, the

the USAID Mission in Kenya that a USAID                 country resident director for a USAID
implementer had submitted vouchers to USAID             implementing partner in Kiev, Ukraine, resigned
that included charges for expenses incurred by a        after confessing to embezzling more than
USAID personal services contractor (PSC). The           $180,000 from a USAID–financed project. He
PSC was a program manager and contracting               admitted being able to cover the theft by taking
officer’s representative (COR) managing the             loans from friends to mask the loss of project


             Semiannual Report to the Congress: April 1–September 30, 2012  21
                                      USAID Office of Inspector General

funds and to continue program activities                 although relatively small in scope—were achieving
uninterrupted.                                           positive results at the community level.

However, soon thereafter he had difficulty               The program funded several projects designed to
obtaining further loans to cover the funds he had        engage religious leaders from four different
taken, and the previous loans needed to be paid          faiths—Buddhism, Hinduism, Islam, and
back. He then began to request additional money          Christianity—to promote peaceful coexistence in
from the organization’s home office in                   their communities. In one village, Muslims said
Washington, D.C., and used those funds to pay            they previously did not interact with a nearby
back the loans and to gamble in an attempt to            community for fear of being attacked. However,
win back the money. The subject resigned before          after engaging in activities sponsored by the
he could be terminated and left Ukraine. He was          program, such as volunteer projects, Muslim
subsequently suspended indefinitely by USAID             villagers now visit the village regularly to attend
and was debarred in September 2012.                      festivals, work as laborers, and buy and sell
                                                         vegetables.
Audit of USAID/Sri Lanka’s Supporting
Regional Governance Program (Report                      Working with local governments in the conflict–
No. 5–383–12–006–P). In March 2008,                      affected areas, program implementers have
USAID signed a 5–year, $13.9 million contract            provided training to 43 local authorities in the
with Tetra Tech ARD to implement the                     Eastern Province to develop their capacity and
Supporting Regional Governance Program                   improve overall performance. In addition, the
(SRGP), primarily in Sri Lanka’s Eastern and             program promotes public discourse on local
Northern Provinces. OIG found that the                   issues partly through support to civil society
program was generally achieving its objective            organizations (CSOs). Using grants to aid these
despite having to operate in a restrictive               organizations, implementers have directly assisted
environment. Program activities, for example,            44 CSOs, providing direct financial support to
were often subject to government scrutiny,               help sustain them, as well as capacity building
delaying the start–up of some activities while also      and technical support to improve their ability to
forcing Tetra Tech ARD and its partners to               implement projects. Through these CSOs, the
exercise caution in implementing their projects.         program has indirectly benefited 28 community–
Despite these challenges, the program’s staff            based organizations, many of which received
managed to implement a range of activities, and          training under the program to help empower
the auditors found the programs they visited—            their members to address a variety of community




           Semiannual Report to the Congress: April 1–September 30, 2012  22
                                      USAID Office of Inspector General

issues. Further, SRGP assisted 108 war widows in         to the Visayan Forum Foundation, which had a
establishing income–generating activities.               $2.4 million cooperative agreement with USAID,
                                                         following OIG’s confirmation of fraud in relation
However, OIG found that the program
                                                         to a program intended to counter human
encountered problems in assisting one CSO,
                                                         trafficking. OIG’s investigation revealed
Sarvodaya, in establishing an electronic
                                                         significant procurement irregularities and
monitoring and evaluation system for collecting,
                                                         potential violations of USAID procurement
storing, and reporting results data. Reaching
                                                         policies. Given the important role of the
more than 15,000 villages nationwide, the
                                                         Philippines National Bureau of Investigation
Sarvodaya organization is one of the largest CSOs
                                                         (NBI) in combating fraud and corruption, OIG
in Sri Lanka and also the largest provider of relief
                                                         shared the interim results of its investigation with
and rehabilitation in the conflict–affected areas
                                                         NBI, which then executed a search warrant.
in northern and eastern Sri Lanka.
                                                               Rule of Law and Human Rights
Management decisions have been made on the
two recommendations.                                     Audit of USAID/Colombia’s Access to
                                                         Justice Program (Report No. 1–514–12–
Cooperation Between Chemonics and
                                                         005–P). In July 2010, USAID/Colombia issued
OIG Results in Employee Termination
and Debarment. A contract employee was                   a $14 million task order to Management Sciences

debarred in September 2012 following a referral          for Development, Inc., (MSD) to implement the

from OIG and an internal investigation by                Access to Justice Program. OIG identified several

Chemonics, which reported to OIG that one of             positive outcomes resulting from program

its employees in Afghanistan embezzled                   implementation. For example, law students,

approximately $7,600 from the $149 million               public defenders, conciliators, government

Regional Afghan Municipalities Program for               officials, and others benefited from the training

Urban Population (RAMP–UP South) Program.                and equipment provided to offices and

The OIG investigation examined the Chemonics             courtrooms throughout the country.

internal report of investigation, bank records,          Despite the positive outcomes, OIG determined
and personnel files and referred the employee for        that the program experienced significant delays
debarment to USAID.                                      and that approximately 26 percent of the targets

OIG Investigation Leads to Suspension of                 were unlikely to be achieved by the end of the

USAID Program in the Philippines. In                     program. OIG stated that the delays were caused

September 2012, USAID suspended all funding              by overly ambitious expectations for the first year.


           Semiannual Report to the Congress: April 1–September 30, 2012  23
                                       USAID Office of Inspector General

Specifically, establishing a head office and four         OIG made ten recommendations, and
regional offices, along with other start–up tasks,        management decisions were reached on all ten.
consumed more time than anticipated.
                                                          Follow–Up Audit of USAID/Mexico’s Rule
Furthermore, MSD had not properly budgeted or
                                                          of Law and Human Rights Program
planned for the regional offices. As a result, some
                                                          (Report No. 1–523–12–007–P). In 2008, the
offices had difficulty securing staff and suffered
                                                          Mexican Government introduced constitutional
from high turnover.
                                                          and legislative changes aimed at reforming the
OIG found that the program had not planned                country’s police, prosecutors, public defenders,
adequately for some of its activities. The security       courts, and penitentiaries at the state and federal
plan and manual lacked important elements and             levels by May 2016. To help Mexico bring these
were never approved by USAID/Colombia. OIG                reforms about, USAID/Mexico designed the
noted that because many of the program’s                  Rule of Law Program. The $60 million program
activities take place in dangerous areas, the lack        was implemented by Management Systems
of a well–defined security plan potentially               International (MSI), MSD, and the United
endangered contractors and put activities at risk         Nations High Commissioner for Human Rights.
of not being completed. In addition, MSD’s staff          OIG previously audited the program13 and
and subpartners were not using the security               concluded that the related activities had limited
manual. In fact, most people were not aware it            success because the mission did not deliver
existed although it was a contract requirement.           technical advisory services to reach maximum
                                                          efficiency, effectiveness, and sustainability, mainly
Finally, MSD did not always follow branding and
                                                          because the program lacked focus.
marking requirements, and USAID did not
provide oversight in some cases. MSD                      OIG determined that the actions USAID/
representatives indicated that marking became a           Mexico took in response to the previous audit
lower priority as they focused on getting back on         report’s recommendations were largely effective.
schedule. However, OIG noted that USAID–                  However, OIG identified additional areas for
funded assets are at greater risk of being lost or        improvement regarding the mission’s response to
stolen if they are not monitored or marked. In            the tracking and recording of training. For
addition, MSD performed a detailed review of              instance, MSI’s comprehensive database tracks
the program costs incurred and determined that            and maintains all the training provided under the
nearly 60 percent of total expenses and
64 percent of other direct costs were outside of          13
                                                            “Audit of USAID/Mexico’s Rule of Law and
                                                          Human Rights Program,” Report No. 1-523-11-001-P,
the targeted zones.
                                                          January 12, 2011.


            Semiannual Report to the Congress: April 1–September 30, 2012  24
                                       USAID Office of Inspector General

contract, information that would be valuable to           previously. OIG also found that although
the mission and to the Mexican Government.                USAID/South Sudan built sustainability into the
Nevertheless, it is unclear what will happen to the       project, it was doubtful that the benefits from the
database after the program ends and the mission           road would be sustained because the
has not made plans on how it will be retained.            Government of South Sudan is unlikely to
                                                          maintain the road.
OIG made three recommendations in the follow
up report. Management decisions were made on              Because LBG officials decided that the road
all three, and final action was taken on two.             project was too large for one subcontractor to
                                                          finish on time, they separated it into three
           Economic Growth
                                                          sections and put each one up for bid. However,

Follow–Up Audit of USAID/South Sudan’s                    two of the subcontractors failed to perform,

Road Infrastructure Activities (Report                    leading LBG to replace them. The companies

No. 4–668–12–010–P). The Juba–Nimule road                 selected had higher costs than their predecessors

is part of USAID’s Sudan Infrastructure Services          and—with the costs incurred by hiring new

Project, which the Louis Berger Group Inc.                contractors—have added more than $50 million

(LBG) carried out through a 5–year, $700 million          to the budget. In addition, the new contractors

contract that ended in September 2011. On                 were already behind schedule.

August 27, 2007, USAID/Sudan started the road
                                                          Despite a requirement to list certain deliverables
by signing a $250 million task order. Initially, the
                                                          in the task order, the only project defined was the
mission planned to work on other roads and
                                                          Juba–Nimule road. The contracting officer who
bridges, but as of August 2011, the Juba–Nimule
                                                          was involved in awarding the task order said he
road made up 98 percent of the total budget.
                                                          could not recall why it did not define all of the

In 2009, OIG issued the initial audit of the              services to be provided. There was also no

mission’s road infrastructure activities14 which          justification for the amount the task order was

found that, although the Juba–Nimule road was             worth, yet the mission signed the contract,

likely to achieve its main goals, the cost of the         thereby obligating USAID to pay LBG’s

road had doubled and the activity was behind              4 percent fee to complete work that had not been

schedule by more than 8 months. In this follow–           defined. As a result, LBG had little incentive to

up audit, OIG determined that the road was still          keep costs down. By going over budget on the

not on track or within the budget that was set            road, LBG received the same fee without having
                                                          to undertake any other infrastructure projects in
14
 “Audit of USAID/Sudan’s Road Infrastructure
Activities,” Report No. 4–650–09–009–P.                   South Sudan.


            Semiannual Report to the Congress: April 1–September 30, 2012  25
                                      USAID Office of Inspector General

Communication was problematic. Mission                   example, in 2010 and 2011 the program reported
officials said LBG had not notified them about           repairing or constructing only 80 miles of
claims from subcontractors that potentially              transportation infrastructure versus the 161 total
affected USAID’s financial liability. One of             targeted miles.
LBG’s subcontractors made a claim for
                                                         Beginning in 2009, the strategic focus of IDEA–
$2.2 million, and although the mission knew
                                                         NEW significantly changed, placing less emphasis
there was the potential for a claim, mission
                                                         in areas that were prone to high poppy growth.
officials did not know it had been filed until
                                                         The continual change in staff at the mission, in
more than 20 months later when the
                                                         the Office of Agriculture, and among
subcontractor took LBG to litigation. LBG also
                                                         implementing partners was also a problem. Since
approved extensions before notifying USAID
                                                         the inception of the program, DAI has employed
about them and did not consult with the mission
                                                         five project directors, while the mission has had
during the bidding process, which had a direct
                                                         six directors and three agreement officers’
effect on the overall costs.
                                                         representatives (AORs). Each change brought a
OIG made 11 recommendations. Management                  different vision with varying priorities and
decisions were made on eight of them, and final          operating style. In addition, because the changes
action was taken on three.                               made by these different people were not
                                                         documented, it was impossible to distinguish
Audit of USAID/Afghanistan’s Incentives
                                                         which changes in the direction and priority of the
Driving Economic Alternatives for the
                                                         program were approved by USAID and which
North, East, and West Program (Report
                                                         were not.
No. F–306–12–004–P). USAID/Afghanistan’s
Incentives Driving Economic Alternatives for the         The mission’s monitoring was inadequate, and
North, East, and West Program (IDEA–NEW) is              data reported by the mission, DAI and Mercy
a $150 million, 5–year program that began in             Corps was often inaccurate. There was also little
2009 and is implemented through a consortium             evidence that mission staff had made site visits
led by Development Alternatives, Inc. (DAI),             since the program’s inception. In fact, both
with Mercy Corps and ACDI/VOCA as                        Mercy Corps and DAI project directors
subimplementers. IDEA–NEW, which was                     commented that the OIG auditors were the first
designed to promote alternatives to growing              USAID staff who had ever visited the project.
poppy plants by increasing access to legal,
                                                         Further, although the program AOR was
commercially viable, alternative sources of
                                                         receiving quarterly and annual progress reports,
income, was achieving only mixed results. For


            Semiannual Report to the Congress: April 1–September 30, 2012  26
                                          USAID Office of Inspector General

he was neither analyzing those reports nor                   Audit of USAID/Pakistan’s Gomal Zam
confirming the accuracy of the reported data. The            Multipurpose Dam Project (Report No.
progress reports submitted by DAI included                   G–391–12–008–P). In 2002, Pakistan’s Water
mathematical errors and other inconsistencies                and Power Development Authority (WAPDA), a
that could have been identified by basic checks.             government–owned public utility, began dam
The financial status of the subawards was also not           construction at Gomal River in South
monitored. For example, Mercy Corps had                      Waziristan. Because WAPDA ran out of funding
already spent 86 percent of its program budget,              for the project, construction progress was slow,
with more than 2 years left in the program.                  and on June 24, 2010, the subcontractor building
                                                             the dam component issued a notice of
Involvement of the host government is an
                                                             suspension for nonpayment of its invoices. At
important component of fostering sustainability;
                                                             that point, the Government of Pakistan
however, officials in several of Afghanistan’s
                                                             approached USAID/Pakistan for financial
Directorate of Agriculture, Irrigation, and
                                                             support, and in January 2011, USAID/Pakistan
Livestock offices said that they were not asked for
                                                             entered into a fixed–amount reimbursement
their input into the design and planning of
                                                             agreement with WAPDA. Under the agreement,
projects. In addition, activities had a
                                                             $40 million was to be provided to finish the
disproportionate number of men, demonstrating
                                                             Gomal Zam Dam, which was 88 percent
that a gender balance was not maintained as
                                                             complete. In October 2011, USAID/Pakistan
required. In the program’s cash–for–work
                                                             amended the agreement to include $40 million
projects, minors under the age of 18 were illegally
                                                             more to fund the irrigation component of the
performing heavy labor; one minor interviewed
                                                             dam, which included a main canal, distributaries,
was only 13 years old. Implementers confirmed
                                                             a barrage, and floodwater carrying channels.
that it is common practice to hire minors and
that policies and procedures setting standards               OIG determined that the southern districts of
were not in place. Further, implementing                     Khyber Pakhtunkhwa need water and energy and
partners did not consistently provide basic                  that construction of the dam and the irrigation
personal safety equipment to the workers.                    system will help meet these needs. In addition,
                                                             OIG noted the dam construction helped mitigate
OIG made 18 recommendations. Management
                                                             flood damage in 2011. At the time of OIG’s
decisions have been made on 14 recommenda–
                                                             audit, the dam portion of the project was
tions, and final action has been taken on 4.
                                                             98 percent complete—with only the switchgear
                                                             and wiring of the transmission line to the grid



            Semiannual Report to the Congress: April 1–September 30, 2012  27
                                      USAID Office of Inspector General

station unfinished—and the irrigation system was         OIG made one recommendation, and a
nearly halfway complete.                                 management decision has been reached.

Notwithstanding this progress, OIG noted that            Audit of USAID/Pakistan’s Support to the
the completion of the dam was at least 3 months          Benazir Income Support Program
behind schedule. The subcontractor was                   (Report No. G–391–12–006–P). The
assembling the switchgear offshore and still             Government of Pakistan launched the Benazir
petitioning for outstanding payments. Without            Income Support Program in 2008 to provide a
the switchgear, the dam has not been able to             permanent cash support mechanism for families
begin generating power. WAPDA officials said             in poverty. To support this effort,
they were working with the subcontractor to              USAID/Pakistan signed an $85 million cash
resolve these issues. Nevertheless, it was estimated     transfer grant agreement with the Islamic
the interruptions have cost about $10.5 million          Republic of Pakistan through the Economic
in labor, engineering fees, and security.                Affairs Division of the Ministry of Economic
                                                         Affairs and Statistics.

                                                         The Government of Pakistan and USAID/
                                                         Pakistan signed an amendment to the agreement
                                                         in June 2010, providing $75 million in additional
                                                         funding and bringing the total amount to
                                                         $160 million.15 Under the terms of the
                                                         agreement, upon receiving the cash transfer, the
                                                         government was supposed to deposit the
                                                         equivalent amount of Pakistani rupees
                                                         immediately in a special local currency account to
                                                         support program payments to eligible families.
                                                         The mission was required to approve
                                                         disbursement of funds from the account to the
                                                         program, and the mission’s program office was
                                                         responsible for monitoring the agreement.


                                                         15
                                                           The Benazir Income Support Program is not a
Water from the reservoir pours through the Gomal         USAID program; it is a Government of Pakistan
           Zam dam (photo by OIG).                       program receiving budget support from USAID
                                                         through Agreement No. 391–012–01.


           Semiannual Report to the Congress: April 1–September 30, 2012  28
                                      USAID Office of Inspector General

OIG found that the first installment of                  similar turnover has occurred among key
$85 million transferred to Pakistan in February          Government of Pakistan officials.
2010 was disbursed by the program to
                                                         Management decisions were made on all three
approximately 480,000 beneficiaries, and a
                                                         recommendations, and final action was taken on
USAID–commissioned survey documented that
                                                         two.
98 percent of randomly sampled beneficiaries
had received payments. OIG’s review of a sample          Audit of USAID/Philippines’
of program records found that recipients’ names,         Microenterprise Access to Banking
addresses, and payments were accurate.                   Services Program, Phase Four (Report
                                                         No. 5–492–12–005–P). In 2008, the
However, OIG found problems with the second
                                                         USAID/Philippines mission issued a
installment of $75 million. As of March 2012,
                                                         $9.7 million task order to Chemonics to
the mission had not authorized the Government
                                                         implement the fourth phase of the
of Pakistan to transfer the money to the program
                                                         Microenterprise Access to Banking Services
because mission officials were unable to verify
                                                         (MABS) Program.16
that the program had implemented an effective
monitoring and evaluation plan. The mission              Although the implementer made progress in
requested documentation of an effective                  increasing the number of participating banks and
monitoring and evaluation plan multiple times;           the number of microfinance clients with loans,
however, the Government of Pakistan had not              OIG could not assess the program’s impact on
yet complied with these requests. USAID/                 overall economic growth in rural locations
Pakistan also had not received any bank                  throughout the country. For example, a majority
statements from the Government of Pakistan               of borrowers interviewed who received standard
since the program’s inception in 2009.                   microfinance or microagricultural loans said that
                                                         their personal income had increased; however,
Consequently, when the government transferred
                                                         whether mobile banking or microinsurance
funds from the authorized special local currency
                                                         effected the increase was unclear. Furthermore,
account and comingled them in a general budget
                                                         although progress lagged in achieving targets for
account in September 2010, the mission was not
                                                         program objectives, rural banks and other
aware of the transfer. Mission officials also
                                                         implementing partners, such as insurance
commented that a contributing factor to the
                                                         companies, did believe the contractor excelled in
struggle obtaining the information was turnover:
                                                         helping pass microfinance regulations.
In the past 20 months, four mission program
managers have supervised the program, and                16
                                                              The MABS program began in 1997.


           Semiannual Report to the Congress: April 1–September 30, 2012  29
                                      USAID Office of Inspector General

However, other problems remained. A survey               services. Furthermore, these evaluations did not
known as a poverty assessment tool, developed            document best practices that could be shared
for the Philippines in 2007, concluded that              throughout USAID.
nearly 12 percent of the country’s households
                                                         Management decisions have been reached on
were living on less than $1 per day. However,
                                                         OIG’s two recommendations.
OIG observations, site visits, and interviews with
the mission and the contractor suggest that the          Audit of USAID/Pakistan’s Entrepreneurs
poverty percentage could be understated, which           Project (Report No. G–391–12–005–P). In
in turn would understate the program’s                   June 2009, USAID awarded a 5–year,
accomplishments. The survey counts certain               $30 million cooperative agreement to Mennonite
consumer goods owned by the family—such as               Economic Development Associates to
discarded TVs, radios, and furniture—as assets or        significantly increase the incomes of
wealth. The survey developers may not have               120,000 predominantly female owners of
known that in the Philippines such discarded             microenterprises in 20 districts in Pakistan. In
consumer goods are plentiful and can be                  March 2011, the mission modified the project’s
acquired for very little or no money through junk        goal from 120,000 to 75,000 microentrepreneurs
stores or by scavenging; possessing these                in response to the displacement of more than
consumer items does not remove households                1 million people in Swat Valley from the
from a class of extreme poverty.                         devastating 2010 floods and ongoing conflict.

USAID decided to end the program early, in the           The project focuses on developing value chains in
fall of 2012 as the result of budget constraints.        four sectors: dairy, embellished fabrics, medicinal
The mission has not performed nor does it plan           and aromatic plants, and honey. Value chains
to perform a program evaluation of this phase of         take products from raw materials to processing
the program. Four evaluations were completed             and ultimately to distribution and sale. The value
under the previous phases of the program, the            chain is based on the premise that when the
last being in 2006, covering the impact that             microentrepreneurs are in control of the process,
access to microfinance loans had on borrowers’           they earn higher incomes.
savings, income, and employment. However,
                                                         OIG found that the project has provided training
these prior evaluations did not cover the new
                                                         to local partners on USAID’s administrative
products under the most recent phase, such as
                                                         requirements related to financial management,
microinsurance, microagricultural loans,
                                                         procurement, and human resources. Local
microhousing loans, and mobile phone banking
                                                         partners have received technical instruction in


           Semiannual Report to the Congress: April 1–September 30, 2012  30
                                      USAID Office of Inspector General

the value–chain concept to enable them to help           After approval, a feasibility study to determine
microentrepreneurs to expand opportunities by            the best bee species to use and why bees in the
improving their commodities’ quantity, quality,          target area died in the recent past also slowed
and marketability. The project trained more              progress. Two recommendations were made, and
entrepreneurs than expected in business                  management decisions were reached on both.
development, achieving 123 percent of its target,
                                                         Audit of USAID/Kosovo’s Activities for
and achieved 80 percent of its target for
                                                         Economic Growth (Report No. 9–000–12–
providing training in business management and
                                                         004–P). Although Kosovo has made significant
marketing.
                                                         progress in transitioning to a market–based
However, building capacity in developing value           economy since declaring its independence in
chains did not start until May 2011, almost              2008, the country continues to face serious
2 years after the award, because of diversion of         economic challenges, particularly in the
project resources to support assistance to               agricultural sector. To help address these
internally displaced persons from the extensive          challenges, USAID/Kosovo’s economic growth
flooding. Local partners also lacked awareness of        activities strive to increase private sector growth
the value–chain process, causing further delays in       and investment. In July 2010, USAID awarded
implementing the project. The project undertook          Chemonics International, Inc. a 3–year,
a laborious process for selecting and training           $16.1 million task order to implement the
local partners before work would begin to help           Business Enabling Environment Program (BEEP)
the microentrepreneurs. As of December 2011,             and in January 2011, awarded a $15.9 million
only $6.6 million had been allocated to helping          task order to Tetra Tech ARD, Inc. to carry out
microentrepreneurs develop value chains.                 the New Opportunities for Agriculture Project
                                                         (NOA).
The project did not measure the change in
beneficiaries’ incomes to assess project impact.         OIG determined that BEEP and NOA activities
Without periodically collecting and recording            have made progress towards increasing private
data on change in income, the project’s primary          sector growth and investment. BEEP, for
performance indicator, the mission may not be            instance, eliminated or reduced several business–
able to make timely adjustments, if needed, to           related fees, resulting in a potential economic
project implementation. It is also unlikely that         impact of over $50 million. NOA stimulated
the project will achieve its objective for the honey     investment in improved agricultural technology
sector on schedule because of delays caused by a         and infrastructure to help improve plant health
longer–than–expected grant approval process.             and increase yields, as well as in equipment


             Semiannual Report to the Congress: April 1–September 30, 2012  31
                                      USAID Office of Inspector General

necessary to comply with international health                 Environment and Climate
and safety standards.
                                                                             Change
Despite these achievements, OIG noted that
                                                         Audit of USAID/Haiti’s Watershed
several BEEP and NOA activities are not on track
                                                         Initiative for National Natural
to meet their goals. One area of concern is the
                                                         Environmental Resources Program
failure of BEEP and NOA to focus on activities
                                                         (Report No. 1–521–12–003–P). Haiti’s
that encourage gender equality and minority
                                                         watersheds have long been in decline and, as a
participation in agriculture and business sectors,
                                                         result of unchecked logging and increasing
although both task orders identified these as
                                                         demand for charcoal, only 2 percent of Haiti is
priorities. The lack of implementation and
                                                         estimated to be forested today. USAID/Haiti
adequately tracking results makes it difficult to
                                                         initiated the Watershed Initiative for National
address gender and social inclusion issues.
                                                         Natural Environmental Resources (WINNER)

OIG also identified several other areas for              program in June 2009 to reduce environmental

improvement. For instance, BEEP has made no              and economic vulnerability through the

progress in improving tender transparency, NOA           rehabilitation and improved management of

has made little progress toward achieving its goal       specific watersheds in Haiti. To implement the

of increasing exports and is unable to determine         WINNER program, USAID/Haiti signed a

its progress toward increasing rural incomes, and        $128 million, 5–year contract with Chemonics

USAID/Kosovo has sent conflicting messages on            International Inc. (Chemonics).

its support of municipalities raising funds
                                                         Following the devastating earthquake in January
through licenses, fees, and permits. Furthermore,
                                                         2010, USAID/Haiti, in collaboration with the
performance management plans and indicators
                                                         State Department, realigned its country strategy.
need to be improved.
                                                         Instead of conducting activities throughout the

OIG made 13 recommendations to improve                   country, USAID/Haiti began to concentrate its

Kosovo’s economic growth activities.                     activities in the three geographic corridors that

Management decisions have been made on all of            were expected to provide the greatest opportunity

them, and final action has been taken on one.            for industry, exports, and agricultural production.

                                                         OIG noted several accomplishments: During its
                                                         first 2 years of operation under the original
                                                         strategy, the program implemented numerous
                                                         activities that could reduce economic and


           Semiannual Report to the Congress: April 1–September 30, 2012  32
                                     USAID Office of Inspector General




        Garbage accumulates in a site recently cleared of garbage by the WINNER program (photo by OIG).


environmental vulnerability through improved              supported the installation of effective low–tech
management and rehabilitation of watersheds.              early flood warning systems.
Specifically, the program improved watershed
                                                          Despite these accomplishments, OIG disclosed
management by promoting local watershed
                                                          problems related to the various implementation
governance, fortifying ravines and rivers against
                                                          issues, including insufficient environmental
flooding, and dredging rivers and canals. On the
                                                          oversight, not meeting biodiversity requirements,
economic side, the program promoted alternate
                                                          risk to a $2.3 million USAID/Haiti
sources of income (such as poultry and flower
                                                          infrastructure project as a result of continued
production), trained farmers in modern
                                                          mining and trash disposal in the Grise River, and
agricultural techniques, and set up numerous
                                                          a lack of controls to prevent improper use of
demonstration farms to disseminate improved
                                                          pesticides.
agricultural practices. The program also




           Semiannual Report to the Congress: April 1–September 30, 2012  33
                                     USAID Office of Inspector General

OIG made 12 recommendations to help USAID               develop program–specific indicators to track
improve the efficiency and effectiveness of the         progress. In addition, the data used to evaluate
WINNER program. Management decisions were               progress was not reliable, and USAID’s
reached on all but one recommendation, and              assessment of the data quality did not adequately
final action was taken on another.                      identify reliability issues. Some key programmatic
                                                        priorities were not addressed sufficiently in the
Review of USAID/Regional Development
                                                        partnership’s work, including the formation of
Mission for Asia’s Coral Triangle Support
                                                        public–private partnerships and the need to
Partnership (Report No. 5–493–12–001–
                                                        develop alternative livelihoods to counter the
S). In 2008, USAID entered into the Coral
                                                        effects of some sustainability initiatives, such as
Triangle Support Partnership, a 5–year,
                                                        decreased fishing.
$32 million cooperative agreement with World
Wildlife Fund, Conservation International, and          Moreover, there was very little awareness in the
the Nature Conservancy. The Coral Triangle              community of the U.S. Government’s role in
region spans six countries, and some experts            funding and supporting the initiative. The
consider it to be the global epicenter of marine        partnership’s branding strategy and marking plan
biodiversity. The partnership is one of three           stipulates that it will find opportunities to
agreements the U.S. Government initiated to             publicize the American people’s support of the
improve the management of biologically and              Coral Triangle initiative. However, 27 of
economically important coastal and marine               34 community members interviewed during the
resources and the associated ecosystems that            site visits were unaware of USAID entirely or
support the livelihoods of people and economies         unaware of its connection with the partnership.
in the Coral Triangle.
                                                        OIG made 14 recommendations for
OIG found that the overall U.S. support efforts         improvement, and management decisions have
(and the partnership by extension) have made            been reached on all of them. Final action has
significant progress developing the national and        been taken on ten.
regional platforms needed to stimulate and
                                                        Audit of USAID/Peru’s Environmental
sustain integrated marine and coastal
                                                        Activities (Report No. 1–527–12–008–P).
management among the six governments in the
                                                        In 2006, the United States signed a trade
Coral Triangle. However, it was not possible to
                                                        promotion agreement with the Government of
confirm that the partnership is meeting its stated
                                                        Peru. In addition to providing market access, the
goals because of tracking and data problems.
                                                        agreement covers environmental protection,
OIG determined that the partnership did not


           Semiannual Report to the Congress: April 1–September 30, 2012  34
                                       USAID Office of Inspector General

requiring both countries to uphold their                  needed. One forestry project was significantly
domestic environmental laws and to implement              behind schedule, with nearly half of activities not
laws and other measures as necessary. To help             progressing as planned. As a result, USAID has
Peru fulfill its requirements, USAID/Peru                 paid Chemonics overhead expenses with few
focused its environmental portfolio activities in         results to show for its investment. Another
that country on improving the government’s                project to preserve and improve Cordillera Azul
environmental policy and strengthening                    National Park was not expected to be sustainable
environmental institutions so that they can               once USAID funding ends in 2013. Efforts to sell
promote sustainable forest management and                 carbon credits and establish a $40 million
protect biodiversity. OIG audited three of                endowment fund have not materialized, and
USAID/Peru’s largest environmental programs—              neither USAID nor the Field Museum has a
two dealing with forest governance and one                realistic backup plan for sustaining the park.
promoting biodiversity—that were implemented
                                                          Monitoring, evaluation, and reporting were
by Chemonics, the U.S. Forest Service, and the
                                                          problematic in some instances (e.g., the mission
Field Museum of Natural History in Chicago.
                                                          did not have an approved country development
Cumulatively, the projects had spent $20 million
                                                          cooperation strategy nor a performance
at the time of the audit.
                                                          management plan for environmental work and it
OIG found that the projects had moderately                did not prepare complete data quality
improved Peru’s environmental policy and                  assessments). Some projects did not follow
strengthened its environmental institutions. For          marking requirements, and as a result, U.S.
example, the Peruvian Congress passed a                   taxpayers will receive no acknowledgement for
landmark forestry law written with USAID                  their 9–year, $10 million investment.
support and assistance, which regulates the use of        Furthermore, one implementer, Chemonics, was
forest lands and resources and establishes                not using management information systems that
protections for the indigenous people living in           were key to the efficient implementation of the
forests. This effort was particularly important           project.
because it brought together groups that had
                                                          Management decisions have been made on OIG’s
previously clashed on environmental issues,
                                                          13 recommendations to improve oversight of
sparking demonstrations in 2009 that cost many
                                                          USAID’s environmental activities in Peru, and
protesters and police officers their lives.
                                                          final action has been taken on 3.
Despite these important achievements, OIG
noted several areas where improvements were


            Semiannual Report to the Congress: April 1–September 30, 2012  35
                                      USAID Office of Inspector General

                  Education                              including two USAID/Caucasus programs, that
                                                         focused on the rehabilitation of schools and were
Three Education Officials Terminated for
                                                         both implemented by CHF International.
Theft of Food Items. In April 2012, a
community member from northern Sindh                     One program, BAVSHVI,17 intended to provide

contacted the OIG hotline to report the theft            improved learning conditions in 50 Georgian

and diversion of cooking oil and high energy             schools. Similarly, the Conflict Affected Schools

biscuits from a school–based Food for Education          Rehabilitation Component of the Georgian

(FFE) program implemented by the U.N. World              Employment and Infrastructure Initiative (GEII)

Food Programme (WFP). OIG subsequently                   sought to improve the physical learning

referred the matter to the WFP Beneficiary               environment of 16 schools in a region impacted

Feedback team which conducted an inquiry in              by the 2008 conflict. The primary and common

the field. The inquiry revealed large amounts of         element of both programs was to ensure that

these food items in the local market and                 minimum standards for learning environments in

determined that three school employees sold              schools were achieved.

food items designated for the FFE project to
                                                         OIG’s review of the programs found that they
vendors in a local market. As a result of the
                                                         were achieving their goals of improving the
matter being referred to the Sindh Department
                                                         schools’ physical conditions and learning
of Education, all three employees were
                                                         environments. Schools refurbished under the
terminated.
                                                         BAVSHVI and GEII programs met the Georgian

Review of Selected USAID/Caucasus’s                      Ministry of Education and Science’s minimum
School Rehabilitation Activities (Report                 standards for partial renovation: The schools
No. 2–114–12–005–S). The conflict between                have roofs, windows and doors, heating systems,

Georgia and Russia in August 2008 damaged or             and toilets. From all 66 schools covered by the

destroyed elements of critical infrastructure and        programs, the review team selected a sample of

displaced entire communities. The U.S.                   41 schools for inspection. The review team

Government responded by pledging $1 billion in           confirmed the existence of these minimum

assistance to Georgia. This assistance was               standards at 40 schools—almost all of the

designed to help internally displaced persons,           inspected schools.

rebuild infrastructure, revitalize the economy,
                                                         Although the programs achieved these goals, the
and restore investor confidence. Of the
                                                         review noted implementation problems. A risk of
assistance, $200 million was allocated for
                                                         17
construction and rehabilitation activities,                   Georgian for “child.”


           Semiannual Report to the Congress: April 1–September 30, 2012  36
                                     USAID Office of Inspector General

asbestos exposure was present in the gymnasiums         Audit of USAID/Lebanon’s University
that were attached to eight schools that USAID          Student Assistance Program I (Report
rehabilitated. Contrary to the Agency’s rigorous        No. 6–268–12–006–P). In September 2010,
standard practices, USAID decided not to                USAID/Lebanon awarded about $13.5 million
address the exposure risk because of budget             under the University Student Assistance
limitations and competing priorities. In addition,      Program I (USAP I) to Haigazian University and
the implementer submitted improper claims for           Lebanese American University. Under the 7–year
cost–sharing contributions. To meet its                 program, the funds are intended to give full,
$2.5 million cost–sharing obligation, it claimed        needs–based scholarships to promising Lebanese
amounts spent on routine school operations and          public high school students and provide tuition,
maintenance, furnishings, and community                 books, housing, and a living allowance for the
meetings—expenditures that did not contribute           duration of their studies. Scholarships have been
to program goals or were not included in the            awarded for study in a variety of fields, including
approved budget.                                        engineering, business, computer science, nursing,
                                                        and education, at an average cost of about
                                                        $10,530 per student per semester.

                                                        Despite the mission’s achievements, OIG
                                                        determined that several areas needed
                                                        improvement to continue the program’s success.
                                                        For instance, the last USAP I student is projected
                                                        to graduate by the end of the spring semester of
                                                        2016, about 14 months before the grant’s end
                                                        date. In addition, USAID/Egypt procurement
   The roof of the Kuchatani school’s attached          office staff members said mission officials did not
gymnasium is made of asbestos–containing materials
                 (photo by OIG).                        notify them that students would finish their
                                                        studies in 2016. Therefore, university officials
                                                        have budgeted for activities during the final year
OIG made three recommendations to help                  of the program, long after students have
USAID/Caucasus improve the impact of its                graduated. Commitment of funds and mission
school rehabilitation program. Management               employees beyond the time actually needed to
decisions were made on all three, and final action      ensure program success are an ineffective use of
was taken on one.                                       Agency resources.



           Semiannual Report to the Congress: April 1–September 30, 2012  37
                                     USAID Office of Inspector General

Another problem stems from the lack of financial        personnel. Two individuals were terminated after
controls. Although several audit reports and            the investigation revealed that they had harassed
mission management reviews have shown that              a group of villagers who had filed complaints
Haigazian University does not have a sound              with the OIG hotline and ultimately had the
financial management system, USAID/Egypt’s              villagers sign falsified documentation indicating
regional procurement office did not modify the          that they had received payment under a USAID
grant agreement to discontinue advance                  project when they had not. The investigation
payments. In addition, audits conducted on both         revealed that the organization’s CEO sent the
universities did not conform to Office of               employees to the village and that the falsified
Management and Budget (OMB) standards.                  documents were submitted as an official response
Further, lack of monitoring and oversight by the        to the ongoing OIG investigation. In addition,
mission over the universities’ funds led to             the United Nations has also suspended SRSO
multiple problems.                                      from any future WFP projects.

OIG made seven recommendations.                         Contractor Employee Soliciting and
Management decisions have been made on all of           Receiving Kickbacks Suspended and
them, and final action has been taken on four.          Proposed for Debarment. An employee of
                                                        ABT Associates in Mozambique solicited and
              Food Security
                                                        received a kickback in connection with the

USAID Proposes Sindh Rural Support                      USAID–funded Agrifuturo program. The

Organization for Debarment by USAID.                    employee solicited the kickback in return for

In May 2012, USAID proposed the Sindh Rural             awarding a contract to a vendor for installing IT

Support Organization (SRSO) for debarment,              equipment. Specifically, the vendor installed

after having suspended the organization from            substandard cable in an office. When pressed to

participation in future USAID projects. The             explain the substandard material, the vendor

decision came after a yearlong OIG investigation        voluntarily disclosed that it was necessitated by

of the organization’s alleged mismanagement,            the payment of a “commission” to the employee

theft, and corruption associated with its               in return for the award. The contractor

participation in several USAID–funded projects          terminated the employee and reported him to the

and a related forensic audit conducted by the           local police for prosecution. In September 2012,

WFP and OIG.                                            the employee was suspended and proposed for
                                                        debarment from conducting business with the
Thus far, the OIG investigation has resulted in         U.S. Government.
the termination of 25 of the organization’s


           Semiannual Report to the Congress: April 1–September 30, 2012  38
                                      USAID Office of Inspector General

Audit of USAID’s Food for Peace                          increasing beneficiaries’ ability to treat mild
Activities in Mauritania (Report No. 7–                  malnutrition and minor health problems without
682–12–005–P). According to a March 2010                 traveling long distances to health posts, as well as
joint WFP—Government of Mauritania study,                to identify cases that need urgent treatment from
Mauritania suffers from a structural food deficit,       medical professionals. Representatives also noted
which creates a reliance on food imports to meet         that improved hygiene reduced the number of
nutritional needs. Food prices have risen, while         cases of diarrhea among children in their
household incomes in Mauritania’s rural areas            communities.
have declined, making food less accessible.
                                                         However, it was not possible to confirm that the
USAID’s Office of Food for Peace signed a
                                                         program was meeting its goals because of tracking
5–year cooperative agreement with Counterpart
                                                         and data problems affecting the performance
International (Counterpart) to implement the
                                                         monitoring system, as well as unreliable survey
Community Action, Nutrition, and Livelihoods
                                                         results. In addition, during the first 4 years of
Program, which is designed to help people in
                                                         implementation, the program faced challenges
four regions of Mauritania improve health,
                                                         including delays in obtaining a host–country
nutrition, and hygiene practices, provide for
                                                         agreement, a military coup that necessitated
household needs, and mitigate food insecurity.
                                                         revisions to program activities, limited USAID
USAID agreed to provide goods and cover
                                                         oversight, and high turnover of key program
shipping and administrative costs of just over
                                                         personnel. Moreover, USAID emphasized the
$20 million.
                                                         difficult conditions affecting work in Mauritania,
As of January 2012, USAID had provided                   including poor roads, long distances between
Counterpart with 39,480 metric tons of food for          sites, and limited capacities of local staff. OIG
the program. Of this amount, Counterpart                 also noted several implementation problems,
monetized (i.e., sold the products for local             such as lower–than–projected cost recoveries
currency) 35,370 metric tons of wheat, earning           during the monetization process and unrealistic
$10.5 million for the program. It also directly          estimates of shipping costs. Further, inventory
distributed 4,110 metric tons of vegetable oil,          documentation was problematic.
bulgur, a corn–soy blend, and lentils.
                                                         OIG made five recommendations for
OIG found that the program appeared to be                improvement, four of which were completed by
improving health and nutrition capabilities in all       the time the audit was issued. OIG is awaiting a
the communities visited. Representatives of              management decision on one recommendation.
targeted communities credited the program with


           Semiannual Report to the Congress: April 1–September 30, 2012  39
                                       USAID Office of Inspector General

Audit of USAID/Haiti’s Public Law 480                     such as natural disasters, a cholera outbreak, and
Title II Programs (Report No. 1–521–12–                   political upheaval.
004–P). The Food for Peace Act (Agricultural
                                                          Despite the many successes, OIG found multiple
Trade Development and Assistance Act of 1954),
                                                          issues with the program. For instance, assistance
also known as Public Law 480 (PL 480) or Food
                                                          programs are awarded through cooperative
for Peace, is the U.S. Government’s principal
                                                          agreements versus contracts so USAID’s control
mechanism for implementing its international
                                                          is limited to choosing the cooperating sponsors
food assistance initiatives. USAID/Haiti
                                                          who respond with the best relative proposals,
currently supports three 5–year projects: a
                                                          which may or may not include desired
$61.7 million agreement implemented by
                                                          interventions. In addition, the three
Catholic Relief Services (CRS), a $91.5 million
                                                          implementers are not always integrating their
agreement implemented by World Vision, and a
                                                          maternal and child health and nutrition
$37.4 million agreement implemented by
                                                          components with the livelihood and agricultural
ACDI/VOCA.
                                                          components of the program. This practice makes
OIG determined that USAID/Haiti’s                         the programs harder to track and can result in
implementation of PL 480 Title II nonemergency            long–term sustainability issues.
assistance generally has improved conditions for
                                                          The three groups were also using different
targeted beneficiaries and reportedly reduced the
                                                          methods to implement common activities to
number of underweight and stunted children
                                                          varied success. ACDI/VOCA used the
younger than 5 years of age—measures of program
                                                          recommended care group model in running its
success. Site visits and beneficiary interviews
                                                          mothers’ clubs,18 while CRS and World Vision
indicated that positive impacts include awareness
                                                          were using a traditional, older model. As a result,
and implementation of improved agricultural
                                                          ACDI/VOCA was more efficient, training
practices, increased crop yields, improved hygiene
                                                          100 people for every 9 trained by World Vision.
and sanitation practices, access to credit through
                                                          However, not all women who qualified for the
savings groups, and increased breastfeeding. In
                                                          traditional mothers’ clubs were allowed to
addition, OIG found that the mission is generally
                                                          participate because they hadn’t been chosen by
doing a good job of managing the program,
                                                          the community volunteers. In addition, World
making frequent site visits and meeting with
sponsors to discuss problems and share successful
                                                          18
                                                            Mothers’ clubs are the primary means to train local
methodologies. These accomplishments came
                                                          communities in child feeding practices, treatment of
about despite many environmental challenges,              diarrhea, nutrition, immunization, family planning,
                                                          and hygiene.


            Semiannual Report to the Congress: April 1–September 30, 2012  40
                                       USAID Office of Inspector General

Vision was the only implementer of the three to                Global Health and Health
consistently use best practices for preventing
                                                                             Systems
malnutrition.
                                                                             HIV/AIDS
USAID is also duplicating efforts by funding
similar programs that operate in the same Title II        Fifty–One Employees Referred for
regions as Haiti. In one example, the Batey Relief        Debarment for Voucher Fraud. An OIG
Alliance is funded by USAID and is distributing           investigation revealed that one USAID employee
food within the same area and to the same target          and 51 local employees of John Snow
population as ACDI/VOCA. Officials at the                 International (JSI) had submitted false receipts
mission acknowledged the duplication and said             for lodging expenses—totaling approximately
they had communicated this to USAID/                      $25,000—following official trips in Tanzania.
Washington but never received a response.                 Some of the contractors paid employees at the
                                                          hotels for receipts written for more than what the
OIG made ten recommendations, of which two
                                                          hotel charged. Others stayed at a relative’s house
have received a management decision.
                                                          and bought fake blank hotel receipts to use for
        Humanitarian Assistance                           reimbursement. In August 2012, the USAID

USAID Grantee Withholds Nearly                            employee was suspended for one week, 14 of the

$25,000 in Project Funds from Service                     51 JSI employees had either resigned or were

Provider. A hotline complaint led to an                   fired, and all 51 contractors were referred to

investigation of the Visions in Action19 executive        USAID for debarment consideration. JSI

director, alleging that he defrauded a USAID              refunded USAID almost $17,000.

ocean freight reimbursement grant. OIG’s                  Audit of USAID/Ethiopia’s PEPFAR–
investigation confirmed that the individual               Funded Activities for Prevention of
inappropriately kept nearly $25,000 intended for          Transmission of HIV (Report No. 4–663–
a USAID grant by not paying a service provider.           12–007–P). Launched in 2003, the President’s
After being approached by OIG more than a year            Emergency Plan for AIDS Relief (PEPFAR) is a
after receiving the freight services, the subject         comprehensive approach to combating
paid the service provider in full. The case was           HIV/AIDS around the world. PEPFAR
referred to USAID for appropriate action.                 encourages the governments in its partner
                                                          countries, like Ethiopia, to create comprehensive
                                                          HIV/AIDS prevention programs. According to
19
     Also known as African Development Corps.             the August 2009 Next Generation Indicators


              Semiannual Report to the Congress: April 1–September 30, 2012  41
                                     USAID Office of Inspector General

Reference Guide, the programs can be offered in         Audit of USAID/Ghana’s Efforts to
a variety of ways, such as in community–based           Integrate Gender Into HIV/AIDS
workshops or through media campaigns, and               Activities (Report No. 7–641–12–006–P).

they should be paired with appropriate medical          To assist Ghana with reducing its HIV/AIDS
and social services, such as counseling and             infection rate, USAID and PEPFAR support
testing. For fiscal year 2011, USAID and the            programs that integrate gender into HIV/AIDS
Department of State requested $324 million for          activities. USAID recognized the need to focus its
HIV/AIDS activities in Ethiopia. For this audit,        efforts on certain groups of people who are
OIG focused on five projects totaling nearly            especially vulnerable to HIV infection: female sex
$73 million implemented by Population Council,          workers, men who have sex with men,20 and

Population Services International, Save the             kayayei.21 Two projects valued at a total of
Children, and World Learning.                           $24 million are focused on these activities:
                                                        Strengthening HIV/AIDS Response Partnerships
OIG found that USAID’s HIV/AIDS activities in
                                                        with Evidence–Based Results (SHARPER) was
Ethiopia generally achieved their main goal to
                                                        led by FHI 360, and Increasing Access to Sexual
prevent sexually transmitted HIV diseases.
                                                        and Reproductive Health Services and Reducing
However, OIG found significant problems with
                                                        Gender–Based Violence within the Kayayei
the underlying data. USAID reported to the
                                                        Community was led by Marie Stopes
Office of the U.S. Global AIDS Coordinator
                                                        International. OIG found that the mission is not
(OGAC) that overall, the implementing partners
                                                        only successfully integrating gender into its
were on schedule to meet their annual targets.
                                                        HIV/AIDS activities but also has expanded
OIG could not confirm this assertion because of
                                                        gender–related activities through FHI and piloted
data quality problems. Although the mission was
                                                        a new project on gender issues with Marie Stopes
able to properly support the data it reported to
                                                        International.
OGAC and implementing partners were able to
properly support data received from the                 FHI’s SHARPER project has been proactive in
subpartners, the OIG found errors and                   integrating gender into its programming.
inconsistencies with data reported to USAID.
                                                        20
                                                          In Ghana, between 30 and 45 percent of female sex
OIG made three recommendations to strengthen            workers and 26 percent of male sex workers are HIV
                                                        positive.
USAID/Ethiopia’s implementation of its                  21
                                                          Kayayei is a Ghanaian term for a porter who carries
PEPFAR–funded activities for prevention of              baggage or items on his or her head. Kayayei are
                                                        vulnerable to unsafe living conditions, sexual
transmission of HIV. Final action has been taken        exploitation, and violence that leave them susceptible
                                                        to contracting HIV/AIDS and other sexually
on all three recommendations.                           transmitted diseases.


           Semiannual Report to the Congress: April 1–September 30, 2012  42
                                         USAID Office of Inspector General

Although addressing gender–based violence was               Beneficiaries OIG interviewed were excited about
not part of the original scope of work, FHI took            the program and its benefits, but some were
the initiative to integrate it into the project             unable to identify USAID or the American
because the organization realized its importance.           people as its sponsors. Some beneficiaries said
Marie Stopes International’s project is a pilot for         program officials had not told them anything
gender–specific programming with funding from               about the sponsors. Additionally, signs at FHI
the PEPFAR Gender Challenge Fund. It focuses                and subpartner offices and service delivery sites
on increasing the kayayei community’s access to             were not branded with appropriate USAID logos
sexual and reproductive health services and                 and markings. However, of the three subpartners
reducing gender–based violence against them.                that were audited, the only one that was exempt
Though little is known about how prevalent HIV              from the requirements had the most branding.
is in this subpopulation, Marie Stopes
                                                            Management decisions have been made on all
International’s preliminary research suggests that
                                                            eight OIG recommendations, and final action
the kayayei are vulnerable to gender–based
                                                            has been taken on one.
violence and to contracting HIV and sexually
transmitted infections because of their living              Audit of USAID/Barbados’ Eastern
conditions.                                                 Caribbean Community Action Project
                                                            (Report No. 1–534–12–006–P). According to
Despite the many successes of the programs, OIG
                                                            the Caribbean Regional HIV and AIDS
found several weaknesses. Although the
                                                            Partnership Framework of 2010–2014,22 the
subpartners OIG met confirmed they had
                                                            Caribbean is home to one of the largest
conducted gender training for the organization,
                                                            populations of people with HIV/AIDS, second
the subpartners did not understand how to use
                                                            only to sub–Saharan Africa. To address this issue,
what they had learned because the training was
                                                            in November 2007, USAID/Barbados awarded a
inadequate. Gender action plans were also
                                                            3–year, $10.5 million cooperative agreement to
developed poorly. One subpartner admitted that
                                                            the International HIV/AIDS Alliance (IHAA) to
he did not know exactly what activities would be
                                                            implement the Eastern Caribbean Community
performed because he did not fully understand
                                                            Action Project (ECCAP). The agreement was
the key gender concepts or how to integrate
                                                            22
gender into project activities. Subpartners also               A joint effort of the U.S. Government, the
                                                            Caribbean Community, the Organization of Eastern
had trouble defining and reporting data, leading            Caribbean States, and the governments of Antigua
to results that could not be verified.                      and Barbuda, the Bahamas, Barbados, Belize,
                                                            Dominica, Grenada, Jamaica, St. Kitts and Nevis,
                                                            St. Lucia, St. Vincent and the Grenadines, Suriname,
                                                            and Trinidad and Tobago.


              Semiannual Report to the Congress: April 1–September 30, 2012  43
                                        USAID Office of Inspector General

managed on a daily basis by the Caribbean                  related to the institutional capacity of community
HIV/AIDS Alliance (CHAA), a member of the                  and civil society organizations.
IHAA family, and was extended through
                                                           Under ECCAP, the CHAA regional office
February 2011. In March 2011, USAID/
                                                           collected and reported results from all the
Barbados awarded CHAA a 3.5–year,
                                                           country program offices to USAID. However, the
$16.1 million follow–on cooperative agreement
                                                           auditors could not verify some of the results
known as ECCAP II. As with the original
                                                           because the supporting documentation was not
ECCAP agreement, this project has the goal of
                                                           available at the office. For the information that
increasing access to HIV prevention services,
                                                           was available, auditors noted multiple
treatment, and care, but it was expanded to
                                                           discrepancies with the number of information,
include Dominica, Grenada, and Saint Lucia, in
                                                           education, and communication materials that
addition to original ECCAP members Antigua,
                                                           CHAA delivered. In addition, CHAA did not
Barbados, St. Kitts, and St. Vincent.
                                                           maintain records for any of the commodities
OIG found that although ECCAP had succeeded                received or distributed, with the exception of
to some degree by using outreach to improve                female and male condoms—and records for those
access to HIV services, it was not achieving all           contained discrepancies.
goals. For instance, ECCAP did not achieve
                                                           IHAA and CHAA also did not have clear policies
sustainable results. The strategy of simply
                                                           and procedures on how to address human
working closely with government agencies and
                                                           trafficking. Although CHAA officials agreed that
community organizations was well intended, but
                                                           they need to train the community on handling
this strategy failed to develop commitments to
                                                           trafficking victims, CHAA had not done so at the
keep serving the target populations when ECCAP
                                                           time of the audit. In addition, the mission did
ended. The strategy also failed because CHAA
                                                           not enforce compliance with the agreement by
and USAID/Barbados did not consider and
                                                           requiring the recipient to track budgets on a
implement specific measures to integrate the
                                                           country–by–country basis. Further, some
program into other U.S.–supported HIV/AIDS
                                                           advances and reimbursements were not processed
activities, or to analyze and address weaknesses
                                                           properly by the mission and were sometimes late.




           Semiannual Report to the Congress: April 1–September 30, 2012  44
                                     USAID Office of Inspector General




     This ACT inventory record contains mathematical errors in the Receipt, Issue, and Balance columns and
                                  unexplained adjustments (photo by OIG).

Management decisions have been reached on all              procures commodities through JSI’s DELIVER
12 recommendations, and final action has been              Project and it also funds three other programs
taken on 5.                                                that affect supply chains for artemisinin–based
                                                           combination therapies (ACT) and nets: PSI’s
  Malaria, Tuberculosis, and Neglected
                                                           Health Communication and Marketing Project,
              Tropical Diseases                            Management Sciences for Health’s (MSH) Health
                                                           Commodities and Services Management Program
Audit of Commodities Funded Under the
                                                           in Kenya, and Deloitte Consulting’s Kenya
President’s Malaria Initiative in Kenya
                                                           Medical Supplies Agency (KEMSA) Support
(Report No. 4–615–12–011–P). To support
                                                           Program.
the President’s Malaria Initiative (PMI),
USAID/Kenya allocated $40 million for malaria              OIG determined that most of the commodities
activities, of which $23.9 million was designated          were reaching the intended beneficiaries;
for the purchase of commodities. The mission


           Semiannual Report to the Congress: April 1–September 30, 2012  45
                                          USAID Office of Inspector General

however, OIG also identified weaknesses in the               official award files for the PSI program. Because
distribution systems that prevented verification.            of the missing file, the agreement officer was
As a result, of the 23 Kenyan health facilities that         unable to answer certain questions from the
auditors visited, 18 had missing or incomplete               audit team on how the award was structured.
records. Further, 14 received 19,470 PMI–funded
                                                             Mission officials also noted that they have not
therapies during March 2011, and
                                                             exercised their right to limit the transfer of funds
4,980 treatments could not be accounted for.
                                                             between direct–cost categories, meaning PSI
These missing treatments cost USAID an
                                                             treated all donor funds as a single pool of
estimated $5,700.23 Further, the treatments
                                                             resources and shifted resources as needed to
purchased with USAID funds are not properly
                                                             cover costs. When PSI came under budget for
marked to deter theft.
                                                             malaria net distribution costs by nearly $300,000,
The mission was also not monitoring its                      the implementer used the savings to cover
programs adequately. For example, the agreement              expenses such as rent, utilities, and office supplies
officer’s representative did not notice a                    that were already adequately budgeted. PSI
$1.3 million discrepancy in the cost–sharing                 should have passed those savings along to the
requirement. The representative also did not                 U.S. Government or redirected them to
notice that PSI was reporting results based on a             additional malaria prevention efforts benefiting
calendar year rather than a fiscal one. Mission              the Kenyan people.
officials reported exceeding targets for
                                                             Management decisions have been made on all
commodities in 2011 but used the wrong
                                                             12 recommendations, and final action has been
supporting documentation. For instance, the
                                                             taken on 8.
mission reported 6.9 million treatments
distributed; however, the actual result was                  Audit of USAID/Senegal’s Activities
3.3 million, which is less than the 5.8 million              Under the President’s Malaria Initiative
target. In addition, the performance monitoring              (Report No. 7–685–12–007–P). Since 2007,
plan and annual work plan were missing multiple              USAID/Senegal has implemented the
performance targets and indicators.24 When                   $51 million PMI with 11 partners, including
asked, officials could not locate one of two                 ChildFund Senegal, IntraHealth International,
                                                             John Hopkins University, Research Triangle
23
     The matter was referred to OIG investigators.           Institute, and Abt Associates.
24
  Noted in a previous audit of Kenya’s PMI activities,
“Audit of USAID/Kenya’s PEPFAR–Funded                        OIG determined that the mission was
Activities for the Prevention of Transmission of HIV,”
Report No. 7–615–10–010–P, July 29, 2010.                    successfully meeting its goals for PMI activities.


               Semiannual Report to the Congress: April 1–September 30, 2012  46
                                      USAID Office of Inspector General

Successes included spraying more than                    314 remaining bed nets in the district warehouse
490,000 structures to deter residential mosquito         that the mission believed had already been
populations, providing more than 3 million bed           distributed. At one health facility, OIG found
nets to beneficiaries (including the completion of       that the community health worker had not
three phases of national distribution campaigns          treated any patients in more than a year because
covering 10 of the 14 regions), and training more        she had not received any stock of malaria drugs
than 20,000 people on malaria prevention and             or rapid diagnostic tests in that timeframe.
treatment techniques. All of these successes
                                                         The usage of bed nets also varied greatly. In one
occurred although the mission was faced with
                                                         village OIG visited, none of the 25 nets given to
multiple setbacks and challenges.
                                                         four families were being used as prescribed. In
However, OIG noted that partners are not always          total, of the sample 88 nets donated by USAID
providing enough monitoring and support to               during the 2011 national campaign, OIG found
health facilities and beneficiaries. For example, in     that fewer than half (47 percent) were hung and
health offices and posts in the district of Malem        had been used the night before.
Hodar, auditors found expired artemisinin–based
                                                         Final action has been taken on OIG’s two
combination therapy medications. It was unclear
                                                         recommendations.
whether any of the pharmacies had dispensed the
drugs following their expiration dates because           Audit of USAID/Mozambique’s
none of the locations maintained accurate                Tuberculosis Activities (Report No. 4–
inventories of their stocks. Personnel who were          656–12–012–P). USAID has several initiatives
interviewed said that they had requested new             to help the people of Mozambique combat
shipments but that they had yet to receive any           tuberculosis. The Tuberculosis CARE Program
replacements. At one health post, the doctor was         (TB CARE) is a $225 million worldwide initiative
using quinine as a placebo to treat patients. In         implemented through a cooperative agreement
addition, at the district office, OIG found              with the Royal Netherlands Chemical Society
approximately 300 bed nets that were part of the         (KNCV) Tuberculosis Foundation, an
national campaign and had not been distributed.          international leader in fighting TB. In
                                                         Mozambique, TB CARE is primarily
The same kinds of problems were found in the
                                                         implemented by FHI 360 under an agreement
district of Guinguineo. In addition to the lack of
                                                         with KNCV Tuberculosis Foundation. The
accurate inventory records, OIG determined that
                                                         Clinical HIV/AIDS Services Strengthening
the rapid diagnostic tests and children’s therapy
                                                         (CHASS) Project in Sofala, Manica, and Tete and
treatments were expired. Further, OIG found


           Semiannual Report to the Congress: April 1–September 30, 2012  47
                                       USAID Office of Inspector General

the CHASS Project in Niassa are integrated HIV            Obtaining data on gender–based barriers to
programs, of which TB–related activities are one          accessing treatment is critical to monitoring and
component. These two programs are                         evaluating program performance effectively.
implemented by Abt Associates and FHI 360,                However, although health facilities collect
respectively, and receive funding from PEPFAR.            disaggregated data, the Ministry of Health does
                                                          not compile or report it because the Ministry’s
OIG found that although a number of first–year
                                                          aim has been to combat the disease generally and
targets were not met because of delays in
                                                          not focus on women specifically. As a result,
formulating the initial work plan, activities were
                                                          women may not be receiving adequate TB
being implemented as designed and in
                                                          diagnostic and treatment services. Further, TB
accordance with established technical guidance.
                                                          CARE includes activities to improve laboratory
Implementing partner staff, government officials,
                                                          capabilities in Mozambique. Nevertheless, OIG
and community volunteers all said that TB
                                                          found some problems with laboratory
CARE had expanded treatment services,
                                                          infrastructure, personnel, and equipment.
enhanced laboratory capacity, and detected more
TB cases by increasing the number of trained              Management decisions have been made on all
volunteers. One TB patient lauded the program             four recommendations, and final action has been
and especially the volunteers working with him            taken on two.
from the moment he was diagnosed throughout
his treatment. The two CHASS programs were                         General Health Programs
providing HIV testing, TB screening, and
                                                          Sixteen Contractor Employees in Malawi
antiretroviral therapy (ART) treatment to people
                                                          Debarred for Submitting False Hotel
with both diseases.
                                                          Receipts. In May 2012, USAID debarred

However, other issues with the program still need         16 contractors working on a health related

to be addressed. For instance, the annual target          program after OIG received a self–disclosure

for the percentage of HIV–positive TB patients            from CRS in Malawi into fraudulent claims by

initiating antiretroviral therapy was neither             their employees. CRS disclosed almost $5,000

achievable nor evidence based. In addition,               had been fraudulently claimed by their

although overall HIV testing of TB patients               employees. Based on this information, OIG

nearly reached its target, testing was significantly      referred the matter to USAID and the employees

lower in provinces with the highest HIV                   were debarred.

prevalence, resulting in missed opportunities for
HIV prevention and treatment.


            Semiannual Report to the Congress: April 1–September 30, 2012  48
                                       USAID Office of Inspector General

Review of USAID/Caucasus’s Public                         performance, quality of work, estimates, and cost
Hospital Infrastructure Project (Report                   of items. However, mission officials said they
No. 2–114–12–006–S). After the 2008 Russia–               made a studied decision to continue to push the
Georgia War, the United States pledged                    Army Corps to finish the project properly and on
$1 billion in aid to Georgia. Of this sum,                schedule. The absence of Agency–wide policies
$574 million was programmed through USAID,                and guidance for infrastructure projects, as well
including a $250 million direct cash transfer to          as the mission’s lack of comprehensive internal
the Government of Georgia. This pledge was                policies, procedures, checklists, and reporting
made to encourage democratic reform while                 mechanisms hampered its ability to react to
rebuilding Georgia’s infrastructure and economy,          delays.
restoring investor confidence, and improving
                                                          In addition, officials from the mission and the
health services to vulnerable groups, including
                                                          Army Corps said they were not aware of
ethnic minorities and internally displaced people.
                                                          guidelines for infectious disease facilities.
As part of the improved health services                   However, both the World Health Organization
component, USAID/Caucasus rehabilitated                   and the Centers for Disease Control have
three public hospitals (Akhaltsikhe,                      published guidelines for infection control in
Ninotsminda, and Akhalkalaki) under the Public            health–care facilities. Moreover, hospital
Hospital Infrastructure Project. All are located in       licensing in Georgia is governed by a decree that
Samtskhe–Javakheti, a region in southern                  defines basic requirements for hospitals with
Georgia. USAID entered into an interagency                infectious disease departments, as well as
agreement with the U.S. Army Corps of                     specifications for ventilation systems. As no
Engineers to rehabilitate the hospitals from              guidelines were followed, the rehabilitations will
March 2010 through September 2011. The                    need to be redone.
project’s completion date was extended to
                                                          Two recommendations were made, and
February 2012 because of repeated delays.
                                                          management decisions have been reached on
USAID/Caucasus initially invested $1.6 million
                                                          both.
in the project; its final cost was nearly
$3.2 million.

Many problems occurred on the project, causing
multiple delays. The mission was aware of the
delays from the start of the project in 2010 and
had ongoing concerns regarding contractor


            Semiannual Report to the Congress: April 1–September 30, 2012  49
                                      USAID Office of Inspector General

               Management                                involuntary separate maintenance allowance
                                                         (ISMA)26 to 212 people.
           Science and Technology
                                                         OIG determined that the mission had not
Audit of USAID’s Contracts for Cloud                     established a system of internal controls to help
Computing Services. (Report No. A–000–                   ensure that ISMA applications complied with
12–004–P). OIG conducted this audit to                   applicable laws and regulations and that
determine whether USAID’s contracts for cloud            compliance was documented. For instance, OIG
computing services included best practices and           identified some instances in which U.S. direct–
controls. OIG found that, of the 11 best practices       hire employees acknowledged signing for their
and control areas selected for review, only one          spouses on ISMA applications (these ISMA
was included in its entirety in both contracts.          applications were approved in USAID/
OIG made seven recommendations to improve                Washington). Staff members responsible for
the Agency’s contracting practices and controls          reviewing and approving ISMA applications
for cloud computing services, and management             admitted that they did not have a defined set of
decisions have been made on all of them.                 internal controls to apply when reviewing ISMA
                                                         applications. In fact, the former supervisory
           Financial Management                          executive officer said that she assumed someone
                                                         had reviewed ISMA applications before sending
Audit of USAID/Afghanistan’s Internal
                                                         them to her for approval.
Controls in the Administration of the
Involuntary Separate Maintenance                         OIG also determined that although the mission
Allowance (Report No. F–306–12–003–P).                   had established internal controls to help ensure
The separate maintenance allowance is a                  that ISMA payments complied with applicable
nontaxable cost–of–living allowance that USAID           laws and regulations, those controls did not
may provide to “assist an employee to meet the           prevent improper payments. In several cases, the
additional expenses of maintaining members of            mission made ISMA payments for dependents
family elsewhere than at the employee’s foreign          who had reached or passed the age of 21 and who
post of assignment.”25 In 2011, USAID/                   were not eligible for those payments. In addition,
Afghanistan paid more than $2 million in                 the mission also incorrectly underpaid one

                                                         26
                                                           Involuntary separate maintenance allowance is used
                                                         when the employee is assigned to a post where he or
                                                         she is unable to bring family members.
25
  Department of State Standardized Regulations,
Section 260, “Separate Maintenance Allowance.”


           Semiannual Report to the Congress: April 1–September 30, 2012  50
                                      USAID Office of Inspector General

employee and delayed a $13,000 payment by                $860,000 for potential deobligation. In response
more than 20 months. These incorrect payments            to the recommendations, the mission reduced
occurred because the mission did not have                the standard obligation to $15,000 and
written procedures or tools, such as checklists, to      completed its review of unliquidated obligations,
guide its staff and because employees involved in        resulting in a total deobligation of $653,259.
the payment process were not familiar with the
                                                         Final action has been taken on OIG’s two
ISMA guide.
                                                         recommendations.
OIG made eight recommendations. Management
                                                                  Management Capabilities
decisions have been reached on five
recommendations, and final action has been               Former USAID Contractor, Wife and
taken on two.                                            Others Plead Guilty to Fraud in
                                                         Washington, D.C. A former USAID
Review of USAID/Pakistan’s Cost
                                                         contractor employee and his wife were arrested in
Estimates for Shipping and Storage
                                                         Washington, D.C., for fabricating expenses that
(Report No. G–391–12–001–S). Employees
                                                         the employee submitted to his employer. The
transferring to Pakistan are eligible to ship
                                                         expenses were related to the Analysis,
personal effects of up to 2,000 pounds by sea and
                                                         Information Management, and Communication
1,000 pounds by air. They are also entitled to
                                                         project of USAID’s Bureau for Global Health.
ship one vehicle and to place items in storage. To
                                                         USAID unknowingly paid hundreds of
cover the shipping and storage expenses
                                                         thousands of dollars to a home remodeler who
associated with these transfers, USAID/Pakistan
                                                         refurbished the subject’s house. The subject then
obligates an estimated amount, typically $25,000
                                                         fabricated bills for USAID project services, which
though sometimes more, without documenting
                                                         resulted in large payments to the home
the basis of the estimate. Current mission
                                                         remodeler, a friend of the subject. The home
officials do not know how the mission previously
                                                         remodeler, also charged with fraud, retained
set the $25,000 estimate. The actual expenses
                                                         payment for the home construction work and
were much lower.
                                                         forwarded the rest of the money to the former
By reducing the standard obligation                      USAID contractor. The individuals pled guilty of
conservatively to $15,000, OIG found that the            theft of program funds and wire fraud. In April
mission could put approximately $480,000                 2012, three subjects were suspended indefinitely
annually ($2.4 million over 5 years) to better use.      from conducting business with the U.S.
OIG also recommended that the mission review             Government.



            Semiannual Report to the Congress: April 1–September 30, 2012  51
                                      USAID Office of Inspector General

Audit of USAID/Iraq’s Performance                        plan any for the second year of its contract
Evaluation and Reporting for Results                     implementation.
Management Program (Report No. E–
                                                         During the same period when the mission’s
267–12–004–P). Security concerns and
                                                         technical offices relied on other measures for
restrictions on personnel movement in Iraq
                                                         field monitoring, OIG and the Office of the
hamper USAID/Iraq’s ability to carry out normal
                                                         Special Inspector General for Iraq
oversight functions. To help address this issue,
                                                         Reconstruction conducted several performance
USAID/Iraq awarded a contract to the QED
                                                         audits reporting on a recurring finding that the
Group (QED) to provide monitoring and
                                                         mission did not have sufficient monitoring of the
evaluation services under the Performance
                                                         audited programs. For instance, in November
Evaluation and Reporting for Results
                                                         2011, OIG reported that the contractor for the
Management Program (PERFORM). The
                                                         program overstated the number of direct
contract, managed by the mission’s program
                                                         beneficiaries of its activities in greater Baghdad.
office, began in October 2009 and totaled
                                                         The mission did not verify the performance data
$7.5 million for a 2–year base contract. In June
                                                         reported by the contractor or assess the quality of
2011, the mission exercised the option year,
                                                         the data.
which extended the program to August 2012 and
increased the amount to $14.3 million.                   In addition, the evaluation reports and
                                                         statements of work issued to contract for the
OIG determined that the program did not
                                                         evaluation in some cases were technically flawed.
operate entirely as intended. PERFORM fell
                                                         There was also evidence of bias in several of the
significantly short of expectations because,
                                                         evaluations. In one example, a QED evaluation
according the mission’s programmatic review, the
                                                         team leader, who had previously worked for the
mission’s technical officers did not take
                                                         implementer he was evaluating, reported positive
advantage of PERFORM to monitor activities as
                                                         results despite evidence to the contrary. Further,
intended. In interviews, the directors of all three
                                                         the mission did not effectively manage the
technical offices said that they had no need for
                                                         program, which contributed to unsatisfactory and
PERFORM to conduct routine monitoring of
                                                         late reports. Lastly, the audit found that the
activities. Two directors explained that they relied
                                                         mission did not completely implement
on Iraqi counterparts to verify the implementer’s
                                                         recommendations from a prior OIG audit
reported performance data. As a result, QED did
                                                         conducted of PERFORM’s predecessor program,
not deliver on the planned number of
                                                         the Monitoring and Evaluation Performance
monitoring projects in the first year, nor did it
                                                         Program, Phase II.


           Semiannual Report to the Congress: April 1–September 30, 2012  52
                                      USAID Office of Inspector General

Management decisions have been made on OIG’s             The mission did not issue guidance on
five recommendations, and final action has been          monitoring and does not have a current mission
taken on one.                                            order addressing monitoring in general or its
                                                         onsite monitoring program in particular. Further,
Review of USAID/Afghanistan’s
                                                         no mission order details the roles and
Monitoring and Evaluation System
                                                         responsibilities of mission staff members in
(Report No. F–306–12–002–S). A significant
                                                         monitoring on–budget assistance. One office
and continuing constraint to USAID/
                                                         director noted that clarification is needed of the
Afghanistan’s program monitoring and
                                                         roles and responsibilities of the agreement and
evaluation is the security situation in
                                                         contracting officers’ representatives
Afghanistan. The country remains a high–threat
                                                         (AOR/CORs) who manage projects and of the
environment, and security concerns often
                                                         onsite monitors (OSMs) who are to oversee those
constrain the mission’s ability to implement and
                                                         projects. Further, some AORs/CORs do not
monitor projects throughout the country.
                                                         believe that all OSMs have the technical skills
USAID/Afghanistan has repeatedly identified
                                                         necessary to monitor their projects properly. In
this impediment in annual reports to
                                                         addition, while most certified AORs and CORs
USAID/Washington. In addition, the constant
                                                         were aware of their required biannual refresher
staff turnover at the mission erodes the staff
                                                         training (to stay certified), more than half had
knowledge base because managers and
                                                         not completed the training.
subordinate staff members are often unfamiliar
with the projects under their purview.                   Two of the projects reviewed, the Southern
                                                         Region Agriculture Development Program and
As of March 2012, the mission reported having
                                                         the District Delivery Program with combined
95 active awards with $4.5 billion in obligations
                                                         budgets of $73 million, were not using the
and $3.6 billion in disbursements. Besides
                                                         standard information system, Afghan Info, to
involving large dollar amounts, these programs—
                                                         report on their activities. Moreover, discussions
in agriculture, economic growth, infrastructure,
                                                         with staff members of the Office of Program and
democracy and governance, health, education,
                                                         Project Development revealed that there might be
and stability—are widely dispersed geographically
                                                         additional projects whose implementers were not
and often implemented in active war zones.
                                                         reporting performance results in Afghan Info. In
Although the mission has implemented several
                                                         addition, several of the AORs and CORs did not
elements of an effective monitoring and
                                                         use spot checks or periodic reviews to validate the
evaluation system, that system can be
                                                         data in reports submitted by their implementing
strengthened.


            Semiannual Report to the Congress: April 1–September 30, 2012  53
                                       USAID Office of Inspector General

partners. In fact, one AOR said he expected OIG           identify which key partner organizations should
to verify his data during the course of its audits        receive strengthening, RSPN and AiD came up
and reviews.                                              with their own list and estimated in its agreement
                                                          they would strengthen 253 organizations
OIG made ten recommendations. Management
                                                          throughout the program. Neither RSPN officials
decisions were made on all ten, and final action
                                                          nor AiD could provide auditors a basis for the
has been taken on three.
                                                          estimate and both groups said the number
Audit of USAID/Pakistan’s Assessment                      proposed was ambitious and likely unrealistic. As
and Strengthening Program (Report No.                     a result, no targets were met during the first year.
G–391–12–009–P). In September 2008, the
                                                          Part of this problem was from poor planning by
United States endorsed the Accra Agenda for
                                                          the mission. The results framework and
Action, a commitment by international donors to
                                                          preliminary performance management plan were
strengthen and use developing–country systems
                                                          not established until a year after the program
to the extent possible to carry out development
                                                          began, and the USAID/Pakistan office managing
activities. To implement an overall U.S.
                                                          the program lacked experience designing,
Government civilian strategy in accordance with
                                                          planning, and implementing programs that, like
the Accra Agenda, USAID/Pakistan launched
                                                          this one, seek to build capacity in areas other
the Assessment and Strengthening Program in
                                                          than finance.
October 2010. To achieve the program’s goals,
the mission awarded three 5–year separate                 Management decisions have been made on all
cooperative agreements to the Rural Support               three recommendations.
Programmes Network (RSPN), Lahore University
                                                          Survey of USAID’s Efforts to Address Its
of Management Sciences (LUMS), and Associates
                                                          Backlog of Expired Awards (Report
in Development (AiD), totaling $44 million.
                                                          Number 9–000–12–002–S). USAID’s Office
According to USAID/Pakistan, the program was              of Acquisition and Assistance (OAA) implements
to establish a mechanism that would enable the            programs by issuing and administering contracts,
mission to work with local implementing                   grants, and cooperative agreements, collectively
partners and host–government entities, many of            referred to as “awards.” OAA’s work is essential
which have insufficient institutional capacity.           to the success of USAID’s development objectives
The program would also provide technical                  because the Agency executes virtually all of its
assistance required to manage USAID funds                 international development and humanitarian
effectively. However, because the mission did not         assistance programs through these instruments.



            Semiannual Report to the Congress: April 1–September 30, 2012  54
                                      USAID Office of Inspector General

USAID officials acknowledged the Agency’s                thirds of all awards during that period took
backlog of incomplete closeout and deobligation          almost 3 years longer than they should have. The
activities as an internal control weakness in the        delay in closing out expired awards is a concern
fiscal year 2010 financial report. According to the      because it hinders USAID from complying with
report, as of July 2010, USAID had nearly                the Federal Acquisition Regulation (FAR). If the
$252 million in program funds and $13 million            Agency does not take steps to address the backlog
in operating expenses that could be deobligated.         of contractor audits and insufficient funding of
Agency officials later said the report inadvertently     closeout and deobligation activities, it also risks
overstated the amount of funds that could be             losing the use of program funds. In addition, in
deobligated and that the right amount was                2011 OAA reported that it deobligated nearly
probably closer to $120 million. This problem            $51 million from 747 awards; however, AORs
was noted as a significant deficiency in the             and CORs did not identify more than
Agency’s fiscal year 2011 financial report.              $23 million in excess funds before closeout.

Overall, the survey found that USAID’s actions           Management decisions have been reached on all
to address the backlog of awards awaiting                four recommendations.
closeout were not sufficient. For example,
                                                         Audit of USAID’s Small Business
USAID did not require OAA to explore
                                                         Utilization Practices (Report No. 9–000–
alternative closeout procedures when feasible;
                                                         12–005–P). The Small Business Act requires
such procedures could have helped OAA reduce
                                                         that a fair proportion of total U.S. Government
the backlog of expired contracts and increase the
                                                         expenditures for property and services be directed
number of awards that were closed out on time.
                                                         to small businesses. The Small Business
In addition, USAID did not address whether
                                                         Administration (SBA) establishes annual goals for
OAA could have public accounting firms
                                                         federal agencies for small business use and
perform incurred cost audits instead of relying
                                                         implements other related requirements. SBA
exclusively on the Defense Contract Audit
                                                         annually issues a small business procurement
Agency to perform them. Finally, it did not
                                                         scorecard that (1) measures how well federal
address the AOR’s or COR’s roles in reviewing
                                                         agencies reach their small business goals; (2)
contracts for excess funds prior to closeout.
                                                         provides accurate, transparent contracting data;
From 2009 to 2011, OAA reported that it closed           and (3) reports on agency–specific progress.
almost 1,400 awards. However, most of these              USAID’s OAA in the Management Bureau
were not closed within the time frames required.         oversees procurement for the Agency and collects
OIG found that closeout actions for nearly two–          and reports Agency acquisition data that SBA

           Semiannual Report to the Congress: April 1–September 30, 2012  55
                                            USAID Office of Inspector General

uses to monitor progress on reaching small                     Management decisions have been reached on all
business utilization goals.                                    ten OIG recommendations to improve the
                                                               Agency’s program.
OIG audited USAID’s small business utilization
practices and found that the Agency significantly                          Employee Misconduct
increased its obligations to small businesses from
                                                               Termination of Two Local National
fiscal year 2009 to fiscal year 2011. USAID
                                                               Employees Working at the Embassy
steadily improved its scorecard grade from an F
                                                               Housing Office in Pakistan. Two Housing
in fiscal year 2009, to a C in fiscal year 2010, and
                                                               Office employees were terminated from State
to an A in fiscal year 2011.
                                                               Department employment in July 2012 as a result
However, USAID has not met all its small
                                                               of fraudulent activity related to the procurement
business utilization goals. For example, USAID
                                                               of housing for USAID and other Pakistan
needs to make greater progress in increasing
                                                               Embassy employees. The activity was confirmed
obligations to HUBZone27 businesses and
                                                               by a joint investigation by the OIGs from USAID
businesses run by Service–disabled veterans. In
                                                               and the State Department, which uncovered
addition, USAID did not review, monitor, or
                                                               misconduct, solicitation, and acceptance of bribes
enforce subcontracting plans for the contracts it
                                                               from property owners by the two employees in
entered into both because of a lack of internal
                                                               exchange for favorable lease terms from
controls and direction for which officials were
                                                               landlords. In September 2012, the case was
responsible for these tasks. Although USAID had
                                                               referred to the Pakistan National Accountability
policies in place to manage its small business
                                                               Bureau to pursue local prosecution.
utilization program, these directives are no longer
applicable or are unsuitable to current operations             USAID Contracting Officer Resigns

and must be updated. Further, data quality in                  Following OIG Investigation. As reported in

acquisition reporting was problematic; the                     OIG’s previous semiannual report, OIG

Agency’s automated system for managing                         investigated a USAID contracting officer for

acquisition has improved overall data quality                  submitting false claims to the government for

reported to external sources, but data used by                 reimbursement of his child’s special education

SBA is still inaccurate and incomplete.                        allowances. The investigation found that he
                                                               submitted false claims of more than $3,000 over
                                                               the course of a year, stating that he was providing
                                                               a special tutor for his child when in fact he had
                                                               his nanny and housekeeper provide tutoring. In
27
     Historically underutilized business zones.


               Semiannual Report to the Congress: April 1–September 30, 2012  56
                                      USAID Office of Inspector General

May 2012, the employee resigned after receiving a        USAID Employee Forced to Resign from
letter of proposed removal.                              USAID Egypt for Inflating Overtime
                                                         Hours Worked. OIG received a tip that local
USAID Employee in Afghanistan
                                                         USAID employees were allegedly claiming and
Terminated for Theft of Cell Phone
                                                         receiving payment for inflated overtime hours.
Cards. In May 2012, a Foreign Service National
                                                         Investigators discovered that one particular
employee was terminated from his position with
                                                         employee, who had worked for USAID for
USAID in Afghanistan following the completion
                                                         23 years, submitted and received an average of
of an OIG investigation into allegations of fraud.
                                                         50 hours of overtime, per pay period. The
OIG discovered that 188 cell phone cards
                                                         investigation confirmed that at least half of these
purchased for use by USAID’s Foreign Service
                                                         hours were falsely claimed. For fiscal year 2011
National employees, valued at approximately
                                                         alone, the local employee fraudulently submitted,
$2,000, were missing. The subject of the
                                                         and received payment, for at least $15,000 in
investigation, who confessed to the theft, was
                                                         overtime hours. OIG investigators confronted the
solely responsible for ordering, storing, and
                                                         employee with the evidence, and the employee
distributing the cards.
                                                         was immediately placed on administrative leave.
Investigation of USAID Contracting                       Shortly after, the employee resigned from his job.
Specialist Confirms Travel Voucher                       Mission officials plan to recover the funds
Fraud. This investigation revealed that a                obtained by the local employee by withholding
contracting specialist for USAID, a Haitian              the employee’s separation benefits.
national who attended training in Washington,
                                                                   Expanding Accountability
D.C., submitted a false statement in an effort to
receive reimbursement for expenses he did not            Corruption and lack of accountability are major
incur. The individual accrued a substantial sum          impediments to development. These issues
in room service and long–distance telephone calls        threaten to negate years of economic growth,
from his hotel room. In an effort to recover his         especially in the areas of the world subject to
expenses, he fabricated a claim for excessive taxi       political instability and violence.
expenses. In June 2012, the employee was
                                                         OIG audits and investigations afford two
suspended and placed on 1 year’s probation. His
                                                         methods of safeguarding USAID funds; however,
employment was terminated shortly thereafter for
                                                         OIG pursues additional methods to promote
unrelated issues.
                                                         accountability and transparency, described below.




           Semiannual Report to the Congress: April 1–September 30, 2012  57
                                       USAID Office of Inspector General

Expanding Supreme Audit Institutions’                     intend to rely more heavily on SAIs and continue
Capabilities. OIG continues to work closely               working to build their capacity.
with selected supreme audit institutions (SAIs) in
                                                          During this reporting period, SAIs issued
countries where USAID is present. SAIs are the
                                                          12 audit reports covering approximately $8.3
principal government audit agencies in the
                                                          million in USAID funds. They reported
recipient countries and are often the only
                                                          approximately $1.4 million in questioned costs,
organizations that have a legal mandate to audit
                                                          20 internal control weaknesses, and 42 material
the accounts and operations of their
                                                          instances of noncompliance with agreements.
governments.
                                                          Training USAID Staff and Others. OIG
Thus, SAIs may be called upon to audit funds
                                                          remains committed to preventing losses of
provided to host governments by USAID or
                                                          development funds and continues to provide
other donors. OIG and USAID missions have
                                                          training in cost principles and fraud
signed memorandums of understanding (MOUs)
                                                          awareness to USAID employees, contractors,
with SAIs in 23 countries, including an MOU
                                                          grantees, SAIs, and auditors from local
with the Auditor General of Rwanda during this
                                                          accounting firms.
reporting period.
                                                          Cost Principles Training. USAID’s contracts
Before SAIs can conduct audits for USAID, they
                                                          and grants include cost principles provisions that
must have professional capacity and
                                                          define the types of costs that can be legitimately
independence. OIG often provides training to
                                                          charged to USAID programs. Although the full
SAIs in how to conduct financial audits of
                                                          text of these cost principles is contained in the
USAID funds in accordance with Agency
                                                          FAR and various OMB circulars, USAID
guidelines and U.S. Government auditing
                                                          agreements generally contain only a single
standards.
                                                          sentence that refers to these principles.
This training helps build capacity within SAIs to
                                                          To increase awareness of—and compliance
enhance their ability to audit all public funds.
                                                          with—cost principles and to promote the highest
The SAI, the USAID mission, and OIG then sign
                                                          standards, OIG conducts training for overseas
an MOU that outlines the standards and
                                                          USAID staff, contractors, grantees, and others.
procedures to be used in auditing USAID funds
provided to the host government.                          This training provides a general overview of U.S.
                                                          Government cost principles and actual examples
As part of the shift to use host–country systems
                                                          of instances that demonstrate concepts such as
to deliver foreign assistance, USAID and OIG


             Semiannual Report to the Congress: April 1–September 30, 2012  58
                                        USAID Office of Inspector General

reasonableness, allocability, allowability, and            Also, in accordance with provisions in USAID
various specific cost principles (e.g., travel             contracts and agreements, OIG reviews reports of
expenses or entertainment costs). The training             audits conducted on foreign organizations that
also includes financial audit requirements and             receive USAID funds.
accountability issues.
                                                           Audits of U.S.–Based Companies. U.S.–
During this reporting period, OIG provided                 based companies carry out many USAID–funded
training in cost principles and related subjects to        activities. DCAA conducts audits, reviews, and
a total of 175 individuals in Pakistan and                 preaward surveys of U.S.–based contractors on
Rwanda. These individuals included staff from              USAID’s behalf. OIG then reviews DCAA’s
USAID, non–governmental organizations, local               reports and transmits them to USAID
government and SAI officials, and auditors from            management.
local public accounting firms.
                                                           During this reporting period, OIG reviewed and
Fraud Awareness Training. OIG also                         transmitted 11 DCAA reports covering
provided 68 fraud awareness training sessions to           approximately $932 million in costs (with
1,584 individuals during the reporting period.             questioned costs of more than $2.6 million).

           Contractor and Grantee                          Audits of U.S.–Based Grantees and
                                                           Enterprise Funds. U.S.–based nonprofit
            Accountability—Audits
                                                           organizations also receive significant USAID
Overall Audit Activity. USAID is required by               funds to implement development programs
FAR, the Single Audit Act,28 OMB circulars, and            overseas. As required by OMB Circular A–133,
its own internal policies and procedures to obtain         “Audits of States, Local Governments, and Non–
appropriate and timely audits of its contractors,          Profit Organizations,” nonfederal auditors
grantees, and enterprise funds. OIG provides               perform annual financial audits of USAID
oversight of these audit activities, ensuring that         grantees that spend more than $500,000 in
audits are conducted in accordance with                    federal funds annually. These auditors are
appropriate quality standards and that they                required to identify:
enhance accountability over USAID contractors
                                                               Significant deficiencies involving major
and grantees.
                                                               programs.
                                                               Material noncompliance with laws and

28
                                                               regulations.
  Single Audit Act of 1984, Public Law 98–502, as
amended.                                                       Known fraud affecting a federal award.


            Semiannual Report to the Congress: April 1–September 30, 2012  59
                                        USAID Office of Inspector General

       Misrepresentations of the status of prior           During the reporting period, OIG issued
       audit findings.                                     35 reviews for A–133 Single Audit Act reports
       Reasons why the auditor’s report on                 and issued 17 reviews for Agency–contracted
       compliance for major programs is other than         audit reports covering USAID funds of
       unqualified.                                        approximately $2.7 billion spent by U.S.–based
                                                           grantees.
OIG provides oversight for the nonfederal
auditors performing these audits and reviews to            Audits of Foreign–Based Contractors and
determine whether auditors have prepared audit             Grantees. OMB Circular A–133 does not apply

reports in accordance with the reporting                   to foreign–based contractors and grantees. Given
requirements of OMB Circular A–133.                        the high–risk environment in which USAID
                                                           operates, however, USAID has extended similar
OIG also conducts quality control reviews to
                                                           audit requirements to its foreign–based
determine whether the underlying audits
                                                           contractors and grantees through standard
complied with OMB A–133 audit requirements
                                                           provisions included in grants, cooperative
and generally accepted government auditing
                                                           agreements, and contracts through OIG’s
standards. In some instances, OIG contracts with
                                                           Guidelines for Financial Audits Contracted by Foreign
DCAA to perform special financial audits and
                                                           Recipients (February 2009). Financial audits of
with independent public accounting firms to
                                                           foreign–based contractors and grantees are
perform Agency–contracted financial audits of
                                                           normally conducted by independent audit firms
U.S.–based grantees.
                                                           approved by OIG’s overseas regional offices.
Enterprise funds are U.S.–based nonprofit                  Under the recipient–contracted audit programs,
organizations established under the Support for            audits are required for all foreign nonprofit
                                                   29
East European Democracy (SEED) Act of 1989.                organizations that spend $300,000 or more
USAID currently has two enterprise funds, one              during their fiscal year. USAID may also request
that invests in Eastern Europe and another that            financial audits of nonprofit organizations that
invests in South Africa. Enterprise funds are              fall below the $300,000 threshold.
subject to annual audits of financial statements
                                                           USAID’s financial audit requirements
performed by private accounting firms and
                                                           concerning its contracts, grants, and cooperative
reviewed by OIG.
                                                           agreements are normally satisfied under the
                                                           recipient–contracted audit program. However,
                                                           Agency–contracted audits may be initiated by
29
     Public Law 101–179.


              Semiannual Report to the Congress: April 1–September 30, 2012  60
                                          USAID Office of Inspector General

either USAID or OIG to provide additional audit                         Contractor and Grantee
coverage or address specific concerns.
                                                                    Accountability—Investigations
OIG reviews all audit reports and, if they are
                                                             Mercy Corps Employee in Afghanistan
found to be in compliance with Guidelines for
                                                             Debarred After Stealing More Than
Financial Audits Contracted by Foreign Recipients,
                                                             $250,000. A contract employee was debarred in
transmits the reports to the appropriate USAID
                                                             June 2012 after an OIG investigation discovered
mission for corrective actions. Audit firms are
                                                             that the employee had stolen more than
also notified of any problems identified in the
                                                             $250,000 from his employer, Mercy Corps, a
audit reports.
                                                             USAID implementing partner in Afghanistan.
During this reporting period, OIG reviewed and
                                                             Mercy Corps reported that the theft occurred by
transmitted 179 audits of foreign–based
                                                             the employee’s altering and cashing a check
organizations, covering more than $423 million
                                                             issued by the organization. The employee was
in expenditures and resulting in about
                                                             believed to have fled to Pakistan; the Afghan
$12 million in questioned costs; 3 audits of
                                                             National Police were alerted to the scheme and
foreign government funding, covering $2.8
                                                             began their own investigation. Mercy Corps fully
                                              30
million in expenditures and $10 million in
                                                             cooperated with the investigation, and the subject
questioned costs. OIG also completed 6 quality
                                                             was debarred.
control reviews to ensure that the audits were
completed in accordance with appropriate audit               OIG Investigation in Pakistan Results in

standards.                                                   NGO Employee Termination and
                                                             Referral for Debarment. In 2011, a USAID
                                                             contract was awarded to the National Rural
                                                             Support Program (NRSP) to provide locally
                                                             registered Pakistani nongovernmental
                                                             organizations with financial assistance to improve
                                                             education, health, and economic growth
                                                             throughout the country. OIG received an
30
  The audited amount of one close-out audit                  allegation of possible fraud related to the
pertained to the period July 1, 2011 to March 31,
2012, whereas the amount of questioned cost sharing          implementation of a subgrant by the Khushal
was related to shortfall over the life of project over 6
years i.e., from February 3, 2006, to March 31, 2012.        Welfare Organization (KWO). The OIG
Because the recipient was to provide the cost–sharing        investigation revealed that the Chairman of
amount throughout the project, questioned costs
pertain to the shortfall in cost sharing from the close-     KWO paid a bribe to a field operations officer of
out audit period.


             Semiannual Report to the Congress: April 1–September 30, 2012  61
                                    USAID Office of Inspector General

the implementing partner in exchange for a             USAID debarred a contract employee who had
favorable grant closeout report. The KWO               previously been convicted of fraud in connection
Chairman admitted to making false reports and          with a $114 million program economic
in response, NRSP terminated the field                 development program in Afghanistan. OIG had
operations officer in April 2012. Based on a           received the allegation about the employee from
referral from OIG, the NRSP field operations           DAI, the program implementer. OIG’s
officer, KWO and its Chairman were suspended           investigation revealed that the employee had
and proposed for debarment by USAID in                 solicited and received a kickback from the
September 2012.                                        president of a grantee company. The employee
                                                       has been arrested by Afghan authorities and
DAI Employee Previously Convicted of
                                                       sentenced to 3 years’ imprisonment with a
Theft From USAID Program in
                                                       $10,000 fine.
Afghanistan Debarred. In August 2012,




           Semiannual Report to the Congress: April 1–September 30, 2012  62
                                USAID Office of Inspector General




       Significant Recommendations Described Previously Without
                                          Final Action
                                               USAID
                                April 1–September 30, 2012

Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector general to identity
each significant recommendation described in previous semiannual reports on which corrective
action has not been completed.

                                                                                        Final
                                                                    Management
   Report                                       Issue       Rec.                       Action
                     Subject of Report                               Decision
   Number                                       Date        No.                        Target
                                                                       Date
                                                                                        Date
                                                              2         01/15/09        03/31/13
                    Audit of Engender
                                                              3         01/15/09        03/31/13
                    Health’s Management of
 1–511–09–004–P                                 01/15/09      5         01/15/09        03/31/13
                    Activities Financed by
                                                              7         04/27/09        03/31/13
                    USAID/Bolivia
                                                              8         04/27/09        03/31/13
                    Audit of USAID’s
                    Compliance with the
 A–000–10–001–P     Federal Information         11/17/09     15         11/17/09        12/31/12
                    Security Management Act
                    for Fiscal Year 2009
                    Audit of USAID’s
                    Compliance with the                       3         11/09/10        12/31/12
                    Federal Information                       8         11/09/10        06/30/13
 A–000–11–002–P                                 11/09/10
                    Security Management Act                  10         11/09/10        06/30/13
                    of 2002 for Fiscal Year                  25         11/09/10        02/28/15
                    2010
                    Audit of USAID’s
                    Financial Statements for                  1         11/12/10        12/31/12
 0–000–11–001–C                                 11/12/10
                    Fiscal Years 2010 and                     2         11/12/10        06/30/13
                    2009




        Semiannual Report to the Congress: April 1–September 30, 2012  63
                              USAID Office of Inspector General


                                                                                    Final
                                                                      Management
  Report                                      Issue        Rec.                    Action
                 Subject of Report                                     Decision
  Number                                      Date         No.                     Target
                                                                         Date
                                                                                    Date
                                                           1.1-1.4      11/15/11   03/31/13
                                                           2.1-2.6      11/15/11   03/31/13
                                                           3.1-3.6      11/15/11   03/31/13
                                                           4.1-4.3      01/24/12   11/15/12
                                                           5.1-5.3      11/15/11   03/31/13
                                                             6.1        11/15/11   01/30/13
                                                              7         11/15/11   10/31/12
                                                              8         11/15/11    3/31/13
                                                           9.1-9.5      11/15/11   12/31/12
                                                            10.4        11/15/11   03/31/13
                                                          11.1-11.3     11/15/11   03/31/13
                                                          13.1-13.2     11/15/11   10/31/12
                                                             14         11/15/11   10/31/12
                                                          15.1-15.2     11/15/11   03/31/13
                                                             16         11/15/11   03/31/13
                 Audit of USAID’s Fiscal
                                                            17.1        11/15/11   03/31/13
                 Year 2011 Compliance
                                                            17.2        11/15/11   06/30/13
A–000–12–003–P   With the Federal            11/15/2011
                                                            17.3        11/15/11   03/31/13
                 Information Security
                                                            17.4        11/15/11   01/30/13
                 Management Act of 2002
                                                          18.1-18.2     11/15/11   03/31/13
                                                             20         11/15/11   03/31/13
                                                             21         11/15/11   01/30/13
                                                             22         11/15/11   03/31/13
                                                             23         11/15/11   10/31/12
                                                             24         11/15/11   10/31/12
                                                          25.1-25.3     11/15/11   03/31/13
                                                             26         11/15/11   03/31/13
                                                             27         11/15/11   03/31/13
                                                          28.1-28.3     11/15/11   03/31/13
                                                             29         11/15/11   03/31/13
                                                             31         11/15/11   10/31/12
                                                             33         11/15/11   03/31/13
                                                          34.1-34.3     01/24/12   11/15/12

                 Audit of USAID’S
7–681–11–003–P   HIV/AIDS Activities in       02/04/11       2          02/04/11   12/31/12
                 Cote d’Ivoire
                 Audit of USAID/Bolivia’s
                                                             8          07/28/11   12/31/12
1–511–11–006–P   Integrated Food Security     07/28/11
                                                             12         07/28/11   10/31/13
                 Program
                 Audit of Phase III of
                 USAID/India’s
5–386–11–010–P                                08/25/11       3          08/25/11   03/31/13
                 Innovations in Family
                 Planning Services Project




      Semiannual Report to the Congress: April 1–September 30, 2012  64
                               USAID Office of Inspector General


                                                                                 Final
                                                                   Management
  Report                                     Issue        Rec.                  Action
                 Subject of Report                                  Decision
  Number                                     Date         No.                   Target
                                                                      Date
                                                                                 Date
                 Review of
                 USAID/Afghanistan’s
F–306–11–005–S                               08/31/11       7        02/14/12   03/31/13
                 Afghan Civilian
                 Assistance Program
                 Audit of
                                                            2        09/26/11   03/31/13
1–518–11–009–P   USAID/Ecuador’s             09/26/11
                                                            4        09/26/11   03/31/13
                 Environment Program
                 Audit of
                 USAID/Afghanistan’s
                 On–budget Funding
                 Assistance to the
                                                            5        09/29/11   10/31/12
F–306–11–004–P   Ministry of Public Health   09/29/11
                                                            6        09/29/11   10/31/12
                 in Support of the
                 Partnership Contracts
                 for Health Services
                 Program
                 Review of USAID’s
                 Compliance With
2–000–12–001–S   Procedures for              10/26/11       4        04/06/12   12/31/12
                 Approving Conference
                 Expenses
                                                            1        10/28/11   10/31/12
                                                            2        10/28/11   10/31/12
                 Audit of                                   3        10/28/11   10/31/12
                 USAID/Tajikistan’s                         4        10/28/11   10/31/12
5–119–12–001–P                               10/28/11
                 Productive Agriculture                     5        10/28/11   10/31/12
                 Program                                    6        10/28/11   10/31/12
                                                            7        10/28/11   10/31/12
                                                            8        10/28/11   10/31/12
                 Audit of
G–391–12–001–P   USAID/Pakistan’s Firm       11/03/11
                                                            6        11/03/11   12/31/12
                 Project
                 Audit of
                 USAID/Afghanistan’s
F–306–12–001–P   Afghanistan Stabilization   11/13/11       13       03/17/12   12/31/12
                 Initiative for Southern
                 Region
                                                            2.1      11/15/11   06/30/14
                 Audit of USAID’s
                                                            2.2      11/15/11   06/30/14
                 Financial Statements for
0–000–12–001–C                               11/15/11       3.1      11/15/11   09/30/14
                 Fiscal Years 2011 and
                                                            3.2      11/15/11   09/30/14
                 2010
                                                            3.3      11/15/11   09/30/14




      Semiannual Report to the Congress: April 1–September 30, 2012  65
                               USAID Office of Inspector General


                                                                                 Final
                                                                   Management
  Report                                       Issue      Rec.                  Action
                 Subject of Report                                  Decision
  Number                                       Date       No.                   Target
                                                                      Date
                                                                                 Date
                 Audit of
                 USAID/Pakistan’s Energy
G–391–12–002–P                                 11/23/11     1        11/23/11   12/31/12
                 Efficiency and Capacity
                 Program
                                                            1        12/22/11   12/22/12
                 Audit of USAID/Jordan’s                    2        12/22/11   12/22/12
                 Design for Sustainability                  3        12/22/11   12/22/12
6–278–12–002–P                                 12/22/11
                 In Its Water Resources                     4        12/22/11   12/22/12
                 Program                                    6        12/22/11   12/22/12
                                                            7        12/22/11   12/22/12
                 Review of Responses to
                 Internal Audit Findings
                                                            6        12/26/11   10/31/12
F–306–12–001–S   on the Local Governance       12/26/11
                                                            7        12/26/11   10/31/12
                 and Community
                 Development Project
                 Review of Audits of                        1        12/28/11   12/31/12
                 Foreign Organizations                      2        12/28/11   12/31/12
2–000–12–002–S                                 12/28/11
                 Expending Centrally                        3        12/28/11   12/31/12
                 Funded Assistance                          4        12/28/11   12/31/12
                 Audit of USAID’s
G–391–12–003–P   Pakistan Transition           02/03/12     1        02/03/12   12/31/12
                 Initiative Program
                 Audit of USAID/Angola’s
                 Public–Private
4–654–12–006–P                                 02/27/12     7        08/28/12   05/31/13
                 Partnerships for
                 Development
                                                            3        02/27/12   02/27/13
                 Audit of USAID/Regional
                                                            4        02/27/12   02/26/13
                 Development Mission for
5–493–12–004–P                                 02/27/12     6        02/27/12   02/27/13
                 Asia’s Sapan Program in
                                                            7        02/27/12   02/26/13
                 Thailand
                                                            8        02/27/12   02/26/13
                 Independent Auditor’s
                 Report on USAID’s
                 Compliance With the
0–000–12–001–S                                 03/16/12     1        03/16/12   12/31/12
                 Improper Payments
                 Elimination and Recovery
                 Act of 2010
                                                            1        03/21/12   11/30/12
                                                            2        03/21/12   11/30/12
                 Audit of the Sustainability
                                                            3        03/21/12   11/30/12
                 of USAID/Iraq–Funded
E–267–12–002–P                                 03/21/12     4        03/21/12   11/30/12
                 Information Technology
                                                            5        03/21/12   11/30/12
                 Systems
                                                            6        03/21/12   11/30/12
                                                            7        03/21/12   11/30/12
                                                            3        07/10/12   12/31/12
                 Audit of USAID/Iraq’s
                                                            4        03/22/12   12/31/12
E–267–12–003–P   Electoral Technical           03/22/12
                                                            9        03/22/12   12/31/12
                 Assistance Program
                                                            11       09/13/12   01/31/13



      Semiannual Report to the Congress: April 1–September 30, 2012  66
                           USAID Office of Inspector General



     Incidents in Which OIG Was Refused Assistance or
                        Information
                                        USAID
                         April 1–September 30, 2012



Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
report to the head of the agency whenever requested information or assistance is
unreasonably refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




 Semiannual Report to the Congress: April 1–September 30, 2012  67
                            USAID Office of Inspector General



                                   Financial Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                          USAID
                            April 1–September 30, 2012
                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                                Foreign Government Funding
                            Financial Audit USAID/Pakistan Grant
                            Agreement No. 391–IL–00–08–01111–00,                  5         QC
G–391–12–012–R   05/10/12
                            Managed by Health Service Academy, for the            5         UN
                            Period From July 1, 2010, to June 30, 2011
                            Close–out Financial Audit of the Pakistan
                            Competitiveness Support Fund, USAID/Pakistan
                            Limited Scope Grant Agreement No. 391–G–
G–391–12–016–R   07/20/12                                                        9,105      QC
                            00–06– 01073–00, Managed by Competitiveness
                            Support Fund (CSF), for the Period From July 1,
                            2011, to March 31, 2012
                            Financial Audit of the Program Titled "Merit and
                            Need Based Scholarship Project,"
                                                                                 1,326      QC
G–391–12–018–R   09/25/12   USAID/Pakistan Agreement No. 391–G–00–04–
                                                                                 1,326      UN
                            01023–00, for the Year Ended June 30, 2011;
                            Managed by Higher Education Commission

                                Foreign–Based Organizations
                            Audit of GOAL, Under Multiple Agreements for         217        QC
0–000–12–045–R   04/26/12
                            Fiscal Year Ended December 31, 2007                  217        UN
                            Audit of Perspektiva, Under Multiple
0–118–12–046–R   05/14/12   Agreements for Fiscal Year Ended
                            December 31, 2010
                            Audit Report of the European Cooperative for
                            Rural Development (EUCORD) Under USAID
0–000–12–047–R   05/09/12   Cooperative Agreement No. GHO–A–00–09–                3         QC
                            00008–00 for Fiscal Year Ended December 31,
                            2009
                            Audit of Woord En Daad, Under USAID
0–000–12–048–R   05/09/12   Cooperative Agreement No. GHO–A–00–08–
                            00003–00, for the Period Ended March 31, 2010
                            Closeout Audit of Woord En Daad, Under
                            USAID Cooperative Agreement No. GHO–A–
0–000–12–049–R   05/21/12
                            00–08–00003–00, for the Period Ended
                            March 31, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  68
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                           Report Title                     Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Audit of Deutsche Welthungerhilfe e.V., Under
0–000–12–050–R   05/15/12   Multiple Agreements for Fiscal Year Ended          39        QC
                            December 31, 2009
                            Audit of GOAL, Under Multiple Agreements for       41        QC
0–000–12–051–R   05/16/12
                            Fiscal Year Ended December 31, 2008                41        UN
                            Audit of Deutsche Welthungerhilfe e.V., Under
0–000–12–052–R   05/17/12   Multiple Agreements for the Fiscal Year Ended     203        QC
                            December 31, 2010
                            Closeout and Annual Audit of Foundation for
                            Independent Radio Broadcasting, Under
                            Cooperative Agreement Nos. 118–A–00–04–
0–118–12–053–R   05/23/12   00075, 118–A–00–10–00069–00 and Contract
                            No. PNMC–FY12–01 With the International
                            Research and Exchange Board (IREX) for Fiscal
                            Year Ended December 31, 2011
                            Close–out Audit of Memorial International
                            Historical, Educational, Charitable and Human
                                                                              486        QC
0–118–12–054–R   07/09/12   Right Society, Under USAID Agreement No.
                                                                              486        UN
                            118–A–00–02–00178 for Period From
                            September 27, 2002, Through May 29, 2012
                            Audit of Merlin, Under USAID Multiple
0–000–12–055–R   06/07/12   Agreements for Fiscal Year Ended
                            December 31, 2008
                            Audit of GOAL, Under Multiple Agreements for       6         QC
0–000–12–056–R   06/12/12
                            Fiscal Year Ended December 31, 2009                6         UN
                            Audit Report of the European Cooperative for
                            Rural Development (EUCORD) Under USAID
0–000–12–057–R   06/14/12   Cooperative Agreement No. GHO–A–00–09–
                            00008–00 for Fiscal Year Ended December 31,
                            2010
                            Audit Report of Charitable Organization
                            "Commercial Law Center" Under USAID
0–121–12–058–R   06/22/12   Cooperative Agreement Nos. 121–A–00–07–
                            00708–00 and 121–A–00–08–00704–00 for the
                            Fiscal Year Ended December 31, 2010
                            Audit Report of Association for Protection of
                            Landowners’ Rights Under USAID Grant
0–114–12–059–R   07/12/12
                            Agreement No. 114–A–00–05–00091–00 for
                            Fiscal Year Ended December 31, 2010
                            Audit of Merlin, Under USAID Multiple
0–000–12–060–R   07/12/12   Agreements for Fiscal Year Ended
                            December 31, 2009
                            Audit of Oxfam GB under USAID Multiple
                                                                               55        QC
0–000–12–061–R   08/02/12   Agreements for Fiscal Year Ended March 31,
                                                                               2         UN
                            2011


   Semiannual Report to the Congress: April 1–September 30, 2012  69
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of Kindernothilfe e.V. Under USAID
0–000–12–062–R   08/09/12   Grant Agreement No. GHO–A–00–09–00012–
                            00 for Fiscal Year Ended December 31, 2011
                            Audit of Deutsche Welthungerhilfe e.V., Under
0–000–12–063–R   08/10/12   Multiple Agreements for Fiscal Year Ended           3         QC
                            December 31, 2011
                            Audit Report of The Mentor Initiative (TMI)
0–000–12–064–R   08/13/12   Under USAID Multiple Agreements for Fiscal
                            Year Ended September 30, 2011
                            Close–out Financial Audit of Transparency
                            Azerbaijan Public Anti–Corruption Association
                            for the Project Entitled "Anti–Corruption
0–000–12–065–R   09/18/12   Advocacy and Legal Advice Centers" Under
                            Cooperative Agreement No. 112–A–00–08–
                            00003–00 dated June 18, 2008 for the Period
                            From July 1, 2008, Through June 30, 2012
                            Audit of Centers for Civic Initiatives, Under
0–000–12–066–R   09/24/12   USAID Agreement No. 168–A–00–05–00104–
                            00 for Fiscal Year Ended December 31, 2010
                            Audit of GOAL, Under Multiple Agreements for        9         QC
0–000–12–067–R   09/25/12
                            Fiscal Year Ended December 31, 2010                 9         UN
                            Audit of the Certified Expenditures Report of
                            USAID Resources Provided Under Contract
                            No. AID–527–C–08–00010 "Strengthening
1–527–12–003–N   08/20/12
                            Institutions and Policies," Managed by
                            Consultandes S.A. for the Period From
                            January 1, 2010, to December 31, 2011
                            Audit of the Financial Statements of the Trust
                            Fund Agreement of the Government of
1–522–12–004–N   09/21/12   Honduras, Managed by USAID/Honduras, for
                            the Period From October 1, 2009, to
                            September 30, 2011
                            Audit of the Fund Accountability Statement
                            Under Cooperative Agreement No. 532–3Ed–
                            AA for Tropical Storm Gustav–Improved
1–532–12–036–R   04/09/12   Education of Targeted Jamaican Youth                25        QC
                            Assistance Project Managed by the Ministry of
                            Education, for the Period From February 23,
                            2009, to December 31, 2010




   Semiannual Report to the Congress: April 1–September 30, 2012  70
                            USAID Office of Inspector General


                                                                                Amt. of
  Report         Date of                                                                   Type of
                                           Report Title                         Findings
  Number         Report                                                                    Findings
                                                                                 ($000)
                            Financial Audit of the Fund Accountability
                            Statement of the "Civil Society Action for
                            Improved Public Sector Performance Program,"
                            Grant Agreement No. 517–A–00–09–00103–00
                            and "Formation of Young Leaders of Political
1–517–12–037–R   04/09/12
                            Parties in the Dominican Republic Phase II
                            Program," Grant Agreement No. 517–A–00–
                            09–00105–00; Managed by Participación
                            Ciudadana for the Period From September 1,
                            2010, to September 30, 2011
                            Financial Audit of the Effective Schools Program,
                            Cooperative Agreement No. 517–A–00–10–
                            00102–00, Administered by the Pontificia
1–517–12–038–R   04/26/12
                            Universidad Catolica Madre y Maestra
                            (PUCMM), for the Period From July 1, 2010, to
                            June 30, 2011
                            Audit of the Cooperative Agreement No. 518–
                            A–00–03–00054–00 for the Strengthening
                            Democracy in Ecuador Program; Managed by              1,351      QC
1–518–12–039–R   05/08/12
                            Corporación Participación Cuidadana Ecuador           1,319      UN
                            (PC) for the Period From January 1 to
                            December 31, 2010
                            Close–out Audit of USAID Resources,
                            Cooperative Agreement No. 517–G–00–10–
                            00108–00, For the "Haiti Earthquake Rapid
1–517–12–040–R   05/04/12   Response Small Grants Program," Managed by             6         QC
                            Instituto Dominicano de Desarrollo Integral,
                            Inc. (IDDI), for the Period From January 20,
                            2010, to July 31, 2010
                            Close–out Audit of USAID Resources,
                            Cooperative Agreement No. 517–G–00–08–
                            00107–00 for the "Out of School and At–Risk
                                                                                   13        QC
1–517–12–041–R   05/04/12   Children and Youth Program," Managed by
                                                                                   9         UN
                            Instituto Dominicano de Desarrollo Integral,
                            Inc. (IDDI), for the Period From May 20, 2008,
                            to December 30, 2010
                            Close–out Audit of USAID Resources,
                            Cooperative Agreement No. 517–G–00–08–
                            00110–00, for the "Hurricane Gustav
1–517–12–042–R   05/11/12   Emergency Response Program," Managed by
                            Instituto Dominicano de Desarrollo Integral,
                            Inc. (IDDI), for the Period From September 8,
                            2008, to December 8, 2008
                            Close–out Audit of the Haiti Reconstruction
                            and Recovery Program, Implementation Letter
                            No. 521–IL–IHRC–ORIG, Administered by the
1–521–12–043–R   05/14/12                                                         171        QC
                            Interim Haiti Recovery Commission (IHRC), for
                            the Period From December 3, 2010, to
                            January 31, 2012




   Semiannual Report to the Congress: April 1–September 30, 2012  71
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Audit of the Cooperative Agreement No. AID–
                            512–A–09–00001–00 for the "Brazil Indigenous
                            Based Biodiversity Conservation Program,"
1–512–12–044–R   05/16/12                                                         10        QC
                            Managed by the Instituto Internacional de
                            Educaçao do Brasil (IEB), for the Period From
                            October 1, 2009, to December 31, 2010
                            Audit of USAID Resources, Cooperative
                            Agreement No. AID–517–A–10–00001 for the
                            "Environmental Management and Conservation
1–517–12–045–R   05/18/12
                            Program," Managed by Instituto Dominicano de
                            Desarrollo Integral, Inc. (IDDI), for the Period
                            From May 24, 2010, to December 31, 2010
                            Audit of USAID Resources, Cooperative
                            Agreement No. 517–A–00–09–00109–00 for
                            the "Major League Baseball Dominican
1–517–12–046–R   06/05/12   Development Alliance USAID Incentive Fund,"           7         QC
                            Managed by Instituto Dominicano de Desarrollo
                            Integral, Inc. (IDDI), for the Period From
                            May 18, 2009, to December 31, 2010
                            Audit of the Fund Accountability Statement of
                            the "Communitarian Health Project,"
                            Cooperative Agreement No. 511–A–00–05–
1–511–12–047–R   06/08/12   00113–00, Managed and Implemented by the
                            Integral Health Coordination Program
                            (PROCOSI), for the Period From January 1 to
                            September 30, 2011
                            Audit of the Fund Accountability Statement of
                            the Program to Strengthen Competitiveness of
                            Guatemalan Business and Products,
1–520–12–048–R   07/23/12   Cooperative Agreement No. 520–A–00–05–
                            00009–00, Administered by the Asociación
                            Guatemalteca de Exportadores (AGEXPORT),
                            for the Year Ended December 31, 2011
                            Financial Audits of Multiple Projects
                                                                                 292        QC
1–511–12–049–R   07/23/12   Implemented by Sustainable Technologies
                                                                                 235        UN
                            Promotion Center (STPC)
                            Close–out Audit of the USAID Cooperative
                            Agreement No. 512–A–00–08–00005–00,
                            Ethno–Environmental Protection of Isolated
1–512–12–050–R   07/27/12   Peoples in the Brazilian Amazon Program,             124        QC
                            Managed by Centro de Trabalho Indigenista
                            (CTI), for the Period From January 1, 2010, to
                            September 30, 2011
                            Audit of Cooperative Agreement No. AID–
                            526–A–10–00003 "Support Governmental
                            Reform to Improve Management and Policy               26        QC
1–526–12–051–R   07/27/12
                            Making Systems" Managed by Gestion                    26        UN
                            Ambiental (GEAM), for the Period From
                            October 1, 2010, to December 31, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  72
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of the Cooperative Agreement No. AID–
                            522–A–11–00001 for the "Decentralization
                            Enabling Environment (DEE) Project," Managed
                                                                                 7         QC
1–522–12–052–R   07/27/12   by the Federation of Non–Governmental
                                                                                 6         UN
                            Organizations for the Development of
                            Honduras (FOPRIDEH), for the Period From
                            February 22, to December 31, 2011
                            Financial Audit of USAID Assistance Agreement
                            No. 522–0480 "More Responsive Governance
                            Program and Elections and Political Processes        28        QC
1–522–12–053–R   08/08/12
                            Element," Managed by the Supreme Electoral           28        UN
                            Tribunal (TSE) for the Period From April 1,
                            2011, to December 31, 2011
                            Close–out Audit of the USAID Cooperative
                            Agreement No. RLA–A–00–06–00065–05,
                            "Ethno–Environmental Protection of Isolated
                            Peoples in the Brazilian Amazon Program,"
1–512–12–054–R   08/10/12                                                        23        QC
                            Managed by Instituto Internacional de Educaçao
                            do Brasil (IEB) for the Periods From October 1,
                            2009, to September 30, 2010, and October 1,
                            2010, to September 30, 2011
                            Audit of the Fund Accountability Statement,
                            Agreement No. 511–0660, Managed by the
                            Rural Roads Project (CC.VV.) for the Strategic
                                                                                 42        QC
1–511–12–055–R   08/16/12   Objective Economic Diversification Increasingly
                                                                                 4         UN
                            Sustainable in Coca Leaf–Growing Areas and
                            Associated Areas for the Year Ended
                            December 31, 2011
                            Audit of USAID Resources "Food Program,"
                            Under PL–480 Title II, Cooperative Agreements
                            No. FFP–A–00–07–00010–00, DFD–G00–09–
1–520–12–056–R   08/27/12   00293–00, and AID–OFDA–G–10–000112,
                            Managed by Asociación SHARE de Guatemala
                            (SHARE), for the Period October 1, 2010,
                            Through September 30, 2011
                            Audit of the Fund Accountability Statement of
                            Cooperative Agreement No. 527–A–00–08–
                            00014–03 "Youth Development in Peruvian
                            Coca Growing Zones" and Agreement No.
1–527–12–057–R   08/28/12   1055PER10.24, "Work Obra (International
                            Youth Foundation IYF)," Managed by the
                            Information and Education Center for the
                            Prevention of Drug Abuse (CEDRO), for the
                            Period From March 1, 2011, to January 31, 2012
                            Audit of the Grant Agreement No. AID–514–
                            A–10–00004 for the "Strengthening the Mental
                            Health of Post–Conflict Victims in Rural Areas
1–514–12–058–R   08/29/12
                            – Welfare," Managed by Corporación Impacto
                            Vital (CIV), for the Period From August 11,
                            2010, to December 31, 2011



   Semiannual Report to the Congress: April 1–September 30, 2012  73
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Audit of the Fund Accountability Statement of
                            Cooperative Agreement No. AID–527–A–10–
                            00003 "Promoting Governance in Decentralized
                            Governments Through Civil Society                     2         QC
1–527–12–059–R   08/28/12
                            Participation," Managed by Centro de Estudios         2         UN
                            Para el Desarrollo y la Participación (CEDEP),
                            for the Period From June 10, 2010, to
                            December 31, 2011
                            Audit of the Grant Agreement No. 522–0433
                            "Investing in People: Healthier and Better
                            Educated People," Managed by the Honduran
1–522–12–060–R   08/30/12   Secretariat of Health Through the Unit for            1         QC
                            Extension of Coverage and Funding (UECF) for
                            the Period From November 15, 2010, to
                            March 31, 2012
                            Audit of the Fund Accountability Statement
                            Under Cooperative Agreement No. 524–A–00–
                            06–00005–00 for the "Families United for their       169        QC
1–524–12–061–R   08/30/12
                            Health – FamiSalud/USAID," Managed by                169        UN
                            Federación Red NicaSalud, for the Period From
                            April 1, 2010, to March 31, 2011
                            Audit of Program Assistance No. 532–HE–
                            2010–AA for the "National HIV/STI
1–532–12–062–R   09/18/12   Programme," Managed by the Ministry of Health
                            (MOH), for the Period From June 1, 2010, to
                            September 30, 2011
                            Close–out Audit of the Fund Accountability
                            Statement of the Project Health Services for
                            Displaced Population and Other Vulnerable
                            Groups, Managed by the Association for
1–514–12–063–R   09/18/12
                            Colombian Family Welfare, PROFAMILIA,
                            Under the Cooperative Agreement 514–A–00–
                            07–00300–00, for the Period From January 1,
                            2010, to September 30, 2011
                            Audit of the Fund Accountability Statement
                            Under the Assistance Agreement No. 522–
                            0441, for the Community Led Infrastructure
                            Program of the Merida Initiative and the Central
                            American Regional Security Initiative
1–522–12–064–R   09/20/12
                            (MERIDA/CARSI) Managed by the Honduran
                            Social Investment Fund (FHIS) Through the
                            Directorate of Major Infrastructure (DIM), for
                            the Period From February 2 to December 31,
                            2011




   Semiannual Report to the Congress: April 1–September 30, 2012  74
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of the Fund Accountability Statement for
                            the "Expanding Access to Family Planning for
                            Marginalized Rural Populations Program," Grant
1–522–12–065–R   09/24/12   No. 522–G–00–06–00–304–00, Managed by the
                            Asociación Hondurena de Planificación de
                            Familia (ASHONPLAFA), for the Period From
                            January 1 to December 31, 2011
                            Close–out Audit of the Fund Accountability
                            Statement Under USAID Project No. 522–
                            0433, Implementation of the 2011 Demographic         4         QC
1–522–12–066–R   09/24/12
                            Health Survey (DHS), Managed by the National         2         UN
                            Statistics Institute (INE), for the Period From
                            March 28, 2011, to March 31, 2012
                            Audit of the Fund Accountability Statement of
                            the Project "Strengthening and Expanding Civil
                            Society Institutional Capacities," Cooperative       7         QC
1–526–12–067–R   09/25/12
                            Agreement No. 526–A–10–00004, Managed by             7         UN
                            Semillas Para la Democracia, for the Period
                            From October 1, 2010, to December 31, 2011
                            Audit of the Cooperative Agreement No. 514–
                            A–00–08–00302–00 for the "Afro–Descendant
                                                                                 4         QC
1–514–12–068–R   09/27/12   Leaders Training Program," Managed by
                                                                                 4         UN
                            Fulbright Colombia, for the Period From
                            December 14, 2007, to September 30, 2011
                            Agency Contracted Close–out Audit of USAID
                            Resources Managed by Zambia Agribusiness
                            Technical Assistance Centre Limited (ZATAC)         275        QC
4–611–12–006–N   05/30/12
                            Under Cooperative Agreement No. 611–A–00–            5         UN
                            07–00002–00 for the Eighteen Month Period
                            Ended September 30, 2010
                            Agency Contracted Audit of USAID Resources
                            Managed by Deloitte (Uganda) Limited Under
4–617–12–007–N   05/31/12
                            Contract No. 617–C–00–07–00004–00 for the
                            Year Ended June 30, 2011
                            Audit of USAID Resources Managed by
                            Bethzatha Health Service Private Limited
                            Company Under Contract No. 663–C–00–08–
4–663–12–054–R   04/19/12
                            00418–00 (Technical Services For Monitoring
                            Support Project) for the Year Ended June 30,
                            2011
                            Audit of USAID Resources Managed by Ifakara
                            Health Institute Under Cooperative Agreement
4–621–12–055–R   04/19/12
                            No. 621–A–00–08–00007–00 for the Year
                            Ended June 30, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  75
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of USAID Resources Managed by Women
                            in Law and Development in Africa (WiLDAF)
                                                                                 6         QC
4–621–12–056–R   05/08/12   Under Cooperative Agreement No. 621–A–00–
                                                                                 1         UN
                            10–00004–00 for the Period October 16, 2009,
                            to December 31, 2010
                            Audit of USAID Resources Managed by
                            Regional Centre for Quality of Health Care
4–623–12–057–R   05/08/12   (RCQHC) Under Strategic Objective                   175        QC
                            Agreement No. 623– SOAG6230011.02–60088
                            for the Year Ended June 30, 2011
                            Audit of USAID Resources Managed by Otse
                            Community Home Based Care Trust Under                29        QC
4–936–12–058–R   05/09/12
                            Cooperative Agreement No. GHO–A–00–09–               29        UN
                            00003–00 for the Year Ended March 31, 2011
                            Audit of USAID Resources Managed by Horn
                            Relief Under Grant Agreement Nos. DFD–G–
                            00–10–00046–00 and AID–OFDA–G–10–00014
                            and Closeout Audit of USAID Resources               145        QC
4–902–12–059–R   05/09/12
                            Managed by Horn Relief Under Grant                   34        UN
                            Agreement Nos. DFD–G–00–07–00190–00 and
                            DFD–G–00–09–00047–00 for the Period From
                            September 7, 2007, to December 31, 2010
                            Audit of USAID Resources Managed by Joint
                            Clinical Research Centre (JCRC) Under
4–617–12–060–R   05/29/12   Cooperative Agreement No. AID–617–A–10–              99        QC
                            00006 for the Period June 10, 2010, to June 30,
                            2011
                            Audit of USAID Resources Managed by East,
                            Central and Southern Africa Health Community
4–623–12–061–R   05/29/12   (ECSA–HC) Under Strategic Objective
                            Agreement No. 6230011.02–60087 for the Year
                            Ended June 30, 2011
                            Audit of USAID Resources Managed by Lewa
                            Wildlife Conservancy Through the Northern
                            Rangelands Trust for the Northern Rangelands
4–615–12–062–R   05/30/12                                                        1         QC
                            Trust Support Program Under Cooperative
                            Agreement No. 623–A–00–09– 00011–00 for
                            the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by Youth
                            Health Organization Under Cooperative
4–936–12–063–R   06/11/12
                            Agreement No. NPI–GHH–A–00–07–00011–00
                            for the Year Ended March 31, 2009




   Semiannual Report to the Congress: April 1–September 30, 2012  76
                            USAID Office of Inspector General


                                                                                Amt. of
  Report         Date of                                                                   Type of
                                           Report Title                         Findings
  Number         Report                                                                    Findings
                                                                                 ($000)
                            Audit of USAID Resources Managed by Hamlin
                            Fistula Welfare and Research Trust, Addis
                            Ababa Fistula Hospital, USAID Support for
                                                                                   8         QC
4–663–12–064–R   06/21/12   Fistula Identification, Referral and Treatment in
                                                                                   8         UN
                            Ethiopia, Under Grant Agreement No. 663–G–
                            00–06–00418–00 for the Year Ended June 30,
                            2011
                            Audit of USAID Resources Managed by
                            Mulago–Mbarara Teaching Hospitals’ Joint AIDS
4–617–12–065–R   06/22/12   Program (MJAP) Under Cooperative
                            Agreement No. AID–617–A–09–00006 for the
                            Year Ended September 30, 2011
                            Audit of USAID Resources Managed by
                            Common Market for Eastern and Southern
                            Africa (COMESA) Under Strategic Objective
                            Grant Agreement No. 62300010.02–60100–10,
                            Limited Scope Grant Agreement Nos. 623–
                                                                                  1,481      QC
4–623–12–066–R   06/22/12   1005.01–3–50079 and 623– LSGA0010.02–3–
                                                                                  1,475      UN
                            60078, Integrated Partnership Assistance
                            Agreement 623–AA–09–001–00–EA and
                            Closeout Audit of Strategic Objective Grant
                            Agreement No. 6231005.01–3–30001 for the
                            Year Ended December 31, 2010
                            Audit of USAID Resources Managed by Hospice
                            Africa Uganda Under Cooperative Agreement              3         QC
4–617–12–067–R   06/25/12
                            No. 617–A–00–05–00010–00 for the Year                  2         UN
                            Ended March 31, 2011
                            Audit of USAID Resources Managed by
                            Partners in Hope Under Cooperative
4–612–12–068–R   06/26/12
                            Agreement No. 674–A–00–10–00035–00 for
                            the Period March 1, 2010, to March 31, 2011
                            Audit of USAID Resources Managed by
                            Research and Education for Democracy in
                            Tanzania (REDET) Under Cooperative
4–621–12–069–R   07/09/12
                            Agreement No. 621–A–00–09–00010–00 for
                            the Period September 14, 2009, to June 30
                            2011
                            Closeout Audit of USAID Resources Managed
                            by Mildmay International Kenya Under
                            Cooperative Agreement No. 623–A–00–07–
                            00014–00 for the Period April 1, 2010, to
                            June 30, 2011 and the Audit of USAID
                            Resources Managed by Mildmay International
                                                                                   85        QC
4–623–12–070–R   07/10/12   Tanzania Under Cooperative Agreement No.
                                                                                   80        UN
                            621–A–00–07–00008–00 for the Period April 1,
                            2010, to July 31, 2011, and the Audit of USAID
                            Resources Managed by Mildmay International
                            Rwanda Under Subagreement No. 2007–11 for
                            the Period November 1, 2007, to March 31,
                            2011


   Semiannual Report to the Congress: April 1–September 30, 2012  77
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID Resources Managed by Link
                            Community Development Under Cooperative          101        QC
4–674–12–071–R   07/10/12
                            Agreement No. 674–A–00–09–000137–00 for           97        UN
                            the Year Ended October 31, 2011
                            Closeout Audit of USAID Resources Managed
                            by Botswana Retired Nurses Society
                                                                             147        QC
4–936–12–072–R   07/10/12   (BORNUS) Under Cooperative Agreement No.
                                                                             147        UN
                            GHO–A–00–09–00013–00 for the Period April
                            1, 2011, to January 31, 2012
                            Audit of USAID Resources Managed by the
                            Kenya Community Development Foundation
4–615–12–073–R   07/16/12   Under Cooperative Agreement No. AID–623–          3         QC
                            A–11–00013 for the Period From February 7,
                            2011, to September 30, 2011
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare–Kigoma
                            Zonal Training Centre Under Strategic             2         QC
4–621–12–074–R   07/16/12
                            Objective Grant Agreement No. 621–0011.01,        2         UN
                            Implementation Letter No. 30 and No. 35 for
                            the Year Ended June 30, 2011
                            Closeout Audit of USAID Resources Managed
                            by Youth Health Organisation under
                                                                              67        QC
4–936–12–075–R   07/19/12   Cooperative Agreement No. NPI–GHH–A–00–
                                                                              5         UN
                            07–00011–00 for the 17 Months Ended
                            August 31, 2010
                            Audit of USAID Resources Managed by Wits
                            Health Consortium Under Cooperative              272        QC
4–674–12–076–R   07/19/12
                            Agreement No. 674–A–00–08–00005–00 for            22        UN
                            the Year Ended September 30, 2011
                            Audit of USAID Resources Managed by Deloitte
                            Consulting Limited–TUNAJALI Program under
                            HIV/AIDS Care, Treatment and Rapid Funding
                            Envelope Contract No. 621–C–007–00002–00,
                            and the Community Care for PLWA and OVC
4–621–12–077–R   07/25/12   Cooperative Agreement No. 621–A–00–07–            40        QC
                            00023–00 for the Year Ended December 31,
                            2009, and PEPFAR mission Support Services
                            Indefinite Quantity Contract (MSS IQC–II)
                            Contract No. 621–I–00–08–00003–00 for the
                            26 Months Ended December 31, 2009




   Semiannual Report to the Congress: April 1–September 30, 2012  78
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of USAID Resources Managed by Deloitte
                            Consulting Limited–TUNAJALI Program under
                            HIV/AIDS Care and Treatment and Rapid
                            Funding Envelope Contract No. 621–C–007–
                            00002–00, Community Care for PLWHA and
4–621–12–078–R   07/25/12                                                        6         QC
                            OVC Cooperative Agreement No. 621–A–00–
                            07–00023–00 and PEPFAR Mission Support
                            Services Indefinite Quantity Contract (MSS
                            IQC–II) Contract No. 621–1–00–08–00003–00
                            for the Year Ended December 31, 2010
                            Audit of USAID Resources Managed by Justice
                            for All–Prison Fellowship Ethiopia Under
4–663–12–079–R   07/25/12   Cooperative Agreement No. 663–A–00–07–
                            00416–00 for the Year Ended December 31,
                            2010
                            Audit of USAID Resources Managed by Justice
                            for All–Prison Fellowship Ethiopia Under
4–663–12–080–R   07/25/12   Cooperative Agreement No. 663–A–00–07–
                            00416–00 for the Year Ended December 31,
                            2011
                            Audit of USAID Resources Managed by the
                            Ministry of Health–Social Welfare–Centre for
                            Educational Development in Health Arusha
4–621–12–081–R   07/26/12   (CEDHA) Under Strategic Objective Grant
                            Agreement No. 621–0011.01, Implementation
                            Letters No. 20, 26 and 29 for the Year Ended
                            June 30, 2010
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare–Centre
                            for Educational Development in Health Arusha
4–621–12–082–R   07/26/12   (CEDHA) Under Strategic Objective Grant
                            Agreement No. 621–0011.01, Implementation
                            Letter No. 29 and No. 34 for the Year Ended
                            June 30, 2011
                            Audit of USAID Resources Managed by the
                            Ministry of Health and Social Welfare–Primary
                            Health Care Institute in Iringa Under Strategic
4–621–12–083–R   07/26/12
                            Objective Grant Agreement No. 621–0011.01,
                            Implementation Letter Nos. 28 and 33, for the
                            Year Ended June 30, 2011
                            Audit of USAID Resources Managed by Total
                            Land Care–Spice Promotion in Commercial
                            Enterprise Project (SPICE) and Kulera
4–612–12–084–R   07/26/12   Biodiversity Project Under Cooperative
                            Agreement Nos. 674–A–00–09– 00051–00 and
                            674–A–00–09–00140–00 for the Year Ended
                            September 30, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  79
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID Resources Managed by
                            Tanzania Community Civic Initiative Under
4–621–12–085–R   07/27/12   Cooperative Agreement No. 621–A–00–10–
                            00017–00 for the Period From February 2,
                            2010, to August 31, 2011
                            Closeout Audit of USAID Resources Managed
                            by Organization for Social Services for AIDS
                            (OSSA) USAID Support for Care Services for
                                                                              9         QC
4–663–12–086–R   08/06/12   HIV Infected and Affected Orphans and
                                                                              1         UN
                            Vulnerable Children Under Agreement No.
                            663–A–00–08–00423–00 for the Period
                            September 10, 2008, to November 9, 2011
                            Audit of USAID Resources Managed by
                            ANOVA Health Institute Under Cooperative
                            Agreement No. 674–00–08–00009–00 and
4–674–12–087–R   08/06/12
                            Johns Hopkins Health and Education in South
                            Africa Subaward No. JHHESA–01–09 for the
                            Year Ended September 30, 2011
                            Audit of USAID Resources Managed by Aga
                            Khan Foundation Mozambique Under
                            Cooperative Agreement No. GHN–A–00–09–
4–936–12–088–R   08/08/12
                            00009–00 Malaria Communities Program for
                            the 15–Month Period From October 1, 2009,
                            to December 31, 2010
                            Audit of USAID Resources Managed by Dignitas
                            International Under Grant Agreement No. 674–
4–612–12–089–R   08/20/12
                            A–00–10–00034–00 for the Period From May 1,
                            2010, to December 31, 2010
                            Audit of USAID Resources Managed by
                            Nawalife Trust Under Cooperative Agreement
4–673–12–090–R   08/22/12                                                     2         QC
                            No. 690–A–00–07–00103–00 for the Year
                            Ended February 28, 2011
                            Closeout Audit of USAID Resources Managed
                            by Nawalife Trust Under Cooperative               15        QC
4–673–12–091–R   08/23/12
                            Agreement No. 690–A–00–07–00103–00 for            0         UN
                            the 10 Months Ended December 31, 2011
                            Audit of USAID Resources Managed by
                            Comprehensive HIV–AIDS Management
                            Programme (CHAMP) Under Cooperative              535        QC
4–611–12–092–R   08/27/12
                            Agreement No. 611–A–00–08–00009–00 and           461        UN
                            Other Agreements for the 24 Months Ended
                            September 30, 2011
                            Audit of USAID Resources Managed by
                            Children of God Relief Institute (COGRI) for
                            Lea Toto Program Under Cooperative
4–615–12–093–R   08/28/12   Agreement No. AID–623–A–09–00008 and for          5         QC
                            Nyumbani Village Under Program Cooperative
                            Agreement No. AID–623–A–00–09–00027 for
                            the Year Ended December 31, 2011


   Semiannual Report to the Congress: April 1–September 30, 2012  80
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID Resources Managed by AVSI
                            Uganda Under Cooperative Agreement No.
                            AID–617–A–11–00001 and JSI Research and
4–617–12–094–R   09/07/12
                            Training Institute Subagreement No. 016 and
                            International HIV/AIDS Alliance Subagreement
                            TS01 for the Year Ended December 31 , 2011
                            Audit of USAID Resources Managed by
                            Foundation for Professional Development
4–674–12–095–R   09/17/12   Under Cooperative Agreement No. 674–A–00–         2         QC
                            08–0006–00 for the Year Ended December 31,
                            2011
                            Audit of USAID Resources Managed by ADPP
                            Mozambique Under Cooperative Agreement
                            No. GHH–A–00–07–00038–00, Subagreement            79        QC
4–969–12–096–R   09/18/12
                            No. 00022–01, and Subagreement No. 5544–          79        UN
                            06–MOZ7 for the Year Ended December 31,
                            2007
                            Audit of USAID Resources Managed by The
                            Society for Family Health Trust Under
                            Cooperative Agreement No. 674–A–00–11–            18        QC
4–673–12–097–R   09/18/12
                            00017–00. Strengthening HIV Prevention for        18        UN
                            Most at Risk Population in Namibia. for the
                            Year Ended December 31, 2011
                            Audit of USAID Resources Managed by Laikipia
                            Wildlife Forum Under Cooperative Agreement        35        QC
4–615–12–098–R   09/19/12
                            No. AID–623–09–00002 for the Year Ended           10        UN
                            December 31, 2011
                            Closeout Audit of USAID Resources Managed
                            by Namibia Nature Foundation Under
                                                                             876        QC
4–673–12–099–R   09/19/12   Cooperative Agreement No. 690–A–00–02–
                                                                             874        UN
                            00209–00 for the Period March 1, 2005, to
                            December 31, 2008
                            Audit of USAID Resources Managed by Lewa
                            Wildlife Conservancy Through the Northern
                            Rangelands Trust (NRT) for the NRT Support
4–615–12–100–R   09/26/12                                                     2         QC
                            Program Under Cooperative Agreement No.
                            623–A–00–09–00011–00 for the Year Ended
                            December 31, 2011
                            Financial Audit of USAID Resources Managed
                            by the Department of Education – Ministry of
                            Education, Government of Nepal, Under
                                                                              19        QC
5–367–12–005–N   07/06/12   USAID Strategic Objective Grant Agreement
                                                                              14        UN
                            Project No. 367–009, Implementation Letter
                            No. 16 for the Period from July 16, 2010, to
                            July 15, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  81
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Financial Audit of Health of the Urban Poor
                            Program, USAID/India Cooperative Agreement
                            No. 386–A–00–09–00305, Managed by
5–386–12–018–R   04/30/12
                            Population Foundation of India (PFI), for the
                            Period From October 1, 2009, to March 31,
                            2011
                            Financial Audit of the Innovations in Family
                            Planning Services – Uttar Pradesh, Project No.
                            386–0527, Managed by State Innovations in
5–386–12–019–R   04/30/12
                            Family Planning Services Agency (SIFPSA), for
                            the Period From April 1, 2010, to March 31,
                            2011
                            Audit of Subaward Costs of Bangalore
                            Electricity Supply Company Limited (BESCOM)
                            Reimbursed by USAID Under Its Prime Award
                            to Power Finance Corporation (PFC) to
                            Implement Demonstration Equipment of the
5–386–12–020–R   05/24/12   Distribution Reform, Upgrades and
                            Management (DRUM) Component of the
                            Project Titled "Energy Conservation and
                            Commercialization" (ECO), USAID/India
                            Project No. 3860542, for the Period From
                            April 1, 2010, to March 31, 2011
                            Financial Audit of the Statement of Costs
                            Incurred and Billed to USAID/Indonesia by
                            Swisscontact to Implement The Aceh
5–497–12–021–R   05/29/12   Polytechnic Program (TAPP), USAID/Indonesia
                            Contract No. 497–C–00–08–00001–00, for the
                            Period From January 1, 2011, to December 31,
                            2011
                            Financial Audit of the AVERT Project,
                            USAID/India Project No. 386–0544, Managed by        153        QC
5–386–12–022–R   06/06/12
                            the Avert Society, for the Period From April 1,     125        UN
                            2010, to March 31, 2011
                            Financial Audit of the Innovations in Family
                            Planning Services III Uttarakhand, Project No.
5–386–12–023–R   06/22/12   386–0527, Managed by Uttarakhand Health &
                            Family Welfare Society (UKHFWS), for the
                            Period From April 1, 2010, to March 31, 2011
                            Financial Audit of Ghar Ghar Ma Swasthya
                            (GGMS) Program, USAID/Nepal Cooperative
                            Agreement No. AID–367–A–10–00002,
5–367–12–024–R   07/25/12
                            Managed by Nepal CRS Company Pvt Ltd
                            (CRS), for the Period From May 1, 2010, to July
                            31, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  82
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Closeout Audit of the Association of South East
                            Asian Nations Wildlife Enforcement Network
                            (ASEAN–WEN): Phase II of the Support
                                                                                 45        QC
5–486–12–025–R   08/31/12   Program, USAID/RDMA Cooperative
                                                                                 9         UN
                            Agreement No. 486–A–00–08–00045–00,
                            Managed by Freeland Foundation, for the Period
                            from January 1, 2010, to December 31, 2010
                            Financial Audit of USAID Funds Managed by the
                            Eurasia Foundation of Central Asia–Kyrgyzstan
5–116–12–026–R   09/24/12
                            for the Period from January 1, 2011, to
                            December 31, 2011
                            Financial Audit of the Program for Enhancement
                            of Emergency Response (PEER3), Agreement
                            No. DFD–A–00–09–00026–00, Managed by the
5–493–12–027–R   09/27/12
                            Asian Disaster Preparedness Center (ADPC),
                            for the Period from January 1, 2011, to
                            December 31, 2011
                            Close–out Examination of Al Mosleh for
                            General Contractings Compliance With Terms
                            and Conditions of Sub–Firm Fixed Price
                            Contract Numbers PACE–FPC–08–2009,
6–294–12–002–O   07/26/12   PACE–FPC–25–2009, and PACE–FPC–18–2010,
                            Under Chemonics International Inc. Task Order
                            Number DFD–I–06–05–00219–00, Palestinian
                            Authority Capacity Enhancement Project, for
                            the Period From June 26, 2009, to July 30, 2010
                            Close–out Financial Audit of USAID Resources
                            Managed and Expenditures Incurred by Hand In
                            Hand for Egypt, Under Effective Political
6–263–12–002–R   05/07/12   Participation of Historically Disadvantaged
                            Groups Project, Cooperative Agreement
                            Number 263–A–00–09–00041–00, for the
                            Period From February 1, 2010, to May 31, 2011
                            Close–out Examination of Al Widad
                            Contracting and General Trading Company’s
                            Compliance With Terms and Conditions of
                            Sub–Fixed Unit Price Contract Number EO2–
6–294–12–003–O   08/21/12   SA–CW–048, Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From August 25,
                            2010, to August 1, 2011
                            Financial Audit of USAID Resources Managed
                            and Expenditures Incurred by the Arab Program
                            for Human Rights Activists, Under Support of
6–263–12–003–R   05/07/12   Decentralization and Quality of Education
                            Project, Grant Agreement Number 263–G–00–
                            09–00005–00, for the Period From January 25,
                            2009, to January 31, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  83
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Close–out Examination of Al Eswed Company
                            for Contracting’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number EO1–Y–CW–027, Under Prime
6–294–12–004–O   08/21/12
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From
                            November 2, 2009, to August 23, 2010
                            Close–out Audit of USAID Resources Managed
                            by Massar Consulting and Technical Services
                            Private Ltd. Under Subcontract Number TFP
                            WBG 001 With Chemonics International,
6–294–12–004–R   06/21/12
                            Under Task Order Number 294–EEM–I–04–
                            07–00008–01, Trade Facilitation Project, for the
                            Period From October 1, 2009, to August 6,
                            2011
                            Close–out Examination of Abaad Joint
                            Venture’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number EO1–H–CW–030, Under Prime
6–294–12–005–O   08/21/12
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From April
                            21, 2010, to August 1, 2011
                            Close–out Financial Audit of Results Package
                            Grant Agreement for Partnership for
                            Competitiveness, Grant Agreement Number
                                                                                  63        QC
6–263–12–005–R   06/27/12   263–0266, Implementation Letter Number 3,
                                                                                  59        UN
                            Experts for the Central Bank of Egypt Project,
                            for the Period January 1, 2006, Through July 31,
                            2008
                            Close–out Examination of Al–Remah General
                            Contracting Company’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contracts Number EO1–Y–CW–031 and EO2–
6–294–12–006–O   08/22/12   SA–SW–046, Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From November 19,
                            2009, to December 12, 2010
                            Financial Audit of the Fund Accountability
                            Statement of USAID/Egypt Resources Managed
                            and Expenditures Incurred by El Mashreq
                            Association for Development and Population,           29        QC
6–263–12–006–R   06/27/12                                                                   UN
                            Transparency in Election & Governance Project,        12
                            Grant Number 263–G–00–10–00056–00, for
                            the Period From September 26, 2010, to
                            November 30, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  84
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Close–out Examination of Al–Tayseer for
                            Contracting & Trading’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number EO2–SA–CW–069, Under
6–294–12–007–O   08/22/12
                            Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From June 10, 2010, to November 10, 2010
                            Close–out Examination of Tbaileh Company for
                            Engineering and Contracting’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number EO2–H–NW–045, Under
6–294–12–008–O   08/23/12
                            Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From February 25, 2010, to May 30, 2011
                            Close–out Examination of Diyar Consulting
                            Company’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contracts
                            Number TO2–WSO–CW–520, TO2–Y–CW–
6–294–12–009–O   08/23/12   521, TO2–H–CW–532, and TO2–H–CW–529,
                            Under Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From October 8, 2009, to August 1, 2011
                            Close–out Examination of Al Emad Contracting
                            and Investing Company’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number EO1–WSO–SW–020, Under
6–294–12–010–O   09/06/12
                            Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From September 7, 2009, to March 7, 2010
                            Close–out Examination of Al Moheet, Ocean
                            Infrastructure and Investment Company’s
                            Compliance With Terms and Conditions of
                            Sub–Fixed Unit Price Contract Number EO1–
6–294–12–011–O   09/06/12   WSO–SW–011, Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From April 1, 2010,
                            to January 1, 2011
                            Close–out Examination of Al Awayssa General
                            Contracting Company’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number EO2–AR–SW–050, Under
6–294–12–012–O   09/06/12
                            Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From May 5, 2010, to October 30, 2010



   Semiannual Report to the Congress: April 1–September 30, 2012  85
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Close–out Examination of Ali Abu Safieh and
                            Partners for General Contracting Compliance
                            With Terms and Conditions of Sub–Fixed Unit
                            Price Contract Number EO1–WSO–SW–017,
6–294–12–013–O   09/06/12
                            Under Prime ANERA, Cooperative Agreement
                            Number 294–A–00–08–00219–00, Emergency
                            Water and Sanitation Program II, for the Period
                            From March 21, 2010, to December 30, 2010
                            Close–out Examination of Al Petra for
                            Excavation’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number EO1–WSO–SW–019, Under Prime
6–294–12–014–O   09/06/12
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From
                            September 27, 2009, to February 17, 2011
                            Close–out Examination of General
                            Construction and Trade Company’s
                            Compliance With Terms and Conditions of
                            Sub–Fixed Unit Price Contract Number EO2–
6–294–12–015–O   09/06/12   SA–SW–052, Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From June 15, 2010,
                            to January 15, 2011
                            Close–out Examination of General Excavation
                            Company’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contracts
                            Numbers EO1–WSO–NW–035, and EO1–
6–294–12–016–O   09/06/12   WSO–CW–033, Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From October 11,
                            2009, to March 20, 2011
                            Close–out Examination of Khalil Contracting
                            Establishment’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number EO2–SA–CW–070 Under Prime
6–294–12–017–O   09/16/12
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From
                            September 29, 2010, to August 1, 2011
                            Close–out Examination of Hinnawi Contracting
                            Company’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number EO2–WSO–NW–043 Under Prime
6–294–12–018–O   09/16/12
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From
                            February 22, 2010, to January 5, 2011



   Semiannual Report to the Congress: April 1–September 30, 2012  86
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                          Report Title                       Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Close–out Examination of Al–Saleh for Building
                            and Construction Company’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contracts Number EO2–SA–NW–056 and
6–294–12–019–O   09/16/12   EO2–H–CW–060 Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From May 11, 2010,
                            to April 15, 2011
                            Close–out Examination of Al–Murjan
                            Contracting Company’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contracts Number EO1–WSO–CW–036 and
6–294–12–020–O   09/16/12   EO2–AR–CW–066 Under Prime ANERA,
                            Cooperative Agreement Number 294–A–00–
                            08–00219–00, Emergency Water and Sanitation
                            Program II, for the Period From December 9,
                            2009, to September 30, 2010
                            Close–out Examination of Musa Abu Hatab for
                            General Contracting and Trading’s Compliance
                            With Terms and Conditions of Sub–Fixed Unit
                            Price Contracts Number EO2–WSO–NW–044
6–294–12–021–O   09/16/12   and EO1–WSO–CW–010 Under Prime
                            ANERA, Cooperative Agreement Number 294–
                            A–00–08–00219–00, Emergency Water and
                            Sanitation Program II, for the Period From
                            March 15, 2010, to July 31, 2011
                            Close–out Examination of Madar Consulting
                            Engineers Compliance With Terms and
                            Conditions of Sub–Fixed Price Contract Under
6–294–12–022–O   09/23/12   APCO/ArCon, Contract Number 294–I–00–
                            08–00221–00, Infrastructure Needs Program,
                            for the Period From September 1, 2008, to
                            November 14, 2009
                            Close–out Examination of Apcoarcan for
                            Investment and Contracting’s Compliance with
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number TO–22–AIC, Under Prime
6–294–12–023–O   09/27/12   APCO/ArCon. Indefinite Quantity Contract
                            Number 294–I–00–08–00221–00 Task Order
                            Number 22 "Infrastructure Needs Program I",
                            for the Period From May 1, 2010, to September
                            25, 2010
                            Close–out Examination of Awad Contracting
                            Co.’s Compliance With Terms and Conditions
                            of Sub–Fixed Unit Price Contract Number
                            2009–Road–TO–41, Under Prime International
6–294–12–025–O   09/26/12
                            Relief & Development, IQC Number 294–I–00–
                            08–00217–00, Task Order Number 41,
                            Infrastructure Needs Program, for the Period
                            From March 14, 2010, to September 15, 2010


   Semiannual Report to the Congress: April 1–September 30, 2012  87
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                          Report Title                       Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Close–out Examination of Al–Sadek Company
                            for Contracting Compliance With Terms and
                            Conditions of Sub–Fixed Price Contract, Under
                            Prime APCO/ArCon, Task Order Number 22,
6–294–12–026–N   04/24/12
                            Under Indefinite Quantity Contract Number
                            294–I–00–08–00221–00, Infrastructure Needs
                            Program, for the Period From January 5, 2010,
                            to September 5, 2010
                            Examination of Site Group for Services and
                            Well Drilling Ltd. Co.’s Compliance With
                            Terms and Conditions of Sub–Fixed Unit Price
                            Contract Number 2009–Water–TO–43, Under
                            Prime International Relief & Development, Task
6–294–12–026–O   09/30/12
                            Order Number 43, Under Indefinite Quantity
                            Contract Number 294–I– 00–08–00217–00,
                            Infrastructure Needs Program, for the Period
                            From December 5, 2010, to September 25,
                            2011
                            Close–out Examination of Al–Fakher for
                            General Contracting Compliance With Terms
                            and Conditions of Sub–Fixed Price Contract,
                            Under Prime APCO/ArCon, Task Order
6–294–12–027–N   04/24/12   Number 25, Under Indefinite Quantity
                            Contract Number 294–I–00–08–00221–00,
                            Infrastructure Needs Program, for the Period
                            From December 5, 2009, to December 13,
                            2010
                            Close–out Examination of Al–Qaisy Contracting
                            Compliance With Terms and Conditions of
                            Sub–Fixed Price Contract, Under Prime
                            APCO/ArCOn, Task Order Number 17, Under
6–294–12–028–N   04/24/12
                            Indefinite Quantity Contract Number 294–I–
                            00–08–00221–00, Infrastructure Needs
                            Program, for the Period From October 28,
                            2009, to December 5, 2010




   Semiannual Report to the Congress: April 1–September 30, 2012  88
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Close–out Examination of Tarifi Contracting &
                            Reconstruction Co.’s Compliance With Terms
                            and Conditions of Sub–Fixed Unit Price
                            Contract Number 2009–Road–TO–38, Under
6–294–12–028–O   09/30/12   Prime International Relief & Development,
                            Indefinite Quantity Contract Number 294–I–
                            00–08–00217–00, Task Order Number 38,
                            Infrastructure Needs Program, for the Period
                            From August 19, 2010, to July 10, 2011
                            Close–out Examination of Kanater for
                            Contracting Co. Compliance With Terms and
                            Conditions of Sub–Fixed Price Contract, Under
                            Prime APCO/ArCon, Task Order Number 8,
6–294–12–029–N   04/24/12
                            Under Indefinite Quantity Contract Number
                            294–I–00–08–00221–00, Infrastructure Needs
                            Program, for the Period From October 16,
                            2008, to August 27, 2010
                            Close–out Examination of United Newland for
                            Investments Ltd.’s Compliance With Terms and
                            Conditions of Sub–Fixed Unit Price Contract
                            Number 2009–Road–TO–37, Under Prime
6–294–12–029–O   09/30/12   International Relief & Development, Indefinite
                            Quantity Contract Number 294–I–00–08–
                            00217–00, Task Order Number 37,
                            Infrastructure Needs Program, for the Period
                            From July 10, 2010, to April 14, 2011
                            Close–out Examination of Al–Harith Company
                            for Investment & Construction Compliance
                            With Terms and Conditions of Sub–Fixed Price
                            Contract, Under Prime APCO/ArCon, Task
6–294–12–030–N   04/24/12   Order Number 36, Under Indefinite Quantity
                            Contract Number 294–I–00–08–00221–00,
                            Infrastructure Needs Program, for the Period
                            From November 17, 2009, to September 1,
                            2010




   Semiannual Report to the Congress: April 1–September 30, 2012  89
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Close–out Examination of Al–Nammoura
                            Modern Investment General Contracting
                            Compliance With Terms and Conditions of
                            Sub–Fixed Price Contract, Under Prime
6–294–12–031–N   04/24/12   APCO/ArCon, Task Order Number 35, Under
                            Indefinite Quantity Contract Number 294–I–
                            00–08–00221–00, Infrastructure Needs
                            Program, for the Period From November 4,
                            2009, to May 8, 2010
                            Close–out Examination of Arab Brothers for
                            Precast Industrials & Contracting Compliance
                            With Terms and Conditions of Sub–Fixed Price
                            Contract, Under Prime APCO/ArCon, Task
6–294–12–032–N   04/24/12   Order Numbers 26 & 30, Under Indefinite
                            Quantity Contract Number 294–I–00–08–
                            00221–00, Infrastructure Needs Program, for
                            the Period From November 23, 2009, to April
                            1, 2011
                            Close–out Financial Audit of Enhancing
                            Citizenship Participation in Democracy Project,
                            Implemented by Coptic Evangelical
                                                                                 4         QC
6–263–12–033–N   04/24/12   Organization for Social Services Under USAID
                                                                                 4         UN
                            Agreement Number 263–G–00–05–00060–00,
                            for the Period From January 1, 2007, to
                            December 31, 2008




   Semiannual Report to the Congress: April 1–September 30, 2012  90
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Close–out Audit of USAID Resources Managed
                            by Al–Mustakbal Foundation for Strategic and
                            Policy Studies, and Economic Cooperation
                            Foundation, Under Grant Number 001–2–
                            AMF–ECF, Middle East Bridges–Private Sector
6–294–12–034–N   04/26/12                                                       225        QC
                            Initiative Solution–Oriented Macro–Assessment
                            Program, Under USAID Task Order Number
                            AFP–I–01–03–00020–00, With CARANA
                            Corporation, for the Period From January 11,
                            2006, to August 31, 2007
                            Close–out Financial Audit of USAID Resources
                            Managed and Expenditures Incurred by Center
                            for Development Services, Under Young
6–263–12–035–N   05/02/12   Women’s Leadership Program, Grant
                            Agreement Number 263–G–00–07–00097–00,
                            for the Period From September 27, 2007, to
                            September 30, 2009
                            Audit of Locally Incurred Costs by Agency for
                            Technical Cooperation and Development, Sub–
                            Grant Numbers ARDWBG 365, ARDWBG
                            387, and ARDWBG 450, Under Prime
6–294–12–046–N   09/23/12
                            Associates In Rural Development, Main
                            Contract Number DFD–I–04–05–00218–00,
                            the Civic Engagement Program II, for the Period
                            From July 27, 2009, to July 16, 2010
                            Audit of the Cost Representation Statement of
                            USAID Resources Managed by Center for
                            Engineering and Planning, Subcontract Number
                            24024–08–SA–001, Under Prime Cooperative
6–294–12–048–N   09/26/12
                            Housing Foundation, Cooperative Agreement
                            Number 294–A–00–07–00213–00, the
                            Emergency Jobs Program, for the Period From
                            October 1, 2007, to June 30, 2009
                            Close–out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            Sinokrot Food Company, Subgrant Number 005
6–294–12–049–N   09/27/12   HASAD, Under CARANA, Task Order                      78        QC
                            Number AFP–I–01–03–00020–00, Jordan Valley
                            Agriculture Development Program, for the
                            Period from July 9, 2007, to February 29, 2008
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Al–Khaizaran
                            Agribusiness Co., Tubas Herb Farm, Subaward
6–294–12–050–N   09/30/12   Cooperation Agreement Number 171, Under
                            CARANA Task Order Number AFP–I–01–03–
                            00020–00, for the Period From September 27,
                            2005, to September 26, 2007




   Semiannual Report to the Congress: April 1–September 30, 2012  91
                            USAID Office of Inspector General


                                                                             Amt. of
  Report         Date of                                                                Type of
                                           Report Title                      Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Close–out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by Al–
                            Khaizaran Agribusiness Co., Tubas Herb Farm,
                                                                               200        QC
6–294–12–051–N   09/30/12   Subaward Cooperation Agreement Number
                                                                               128        UN
                            171, Under CARANA Task Order Number
                            AFP–I–01–03–00020–00, for the Period From
                            September 27, 2007, to June 15, 2008
                            Consolidated Audit of USAID, Other Donors,
                            Member States, and Internally Generated
                            Resources Managed by the Permanent                  97        QC
7–624–12–012–R   04/18/12
                            Interstate Committee for Drought Control in         97        UN
                            the Sahel for the Period January 1, 2010, to
                            December 31, 2010
                            Recipient–Contracted Audit of USAID
                            Resources Managed by the Catholic Secretariat
                            of Nigeria under the Scale–Up of the Catholic
7–620–12–013–R   05/18/12   Community Based Outreach in Response to             16        QC
                            HIV/AIDS Program (CA No. 620–A–00–07–
                            00217–00) for the Period From November 1,
                            2009, to October 31, 2010
                            Recipient–Contracted Audit of USAID
                            Resources Managed by the West and Central
                            African Council for African Research and
7–624–12–014–R   05/18/12
                            Development (CA No. 624–A–00–07–00046)
                            for the Period From January 1, 2010, to
                            December 31, 2010
                            Recipient–Contracted Audit of USAID
                            Resources Managed by the Coalition Forum
                            Civil/ENDA GRAF (CA No. 685–A–00–09–
7–685–12–015–R   08/24/12
                            00005) under the Partnership for Civil Society
                            Improving Governance Program for the Period
                            From June 26, 2009, to December 31, 2010
                            Recipient–Contracted Audit of USAID
                            Resources Managed by the Women Farmers
                            Advancement Network (WOFAN) Under the
7–620–12–016–R   09/25/12   Access to Safe Drinking Water, Sanitation and
                            Hygiene Project (WASH) (CA No. 620–A–00–
                            09–00017–00) for the Period January 1, 2011 to
                            December 31, 2011
                            Report on Agreed–Upon Forensic Procedures
                            Performed on Procurement Costs Incurred by
                            Rafi Peer Theatre Workshop to Implement
                                                                               2,030      QC
G–391–12–001–O   07/31/12   Pakistan Children Television Project,
                                                                               2,030      UN
                            USAID/Pakistan Agreement No. 391–A–00–10–
                            01161–00, for the Period from May 07, 2010, to
                            May 31, 2012
                            Financial Audit of the USAID Resources
                            Managed by National Rural Support
G–391–12–008–R   04/03/12                                                       40        QC
                            Programme, for the Period From July 1, 2010,
                            to June 30, 2011


   Semiannual Report to the Congress: April 1–September 30, 2012  92
                            USAID Office of Inspector General


                                                                                Amt. of
  Report         Date of                                                                   Type of
                                           Report Title                         Findings
  Number         Report                                                                    Findings
                                                                                 ($000)
                            Financial Audit of the Project Titled "Monitoring
                            and Evaluation Project," USAID/Pakistan
                            Contract No. 391–C–00–10–01138–00, and
                            Program Titled "Assessment and Strengthening
                                                                                  317        QC
G–391–12–009–R   04/17/12   Program," USAID/Pakistan Cooperative
                                                                                   26        UN
                            Agreement No. 391–C–00–10–01203–00,
                            Managed by Associates in Development
                            (Private) Limited, for the Period From
                            January 1, 2010, to June 30, 2011
                            Financial Audit of the Program Titled "Pakistan
                            Children Television," USAID/Pakistan
                                                                                  733        QC
G–391–12–010–R   04/19/12   Agreement No. 391–A–00–10–01161–00,
                                                                                  706        UN
                            Managed by Rafi Peer Theatre Workshop, for
                            the Period From May 7, 2010, to June 30, 2011
                            Financial Audit of Projects Managed by Lahore
                            University of Management Sciences: Foreign
                            Recipient Contracted Assessment and
                            Strengthening Program Under Cooperative
G–391–12–011–R   04/24/12   Agreement # 391–A–00–11–01202–00, and Sub
                            Recipient Contracted Merit and Needs Based
                            Scholarship Program Under Grant Agreement #
                            391–G–00–04–01023–00, for the Year Ended
                            June 30, 2011
                            Financial Audit of the Program Titled: "Gender
                            Equity Program," USAID/Pakistan Agreement
                            No. 391–A–00–10–01162–00, Managed by
G–391–12–013–R   06/12/12
                            Aurat Publication and Information Service
                            Foundation, for the Period From August 15,
                            2010, to June 30, 2011

                            Close–out Financial Audit of the USAID
                            Resources Managed by Pakistan Poverty
G–391–12–014–R   07/10/12
                            Alleviation Fund, for the Period from August 12,
                            2010, to June 30, 2011


                            Financial Audit of the USAID Resources
G–391–12–015–R   07/12/12   Managed by Khushhali Bank Limited, for the
                            Year Ended December 31, 2011

                            Close–out Financial Audit of the Programs
                            Titled "Aga Khan University’s (AKU) Flood
                            Response Program," USAID/Pakistan
                            Agreement No. 391–G–00–10–01188–00, and
G–391–12–017–R   09/13/12   "National Nutrition Survey Supplement,"
                            USAID/Pakistan Grant No. 391–G–11–00001–
                            00, for the Period From January 1, 2011, to
                            February 29, 2012; Managed by The Aga Khan
                            University



   Semiannual Report to the Congress: April 1–September 30, 2012  93
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            Financial Audit of the Program Titled:
                            "Emergency Relief and Early Recovery for Flood
                            Affectees Across Pakistan," USAID/Pakistan
G–391–12–019–R   09/26/12   Agreement no. 391–A–00–11–01204–00,                   3         QC
                            Managed by Rural Support Programmes
                            Network, for the Period From October 15,
                            2010, to June 30, 2011

                                 Local Currency Trust Fund
                            Financial Audit of USAID/Philippines’ Peso Trust
5–492–12–006–N   08/22/12   Fund for Operating Expenses, for the Period           0
                            from January 1, 2011, to December 31, 2011

                                   U.S.–Based Contractors
                            Parsons Infrastructure & Technology Group,
0–000–12–013–D   05/03/12   Inc. Report on Final Incurred Costs Fiscal Year
                            (FY) 2005
                            Bechtel Group, Inc. and Bechtel Systems and
                            Infrastructure, Inc. Report on Incurred Costs
0–000–12–014–D   05/14/12
                            for the Period January 1, 2005, through
                            December 31, 2005
                            Planning & Development Collaborative Int’l, Inc.
                                                                                 126        QC
0–000–12–015–D   06/05/12   Report on Incurred Costs for January 1, 2004,
                                                                                 116        UN
                            through September 30, 2004
                            Frontier Finance International, Inc.
                                                                                 1,136      QC
0–000–12–016–D   06/12/12   Supplemental Report on Audit of Incurred
                                                                                 1,136      UN
                            Costs for Fiscal Years (FY) 2001 and 2002
                            Black and Veatch Corporation Report on
0–000–12–017–D   07/12/12                                                        302        QC
                            Incurred Costs for Fiscal Year (FY) 2007
                            Desk Review of Camp Dresser & McKee, Inc.
0–000–12–018–D   07/27/12
                            Corporate Incurred Costs for Fiscal Year 2005
                            Nathan Associates, Inc. Report on Incurred
0–000–12–019–D   08/02/12
                            Costs for Fiscal Year (FY) 2005
                            Booz Allen Hamilton Worldwide Technology
                            Business (BAH) Report on Incurred Cost for
0–000–12–020–D   08/14/12                                                        593        QC
                            Contractor Fiscal Year (FY) Ending March 31,
                            2005
                            Black & Veatch Special Project Corporation
0–000–12–021–D   09/20/12   Report on Incurred Cost for Fiscal Year (FY)         426        QC
                            December 31, 2007
                            Black & Veatch Special Project Corporation
0–000–12–022–D   09/21/12   Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2006
                            John Snow, Inc. (JSI) Report on Control
0–000–12–023–D   09/25/12
                            Environment and Overall Accounting System




   Semiannual Report to the Congress: April 1–September 30, 2012  94
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                          Report Title                      Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Close–out Examination of International Relief
                            and Development Compliance With Terms and
                            Conditions of USAID Contract Number 294–I–
6–294–12–001–O   07/22/12   00–08–00217–00, Task Order Numbers 3, 4, 6,
                            7, and 10, Infrastructure Needs Program, for
                            the Period From August 20, 2008, to
                            September 16, 2009
                            Audit of Locally Incurred Costs of USAID
                            Resources Managed by Chemonics International
                            Under Contract Number 294–EEM–I–04–07–
6–294–12–007–R   09/20/12
                            00008–01, Trade Facilitation Project, for the
                            Period from July 1, 2010, to September 30,
                            2011
                            Audit of Locally Incurred Costs of the Cost
                            Representation Statement of ShoreBank
                            International, a Sub–Contractor Under Prime
                            Academy for Educational Development, Sub–
6–294–12–023–N   04/24/12   Contract Number 3569–010, Under
                            Cooperative Agreement Number 294–A–00–
                            08–00222–00, Expanded and Sustained Access
                            to Financial Services, for the Period From
                            October 1, 2008, to September 30, 2009
                            Close–out Examination of International Relief
                            and Development’s Compliance With Terms
                            and Conditions of Task Orders Number 37,
                            and 50, and Examination of Task Order
6–294–12–024–O   09/26/12   Number 43, Issued Under USAID Indefinite
                            Quantity Contract Number 294–I–00–08–
                            00217–00, Infrastructure Needs Program, for
                            the Period From August 12, 2009, to
                            September 25, 2011
                            Close–out Examination of CDM Constructors
                            Inc.’s Compliance With Terms and Conditions
                            of Sub–Fixed Unit Price Contract Under Prime
                            International Relief & Development, Task
6–294–12–027–O   09/30/12
                            Order Number 44, Under Indefinite Quantity
                            Contract Number 294–I–00–08–00217–00,
                            Infrastructure Needs Program, for the Period
                            From October 28, 2009, to September 23, 2010
                            Close–out Examination of International Relief
                            and Development’s Compliance With Terms
                            and Conditions of Task Orders Number
                            11,12,13,14,15, 18,20,32,34,42 and 44 Under
6–294–12–030–O   09/30/12
                            Indefinite Quantity Contract Number 294–I–
                            00–08–00217–00, Infrastructure Needs
                            Program, for the Period From July 1, 2009, to
                            December 30, 2010




   Semiannual Report to the Congress: April 1–September 30, 2012  95
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of the Cost Representation Statement of
                            USAID Resources Managed by Louis Berger
                                                                                173        QC
6–294–12–037–N   06/17/12   Group, Inc. Under Contract Number 294–C–
                                                                                173        UN
                            00–05–00233–00, for the Period From
                            September 27, 2005, to March 15, 2006
                            Close–out Audit of the Cost Representation
                            Statement of Locally Incurred Costs Under
6–294–12–040–N              Award Number DFD–I–00–04–00129–00,
                 06/14/12   Strengthening Legislative Transparency and
                            Accountability, Managed by Development
                            Alternatives Inc., for the Period From
                            October 1, 2007, to September 29, 2008
                            Audit of the Cost Representation Statement
                            Covering Locally Incurred Costs by Chemonics
                            Under Task Order Number 294–DFD–I–00–
6–294–12–043–N   09/12/12
                            05–00219–00, Palestinian Authority Capacity
                            Enhancement – PACE Project, for the Period
                            From July 1, 2008, to June 30, 2010
                            Audit of the Cost Representation Statement of
                            Locally Incurred Costs by AECOM, Under
                            Contract Number 267–C–00–10–00005–00,
6–267–12–044–N   09/12/12
                            Iraq Financial Development Project–IFDP, for
                            the Period From July 18, 2010, to September
                            30, 2011
                            Close–out Audit of Costs Incurred by the
                            Academy for Educational Development Under
                            Task Order Number EEE–I–07–810–01–00010–
6–294–12–045–N   09/20/12
                            00, Presidential Scholarship Program, for the
                            Period From September 30, 2006, to
                            October 31, 2007
                            Close–out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            Development Alternatives, Inc. Under Task
6–294–12–052–N   09/30/12   Order Number 294–M–00–05–00231–00,
                            Private Enterprise Development Project, for the
                            Period From September 22, 2006, to October
                            20, 2008

                                    U.S.–Based Grantees
                            Report on Examination of Incurred Costs and
                            Reported by the Partnership for Supply Chain
                                                                                 20        QC
0–000–12–002–N   07/13/12   Management System on the USAID Rwanda
                                                                                 20        UN
                            Project for the Period October 1, 2007, to
                            September 30, 2010
                            OMB Circular A–133 Audit Report of American
0–000–12–056–T   04/02/12   University in Cairo for Fiscal Year Ended
                            August 31, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  96
                            USAID Office of Inspector General


                                                                                 Amt. of
  Report         Date of                                                                    Type of
                                            Report Title                         Findings
  Number         Report                                                                     Findings
                                                                                  ($000)
                            OMB Circular A–133 Audit Report of Helen
0–000–12–057–T   04/02/12   Keller International Inc. for Fiscal Year Ended
                            June 30, 2011
                            Desk Review of OMB Circular A–133 Audit
0–000–12–058–T   04/18/12   Report MUCIA, Inc. for Fiscal Year Ended
                            June 30, 2010
                            Aid To Artisans, Inc., OMB Circular A–133
0–000–12–059–T   04/04/12   Audit Report For Fiscal Year Ended
                            September 30, 2011
                            OMB Circular A–133 Desk Review of
0–000–12–060–T   04/05/12   International Foundation for Electoral Systems
                            for Fiscal Year Ended September 30, 2010
                            OMB Circular A–133 Audit Report of World
                            Vision International and World Vision, Inc.
0–000–12–061–T   04/16/12                                                          104        QC
                            (U.S.A.) for Fiscal Year Ended September 30,
                            2010

                            OMB Circular A–133 Desk Review of Aga Khan
0–000–12–062–T   04/06/12   Foundation USA for Fiscal Year Ended
                            December 31, 2010



                            OMB Circular A–133 Audit Report of FXB
0–000–12–063–T   04/17/12   USA, Inc. for Fiscal Year Ended December 31,
                            2010



                            OMB Circular A–133 Audit Report of
                                                                                    61        QC
0–000–12–065–T   05/01/12   Population Services International, for Fiscal Year
                                                                                    61        UN
                            Ended December 31,2009



                            OMB Circular A–133 Audit Report of
                                                                                    38        QC
0–000–12–066–T   05/09/12   Population Services International, for Fiscal Year
                                                                                    38        UN
                            Ended December 31, 2010



                            Desk Review of OMB Circular A–133 Audit of
0–000–12–069–T   05/22/12   JSI Research and Training Institute, Inc. for the
                            Fiscal Year Ended September 30, 2011



                            OMB Circular A–133 Audit Report of the
0–000–12–070–T   05/29/12   Partnership for Supply Chain Management for
                            Fiscal Year Ended September 30, 2011




   Semiannual Report to the Congress: April 1–September 30, 2012  97
                            USAID Office of Inspector General


                                                                                 Amt. of
  Report         Date of                                                                    Type of
                                            Report Title                         Findings
  Number         Report                                                                     Findings
                                                                                  ($000)

                            OMB Circular A–133 Audit Report of World
                            Vision International and World Vision, Inc.             17        QC
0–000–12–071–T   06/01/12
                            (USA) for Fiscal Year Ended September 30,               1         UN
                            2011


                            Desk Review of the Joint Development
                            Associates International, Inc. A–133 Audit
0–000–12–073–T   06/08/12
                            Report for the Fiscal Year Ended December 31,
                            2011


                            Desk Review of OMB Circular A–133 Audit
                            Report for Consortium For Elections and
0–000–12–074–T   06/15/12
                            Political Process Strengthening for Fiscal Year
                            Ended September 30, 2010

                            Desk Review of International College OMB
0–000–12–075–T   06/21/12   Circular A–133 Audit Report for Fiscal Year
                            Ended June 30, 2011

                            Desk Review of International Research &
                            Exchange Board, Inc. OMB Circular A–133
0–000–12–076–T   06/19/12
                            Audit Report for Fiscal Year Ended June 30,
                            2010

                            Desk Review of OMB Circular A–133 Audit
0–000–12–077–T   07/09/12   Report for International Medical Corps for the
                            Fiscal Year Ended June 30, 2010

                            Desk Review of OMB Circular A–133 Audit
0–000–12–078–T   07/11/12   Report for Lebanese American University for
                            Fiscal Year Ended September 30, 2010
                            OMB Circular A–133 Audit Report of Plan
0–000–12–079–T   07/18/12   International, Inc. for Fiscal Year Ended June 30,
                            2010
                            OMB Circular A–133 Audit Report of Plan
0–000–12–080–T   07/19/12   International USA, Inc. d/b/a Plan USA for Fiscal
                            Year Ended June 30, 2010
                            OMB Circular A–133 Audit Report of
0–000–12–081–T   08/09/12   Population Services International, for Fiscal Year
                            Ended December 31, 2007
                            OMB Circular A–133 Audit Report of National
0–000–12–082–T   08/15/12   Albanian American Council for Fiscal Year
                            Ended December 31, 2009
                            Catholic Relief Service–US Conference of
                            Catholic Bishops, OMB Circular A–133 Audit              92        QC
0–000–12–083–T   08/21/12
                            Report for Fiscal Year Ended September 30,              92        UN
                            2009


   Semiannual Report to the Congress: April 1–September 30, 2012  98
                            USAID Office of Inspector General


                                                                               Amt. of
  Report         Date of                                                                  Type of
                                           Report Title                        Findings
  Number         Report                                                                   Findings
                                                                                ($000)
                            University Research Corporation International,
0–000–12–085–T   09/06/12   OMB Circular A–133 Audit Report for Fiscal            14        QC
                            Year Ended June 30, 2011
                            Joint Development Associates International, Inc.
0–000–12–086–T   09/05/12   OMB Circular A–133 Audit Report for Fiscal            10        QC
                            Year Ended December 31, 2009
                            The Asia Foundation, OMB Circular A–133
0–000–12–087–T   09/07/12   Audit Report for Fiscal Year Ended                    78        QC
                            September 30, 2011
                            International Foundation for Education and Self
0–000–12–088–T   09/12/12   Help, OMB Circular A–133 Audit Report of the         415        QC
                            for Fiscal Year Ended September 30,2011
                            OMB Circular A–133 Audit Report of World
                            Vision International and World Vision, Inc.          1,279      QC
0–000–12–089–T   09/18/12
                            (U.S.A.) for Fiscal Year Ended September 30,          14        UN
                            2007
                            Winrock International Institute for Agricultural
                            Development, OMB Circular A–133 Audit
0–000–12–090–T   09/17/12                                                         11        QC
                            Report for Fiscal Year Ended December 31,
                            2011
                            Catholic Relief Services – U.S. Conference of
                            Catholic Bishops, OMB Circular A–133 Audit            53        QC
0–000–12–091–T   09/17/12
                            Report for Fiscal Year Ended September 30,            53        UN
                            2011
                            Private Agencies Collaborating Together, Inc.
0–000–12–092–T   09/27/12   (PACT), OMB Circular A–133 Audit Report               14        QC
                            For Fiscal Year Ended September 30, 2008
                            International Foundation for Education and Self
                                                                                  5         QC
0–000–12–093–T   09/28/12   Help, OMB Circular A–133 Audit Report for
                                                                                  5         UN
                            Fiscal Year Ended September 30, 2010
                            Agency Contracted Cost Incurred Forensic
                            Audit of USAID Resources Managed by
                            Engender Health–APHIA II Nyanza Under                2,360      QC
4–615–12–001–O   05/09/12
                            Cooperative Agreement No. 623–A–00–06–               2,314      UN
                            00020–00 for the Period From June 7, 2006, to
                            December 31, 2010
                            Audit of Locally Incurred Costs of USAID
                            Resources Managed by America–Mideast
                            Educational and Training Services, Inc. Under
6–294–12–024–N   04/24/12   Cooperative Agreement Number 294–A–00–
                            05–00234–00, Palestinian Faculty Development
                            Program, for the Period From July 1, 2008, to
                            June 30, 2010




   Semiannual Report to the Congress: April 1–September 30, 2012  99
                            USAID Office of Inspector General


                                                                              Amt. of
  Report         Date of                                                                 Type of
                                           Report Title                       Findings
  Number         Report                                                                  Findings
                                                                               ($000)
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Catholic Relief
                            Services Under Cooperative Agreement
6–294–12–025–N   04/24/12
                            Number 294–A–00–09–00210–00, Youth
                            Voices for Community Action, for the Period
                            From July 17, 2009, to June 30, 2010
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Search for
                            Common Ground Under Cooperative
                            Agreement Number 294–A–00–09–00215–00,
6–294–12–036–N   06/14/12
                            Promoting Common Ground Print and
                            Broadcast News in Israel, the West Bank and
                            Gaza Program, for the Period From
                            September 30, 2009, to June 30, 2010
                            Close–out Audit of Locally Incurred Costs of
                            USAID Resources Managed by Cooperative
                            Housing Foundation International Under
                            Cooperative Agreement Number 294–A–00–
6–294–12–038–N   06/18/12
                            05–00209–00, Palestinian American Recreation
                            and Conservation Services Program, for the
                            Period From May 4, 2007, to December 31,
                            2008
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Cooperative
                            Housing Foundation International Under
6–294–12–039–N   06/17/12   Cooperative Agreement Number 294–A–00–
                            05–00242–00, Local Democratic Reform
                            Program, for the Period From October 1, 2007,
                            to June 30, 2008
                            Audit of USAID Resources Managed by
                            International Foundation for Electoral Systems
                            Through the Consortium for Elections and
                            Political Process Strengthening, Under
                            Cooperative Agreement Number 294–A–00–
6–294–12–041–N   06/27/12                                                        10        QC
                            05–00202–00, Technical Assistance to the
                            Central Elections Commission of the Palestinian
                            Authority and to the Elections Reform Support
                            Group Program, for the Period From July 1,
                            2008, to June 30, 2009
                            Close–out Audit of Locally Incurred Costs of
                            USAID Resources Awarded to International
                            Foundation for Electoral Systems, Under
                            Cooperative Agreement Number 294–A–00–
6–294–12–042–N   07/24/12   05–00202–00, Technical Assistance to the
                            Central Election Commission of the Palestinian
                            Authority and to the Elections Reform Support
                            Group, for the Period From July 1, 2009, to
                            December 31, 2010




  Semiannual Report to the Congress: April 1–September 30, 2012  100
                            USAID Office of Inspector General


                                                                            Amt. of
  Report         Date of                                                               Type of
                                          Report Title                      Findings
  Number         Report                                                                Findings
                                                                             ($000)
                            Close–out Audit of Locally Incurred Costs by
                            World Vision Under Cooperative Agreement
                            Number 294–A–00–02–00226–00, Jobs
6–294–12–047–N   09/24/12   Opportunities Through Development of Small
                            Scale Basic Community Infrastructure, for the
                            Period From July 1, 2007, to December 31,
                            2007
                            Financial Audit of Local Costs Incurred by
                            International Relief and Development, Inc.
                            (IRD) under Strategic Provincial Roads –
F–306–12–006–N   05/12/12   Southern and Eastern Afghanistan (SPR–SEA)
                            Program, Cooperative Agreement No. 306–A–
                            00–08–00509–00, for the Period October 01,
                            2009, to September 30, 2010




  Semiannual Report to the Congress: April 1–September 30, 2012  101
                            USAID Office of Inspector General



                               Performance Audits
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                          USAID
                            April 1–September 30, 2012
                                                                             Amt. of
  Report         Date of                                                                Type of
                                          Report Title                       Findings
  Number         Report                                                                 Findings
                                                                              ($000)
                            Audit of USAID/Haiti’s Watershed Initiative
1–521–12–003–P   04/27/12   for National Natural Environmental
                            Resources Program
                            Audit of USAID/Haiti’s Public Law 480 Title II
1–521–12–004–P   07/20/12
                            Programs
                            Audit of USAID/Colombia’s Access to Justice
1–514–12–005–P   08/14/12
                            Program
                            Audit of USAID/Barbados’ Eastern Caribbean
1–534–12–006–P   08/17/12
                            Community Action Project
                            Follow–Up Audit of USAID/Mexico’s Rule of
1–523–12–007–P   09/07/12
                            Law and Human Rights Program
                            Audit of USAID/Peru’s Environmental
1–527–12–008–P   09/19/12
                            Activities
                            Audit of USAID’s Haiti Recovery Initiative
1–521–12–009–P   09/26/12   Activities Managed by the Office of Transition
                            Initiatives
                            Audit of USAID/Ethiopia’s PEPFAR–Funded
4–663–12–007–P   04/23/12   Activities for Prevention of Transmission of
                            HIV
                            Audit of USAIDs Office of Foreign Disaster
4–613–12–008–P   05/10/12
                            Assistance Activities in Zimbabwe
                            Audit of USAID/South Sudan’s Programs              1,576      QC
4–668–12–009–P   05/25/12
                            Implemented by Mercy Corps                          202       UN
                            Follow–Up Audit of USAID/South Sudan’s
4–668–12–010–P   06/13/12
                            Road Infrastructure Activities
                            Audit of Commodities Funded Under the
4–615–12–011–P   06/28/12                                                      293        QC
                            President’s Malaria Initiative in Kenya
                            Audit of USAID/Mozambique’s Tuberculosis
4–656–12–012–P   08/07/12
                            Activities
                            Audit of USAID/Philippines’ Microenterprise
5–492–12–005–P   05/24/12   Access to Banking Services Program, Phase
                            Four
                            Audit of USAID/Sri Lanka’s Supporting
5–383–12–006–P   07/16/12
                            Regional Governance Program
                            Audit of USAID/Lebanon’s University Student         2         QC
6–268–12–006–P   04/30/12
                            Assistance Program I                                2         UN
                            Audit of USAID’s Food for Peace Activities in
7–682–12–005–P   04/11/12                                                       36        QC
                            Mauritania


  Semiannual Report to the Congress: April 1–September 30, 2012  102
                            USAID Office of Inspector General


                                                                           Amt. of
  Report         Date of                                                              Type of
                                          Report Title                     Findings
  Number         Report                                                               Findings
                                                                            ($000)
                            Audit of USAID/Ghana’s Efforts to Integrate
7–641–12–006–P   05/04/12
                            Gender Into HIV/AIDS Activities

                            Audit of USAID/Senegal’s Activities Under
7–685–12–007–P   08/07/12
                            the President’s Malaria Initiative

                            Audit of USAID/Kosovo’s Activities for
9–000–12–004–P   08/21/12
                            Economic Growth

                            Audit of USAID’s Small Business Utilization
9–000–12–005–P   09/27/12
                            Practices

                            Audit of USAID’s Contracts for Cloud
A–000–12–004–P   04/12/12
                            Computing Services

                            Audit of USAID/Iraq’s Performance
E–267–12–004–P   07/30/12   Evaluation and Reporting for Results
                            Management Program
                            Audit of USAID/Afghanistan’s Internal
F–306–12–003–P   06/25/12   Controls in the Administration of the             4         QC
                            Involuntary Separate Maintenance Allowance
                            Audit of USAID/Afghanistan’s Incentives
F–306–12–004–P   06/29/12   Driving Economic Alternatives for the North,
                            East, and West Program
                            Audit of USAID/Pakistan’s Entrepreneurs
G–391–12–005–P   04/20/12
                            Project
                            Audit of USAID/Pakistan’s Support to the
G–391–12–006–P   05/21/12
                            Benazir Income Support Program
                            Audit of USAID/Pakistan’s Reconstruction         118        QC
G–391–12–007–P   08/16/12
                            Program in Earthquake–Affected Areas             118        UN
                            Audit of USAID/Pakistan’s Gomal Zam
G–391–12–008–P   08/24/12
                            Multipurpose Dam Project
                            Audit of USAID/Pakistan’s Assessment and
G–391–12–009–P   09/30/12
                            Strengthening Program




  Semiannual Report to the Congress: April 1–September 30, 2012  103
                            USAID Office of Inspector General



                                 Miscellaneous Reports
        Associated Questioned Costs, Unsupported Costs, and
     Value of Recommendations That Funds Be Put to Better Use
                                          USAID
                            April1–September 30, 2012
                                                                         Amt. of
  Report         Date of                                                            Type of
                                        Report Title                     Findings
  Number         Report                                                             Findings
                                                                          ($000)
                                    Quality Control Reviews
                            Quality Control Review of RAFFA, Inc. for
                            OMB Circular A–133 Audit Report of
0–000–12–001–Q   04/03/12
                            International Relief and Development, Inc.
                            for Fiscal Year Ended December 31, 2010
                            Quality Control Review of KPMG, LLP for
                            the A–133 Audit of The GAVI Campaign
0–000–12–002–Q   05/17/12
                            FKA the GAVI Fund for the Fiscal Year
                            Ended December 31, 2010
                            Quality Control Review of BDO San
                            Salvador, El Salvador, Regarding Audit of
                            the Fund Accountability Statement of the
                            Project "Strengthening Health Care and
                            Basic Education," Cooperative Agreement
1–519–12–001–Q   09/20/12   No. 519–A–00–06–00033–00 Between
                            the United States Agency for International
                            Development (USAID), Mission in El
                            Salvador, and Fundación Empresarial Para
                            el Desarrollo Educativo (FEPADE), for the
                            Year Ended December 31, 2010
                            Quality Control Review of KPMG Rabat,
                            Morocco Regarding the Audit of USAID
                            Resources Managed by the Morocco
                            Ministry of Agriculture Under the
7–608–12–001–Q   07/10/12   Surveillance Equipment Funded Under
                            Limited Scope Morocco Locust
                            Abatement Program (LGSA No. 608–
                            0236) for the Period From April 28, 2005,
                            to September 30, 2011




  Semiannual Report to the Congress: April 1–September 30, 2012  104
                            USAID Office of Inspector General


                                                                        Amt. of
  Report         Date of                                                           Type of
                                        Report Title                    Findings
  Number         Report                                                            Findings
                                                                         ($000)
                            Quality Control Review of the Audit
                            Report and Audit Documentation for the
                            Financial Audit Conducted by Avais Hyder
                            Liaqut Nauman of Program Titled "Anti–
                            Corruption Program Pakistan,"
                            USAID/Pakistan Cooperative Agreement
G–391–12–002–Q   04/03/12
                            No. 391–A–00–09–01117–00, and
                            Program Titled "Anti–Fraud Hotline,"
                            USAID/Pakistan Cooperative Agreement
                            No. 391–A–00–10–01194–00, Managed by
                            Transparency International Pakistan, for
                            the Year Ended June 30, 2011
                            Quality Control Review of the Audit
                            Report and Audit Documentation for the
                            Financial Audit Conducted by Ernst &
                            Young Ford Rhodes Sidat Hyder of
                            Program Titled "Gender Equity Program,"
G–391–12–003–Q   06/12/12
                            USAID/Pakistan Cooperative Agreement
                            No. 391–A–00–10–01162–00, Managed by
                            Aurat Publication and Information Service
                            Foundation, for the Period From August
                            15, 2010, to June 30, 2011
                                             Other

                            Review of Selected USAID/Caucasus’s
2–114–12–005–S   04/20/12
                            School Rehabilitation Activities

                            Review of USAID/Caucasus’s Public
2–114–12–006–S   08/29/12
                            Hospital Infrastructure Project
                            Review of USAID/Regional Development
5–493–12–001–S   07/12/12   Mission for Asia’s Coral Triangle Support
                            Partnership
                            Review of USAID Cooperative
9–000–12–001–S   05/10/12
                            Development Programs
                            Survey of USAID’s Efforts to Address Its
9–000–12–002–S   09/18/12
                            Backlog of Expired Awards
                            Review of USAID/Afghanistan’s
F–306–12–002–S   09/26/12
                            Monitoring and Evaluation System
                            Review of USAID/Pakistan’s Cost
G–391–12–001–S   06/18/12                                                 3,053      BU
                            Estimates for Shipping and Storage




   Semiannual Report to the Congress: April 1–September 30, 2012  105
                                          USAID Office of Inspector General



                        Reports With Questioned and Unsupported Costs
                                                              USAID
                                          April1–September 30, 2012

                                                                          Questioned                    Unsupported
                                          Number of
            Reports                                                         Costs                          Costs1
                                         Audit Reports
                                                                             ($)                            ($)

A. For which no management
   decision had been made as of                    79                       83,947,9932,3                  60,516,1022,3
   April 1, 2012
B. Add: Reports issued April 1–
                                                  108                       31,751,3504                     14,808,8864
   September 30, 2012

Subtotal                                         187                      115,699,343                     75,324,988
C. Less: Reports with a
   management decision made                      1115                       97,434,6036                     63,148,8196
   April 1–September 30, 2012

    Value of costs disallowed by
                                                                             56,810,102                     54,235,534
    Agency officials

    Value of costs allowed by
                                                                             40,588,486                      8,913,285
    Agency officials

D. For which no management
   decision had been made as of                    77                       18,300,7557                     12,176,1697
   September 30, 2012
1Unsupported   costs, a subcategory of questioned costs, are reported separately as required by the Inspector General Act.
2The ending balances on March 31, 2012, for questioned costs totaling $100,280,530 and for unsupported costs totaling
$77,645,110 were decreased by $16,332,537 and $17,129,008 respectively, to reflect adjustments in recommendations from
prior periods.
 3Amounts  include $53,245,170 in questioned costs and $50,540,399 in unsupported costs for audits performed for OIG by
 other federal audit agencies.
 4Amounts   include $2,583,235 in questioned costs and $1,252,051 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 5Unlikethe monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports counted here
 may be counted again in the figure below it because some reports have multiple recommendations and fall into both categories.
 6Amounts  include $53,245,170 in questioned costs and $50,540,399 in unsupported costs for audits performed for OIG by
 other federal audit agencies.
 7Amounts   reflect $2,583,235 in questioned costs and $1,252,051 in unsupported costs for audits performed for OIG by other
 federal audit agencies.




       Semiannual Report to the Congress: April 1–September 30, 2012  106
                                      USAID Office of Inspector General



                              Reports With Recommendations
                              That Funds Be Put to Better Use
                                                    USAID
                                     April 1–September 30, 2012
                                                                    Number of        Value
                               Reports
                                                                   Audit Reports      ($)

A. For which no management decision had been made as of April 1,
                                                                          0           0
   2012


B.    Add: Reports issued April 1–September 30, 2012                      1        3,053,259


     Subtotal                                                             1        3,053,259


C. Less: Reports with a management decision made April 1–
                                                                          1        3,053,259
   September 30, 2012


             Value of costs agreed to by Agency officials                          3,053,259


             Value of recommendations not agreed to by Agency
                                                                                      0
             officials


D. For which no management decision had been made as of
                                                                          0           0
   September 30, 2012




       Semiannual Report to the Congress: April 1–September 30, 2012  107
                               USAID Office of Inspector General



       Reports Over 6 Months Old With No Management Decision
                                           USAID
                               April 1–September 30, 2012

  Report                       Issue
                    Auditee                                          Status
  Number                       Date
                                          Recommendation 5. We recommend that
                                          USAID/Pakistan determine the allowability of
                                          $1,359,337 in questioned costs (unsupported) and
                                          recover those costs determined to be unallowable.

                                          To help improve Pakistan’s economic stability, USAID/Pakistan
                                          awarded a 4–year, $89.8 million contract to Chemonics
                                          International to implement the Firms Project. The project’s
                                          goal is to develop and improve the productivity and
                                          competitiveness of Pakistani small to medium–size firms by
G–391–12–001–P                            increasing exports and employment. However, material
Audit of USAID/                           weaknesses in the contractor’s procurement practices existed
                    Pakistan   11/03/11
 Pakistan’s Firms                         but were not detected because the contracting officer’s
     Project                              technical representative did not provide sufficient monitoring
                                          and oversight. OIG found that 40 of the 43 purchase orders
                                          sampled did not meet standard voucher reconciliation
                                          procedures. Purchase orders lacked (1) receiving reports
                                          confirming the exact quantity and quality of goods and services
                                          accepted, (2) required procurement plans, and (3) written
                                          specifications for the specific goods and services procured. In
                                          addition, procurement records did not document procurement
                                          solicitation bids. A management decision is being deferred until
                                          further review.




   Semiannual Report to the Congress: April 1–September 30, 2012  108
                              USAID Office of Inspector General




          Significant Revisions of Management Decisions
                                         USAID
                            April1–September 30, 2012



 Section 5(a) (11) of the Inspector General Act requires a description and explanation of
 the reasons for any significant revised management decision during the reporting period.

 During this reporting period, USAID did not make any significant revisions of
 management decisions.




       Management Decisions With Which the Inspector
                   General Disagrees
                                         USAID
                           April 1–September 30, 2012




Section 5 (a) (12) of the Inspector General Act of 1978, as amended, requires semiannual
reports to include information concerning any significant management decisions with
which the inspector general disagrees.

During this reporting period, the Inspector General agreed with all management decisions.




Semiannual Report to the Congress: April 1–September 30, 2012  109
                              USAID Office of Inspector General



   Noncompliance With the Federal Financial Management
                Improvement Act of 1996
                                         USAID
                           April 1–September 30, 2012



Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
update on issues outstanding under a remediation plan required by the Federal Financial
Management Improvement Act of 1996 (FFMIA), (Public Law 104–208, Title VIII, codified
at 31 U.S.C. 3512 note). FFMIA requires agencies to comply substantially with (1) federal
financial management system requirements, (2) federal accounting standards, and (3) the
U.S. Standard General Ledger at the transaction level. An agency that is not substantially
compliant with FFMIA must prepare a remediation plan.

USAID had no issues outstanding under a remediation plan required by FFMIA.




   Semiannual Report to the Congress: April 1–September 30, 2012  110
                                          USAID Office of Inspector General



                                     Significant Findings From
                                       Contract Audit Reports
                                                   USAID
                                      April 1–September 30, 2012



          The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181, Section
          845) requires inspectors general to submit information on contract audit reports31 that
          contain significant audit findings in semiannual reports to the Congress.

          The act defines “significant audit findings” to include unsupported, questioned, or
          disallowed costs in excess of $10 million and other findings that the inspector general
          determines to be significant.

          During the reporting period, OIG had no significant findings from contract audit reports
          for USAID.




31
     Includes grants and cooperative agreements.


              Semiannual Report to the Congress: April 1–September 30, 2012  111
                                       USAID Office of Inspector General


                              Significant Findings and Activities

                             Millennium Challenge Corporation



           Economic Growth                                personnel, far fewer than the 257 that are
                                                          recommended. Although there are different
Review of MCC–Funded Project Activities
                                                          estimates regarding the number of security
in Benin (Report No. M–000–12–005–S).
                                                          personnel needed, the current number is
On February 22, 2006, MCC signed a 5–year,
                                                          insufficient, and significant training is needed.
$307 million compact with the Republic of
                                                          There have also been five general managers at the
Benin. The compact’s goals were to improve core
                                                          port since the compact. This continual turnover
physical and institutional infrastructure and
                                                          has hindered port operations.
increase private sector activity and investment.
Most funds were allocated to the Access to                OIG made three recommendations. Management
Markets Project, a project that involved                  decisions were made on all three
rehabilitating and expanding the port of                  recommendations, and final action has been
Cotonou as well as related designs and reform             taken on one.
efforts. This project consumed $189 million
                                                          Audit of the Millennium Challenge
(62 percent) of the total $307 million.
                                                          Corporation–Funded Fruit Tree
Operational since 1965, the Port of Cotonou is a          Productivity Project in Morocco (Report
transit point for the neighboring landlocked              No. M–000–12–005–P). MCC signed a 5–
countries of Burkina Faso, Chad, and Niger. It is         year, $697.5 million compact with the
also a port relay for Nigeria. Thus, the port’s           Government of the Kingdom of Morocco in
sustainability and security are important and have        August 2007. The compact was intended to
regional significance for commerce and                    stimulate economic growth through investments
development in West Africa. However, OIG                  in five projects. At nearly $329 million, the
found several issues that MCC must address                largest initiative is the Fruit Tree Productivity
before it develops a proposal for a second                Project, which focuses on rehabilitating and
compact.                                                  expanding olive, almond, and fig tree orchards in
                                                          rain–fed areas and improving the irrigation of
The Port of Cotonou’s security needs
                                                          olive and date trees.
improvement. The port’s harbor master
estimated that he currently has about 90 security


           Semiannual Report to the Congress: April 1–September 30, 2012  112
                                        USAID Office of Inspector General


OIG found that the rain–fed rehabilitation and             contractor’s self–reporting and does not have
expansion activity within the project was not              procedures in place for documenting its review of
achieving its compact goals. In particular, because        the contractor’s performance to confirm that
of a budget shortfall, MCC and Millennium                  training has taken place and that payment is
Challenge Account–Morocco (MCA–M) officials                justified. For instance, farmers are considered
reduced the number of new olive trees to be                trained if they have attended all 4 days of a
planted by nearly 50 percent. OIG also found               training offered; however, many attend fewer
that the sustainability of certain trees was at risk.      than four sessions. Consequently, MCA–M
According to MCC and MCA–M officials, the                  reviews attendance records for the four modules
contractors for the rain–fed expansion activity            and reports the highest attendance figure as
were required to plant new trees, return three             opposed to tracking only those who sign in all
times to monitor and maintain them, and ensure             4 days. Moreover, although training is for
that all of the trees remain viable through the            participants between the ages of 15 and 40, OIG
end of the contracts. However, because of                  determined that those under the age of 15 were
planting delays, some of the contractors will not          being trained as well.
have time within the scope of their 2–year
                                                           OIG made six recommendations to address the
contracts to conduct the maintenance visits as
                                                           concerns noted in the audit. Management
intended. In addition, once the contractors have
                                                           decisions were made on all six.
completed their work, the farmers will be
responsible for maintaining the trees.                                Good Governance
Contractors, government officials, and farmers             Review of MCC and Implementing
expressed concern that there may be limited                Partner’s Management Controls, and
resources—such as fertilizer, pesticides, and              Compliance With Laws and Regulations
occasional irrigation—for the trees until they             Related to Drug–Trafficking and Criminal
reach maturity. If the trees are not properly              Activities (Report No. M–000–12–004–S).
maintained and do not survive, the success of the          In November 2006, MCC signed a 5–year,
project will be at risk.                                   $461 million compact with the Government of
                                                           El Salvador to improve the lives of people in the
MCA–M hired a contractor to provide training
                                                           northern part of the country through investments
to more than 30,000 farmers and youth to help
                                                           in education, public services, agricultural
them learn techniques that will increase orchard
                                                           production, rural business development, and
production and ultimately increase the farmers’
                                                           transportation infrastructure. Fondo Del Milenio
incomes. MCA–M relies heavily on the
                                                           (FOMILENIO) was designated by the


           Semiannual Report to the Congress: April 1–September 30, 2012  113
                                          USAID Office of Inspector General


Government of El Salvador to implement the                   regulations while mitigating the risk that the
compact, which focused on three areas:                       funds were used in illegal activities and whether
(1) productive development (i.e., developing                 FOMILENIO had properly addressed allegations
profitable, sustainable, and productive business             that a beneficiary had ties to drug trafficking.
ventures), (2) human development (facilitating               They also requested that OIG review whether the
residents’ ability to take advantage of                      FOMILENIO’s management controls provided
employment and business opportunities), and                  reasonable assurance that the organization and
(3) connectivity to reduce travel costs and time in          recipients were using the funds as intended.
the northern zone.
                                                             The review found that implementers needed to
Part of the Productive Development Project was               strengthen their internal controls to better
to provide $7 million in loans and investment                mitigate the risk that loan recipients could use
support activities to impoverished people in                 MCC funds for illegal activities. Furthermore,
northern El Salvador and organizations that                  BANDESAL did not investigate irregular and
benefited them. Through the loans and                        questionable transactions by two loan recipients
investment support activities, the project                   with ties to an alleged drug trafficker. Until these
intended to reduce poverty by creating profitable,           matters are addressed, the loan program’s
sustainable businesses that then create jobs and             management controls cannot provide reasonable
significantly raise incomes. The Government of               assurance that MCC funds are being used as
El Salvador implemented the investment support               intended.
program through a trust fund managed by Banco
                                                             OIG made five recommendations to help ensure
de Desarrollo de El Salvador (BANDESAL,
                                                             that FOMILENIO and BANDESAL comply with
formerly known as Banco Multisectorial de
                                                             U.S. laws, regulations, and the compact’s
Inversiones, or BMI), the country’s national
                                                             requirements; management decisions were
development bank, which coordinated activities
                                                             reached on all of them.
with FOMILENIO.

In May 2011, an article in the newspaper El Faro                Management Accountability
claimed that a loan recipient had links to an
                                                             Audit of the Millennium Challenge
alleged drug trafficker who operated in the
                                                             Corporation’s Implementation of
northern and western regions of El Salvador.
                                                             Selected Security Controls for Its E–
Consequently, MCC asked OIG to conduct a
                                                             Travel System (Report No. M–000–12–
review of the case to determine whether
                                                             004–P). MCC uses E2 Solutions as its travel
implementers had complied with U.S. laws and


           Semiannual Report to the Congress: April 1–September 30, 2012  114
                                       USAID Office of Inspector General


management application. OIG initiated this audit          results. OIG found that MCC significantly
to determine whether MCC implemented                      modified project activities under 9 of its 23
selected security controls to mitigate the risks of       compacts. Consequently, those compacts did not
unauthorized access, modification, and                    or will not achieve planned results. In each
destruction of information in its e–travel system.        instance, the significant modifications occurred
OIG determined that MCC did not have the                  because of incomplete planning or
proper security controls in place.                        implementation challenges.

MCC made management decisions on all nine                 Under 6 of 23 compacts, the compact country
recommendations.                                          committed additional funding to make up for
                                                          budget shortfalls. Without this funding, MCC
        Financial Management                              would not be able to achieve its planned results
                                                          in El Salvador, Ghana, Lesotho, Mali, Morocco,
Review of the Millennium Challenge
                                                          or Tanzania. Although OIG did not determine
Corporation’s Compact Modifications
                                                          whether MCC’s actions were appropriate, MCC’s
(Report No. M–000–12–006–S). Since 2004,
                                                          position is that each significant modification
MCC has provided foreign assistance to
                                                          represented responsible stewardship and prudent
developing countries meeting criteria for good
                                                          management given the circumstances.
governance and economic freedom. MCC signs a
compact with each country it assists, building on         In March 2011 and January 2012, respectively,
the country’s own national development strategy           MCC issued revised policy and guidance
and documenting the objectives that the country           documents. The first, Policy on the Approval of
and the United States expect to achieve during            Modifications to MCC Compact Programs, contains
the compact. As of September 30, 2011, MCC                procedures for evaluating and approving contract
had awarded $8.2 billion in assistance to                 modifications. The second, Compact Development
23 countries through compacts.                            Guidance, incorporates lessons that MCC and
                                                          compact countries have learned about how to
Past audits have noted instances in which MCC
                                                          strengthen the compact development process
significantly modified its compacts during
                                                          (e.g., by incorporating implementation planning,
implementation. Therefore, OIG conducted this
                                                          integrating economic analysis, and planning for
review to determine how many compacts signed
                                                          measuring results earlier in the compact
between MCC’s inception and September 30,
                                                          development process).
2011, were significantly modified and what
effects those modifications had on compact



           Semiannual Report to the Congress: April 1–September 30, 2012  115
                                      USAID Office of Inspector General


The above policy changes should help MCC                 OIG noted two examples in which payment was
complete the projects outlined in its compacts           withheld until contract requirements were met
and limit the number of significant                      and appropriate analyses were conducted.
modifications. Therefore, this report does not           Further, OIG found that the CORs and PMs
contain any recommendations to address                   reviewed had taken training as required. The
compact planning and implementation                      designation letter states that the COR must have
challenges.                                              a minimum of 40 hours of training and must
                                                         maintain necessary skills through continuous
Audit of the Millennium Challenge
                                                         learning. PMs are required to complete 17 hours
Corporation’s Contract Management
                                                         of training. Contract Grants Management
Process (Report No. M–000–12–006–P).
                                                         (CGM) tracks the training completed by CORs
OIG conducted this audit of MCC’s contract
                                                         and PMs.
management process to ensure that quality
deliverables were provided by its contractors.           OIG found a few areas for improvement, such as
OIG found several successes in the process that          CGM’s management of hardcopy contract files
MCC had put in place. For example, qualified             (i.e., ensuring that documents are available to
CORs and project monitors (PMs) were selected            provide a complete history of transactions) and
for the positions and were appointed to specific         the need to ensure that all CORs are properly
contracts because of their related education and         monitoring contracts and not overrelying on
work experience. Because of their specialized            PMs. OIG made three recommendations for
experience, they were able to determine whether          improving MCC’s contracting processes.
contractors had provided quality products or             Management decisions and final actions were
services. In one instance, MCC procured                  taken on all three.
independent engineering services for the energy
project in Tanzania and assigned a PM who was                  Fund Accountability Statements
an electrical engineer and an economist who had
                                                         OIG reviews and issues fund accountability
worked in the country on infrastructure projects.
                                                         statement audits of compact funds under

In addition, MCC formally delegated authority            recipient government management. These fund

for contract oversight, which identified specific        accountability statement audits are conducted by

responsibilities of CORs and PMs. The                    independent public auditors. Under the terms of

delegations provided them, for example, the              MCC compacts, funds expended by a recipient

authority to withhold payment from a contractor          country must be audited at least annually but are

until an acceptable deliverable was produced.            usually audited twice a year. The recipient


           Semiannual Report to the Congress: April 1–September 30, 2012  116
                                        USAID Office of Inspector General


establishes an agency, usually an MCA, that                assistance to the Government of the Republic of
produces financial statements documenting                  Benin to improve access to land, to improve
account activity. The audit of a fund                      financial markets, and to achieve justice for its
accountability statement is conducted by a firm            citizens.
that OIG has approved.
                                                           The auditors reported that the fund
The selected audit firm issues an opinion on               accountability statement presented fairly, in all
whether the financial statements present fairly, in        material respects, program revenue and
all material respects, the program revenues and            expenditures for the period audited. In addition,
costs incurred and reimbursed, in conformity               no internal control, compliance, or cost–sharing
with the terms of a compact agreement and                  issues were reported.
related supplemental agreements for the period
                                                           El Salvador (Report No. M–000–12–016–
being audited.
                                                           N). The MCA–El Salvador (FOMILENIO) audit
In addition, the audit firm is required to employ          covered incurred costs in the amount of
generally accepted government auditing standards           $118.8 million for the period January 1 to
in performing the audits. All audit reports are            December 31, 2010. The 5–year compact for
reviewed, approved, and issued by OIG.                     approximately $461 million supports three
                                                           project–level objectives: (1) human development,
During this reporting period, OIG issued
                                                           (2) productive development, and (3) connectivity.
13 recommendations for the 12 fund
accountability statement audits conducted.                 The independent auditors found that (1) the
                                                           fund accountability statement presented fairly, in
Benin (Report No. M–000–12–017–N).
                                                           all material respects, the cash receipts and costs
The independent audit of MCA–Benin covered
                                                           incurred and disbursements, (2) there were no
incurred costs totaling approximately
                                                           instances of significant deficiencies in internal
$77.1 million for the period July 1, 2011, to
                                                           control matters, and (3) there were no material
January 10, 2012. The purpose of the
                                                           instances of noncompliance.
$307 million compact was to provide technical




          Semiannual Report to the Congress: April 1–September 30, 2012  117
                                      USAID Office of Inspector General


Ghana (Three Audits)                                     members in support of the association’s

(Report No. M–000–12–024–N). This                        pineapple export business. As of June 30, 2011,

independent audit covered MCA–Ghana’s                    $2.1 million had been disbursed.

incurred costs in the amount of $93.5 million for        The independent auditor reported that the fund
the period of January 1 to June 30, 2011. The 5–         accountability statement presented fairly, in all
year compact grant agreement with the                    material respects, program revenues and
Government of Ghana for approximately                    expenditures for the period audited.
$547 million was intended to provide technical
assistance to develop agribusiness and strengthen        However, the independent auditors reported a

rural services.                                          material weakness of questioned costs involving
                                                         significant loan balances in the amount of
The auditors reported that the fund                      $1.9 million that were uncollected at the time of
accountability statement presented fairly, in all        the audit period.
material respects, the program revenues and costs
for the period audited, except for questioned            (Report M–000–12–026–N). This

costs of (1) $149,179 for employee advances not          independent audit of MCA–Ghana covered

cleared promptly and (2) $100,756 of ARB Apex            incurred costs of $454 million by the Alliance for

Bank salary costs paid in excess of the authorized       Green Revolution for Africa (AGRA) for the

budget amount.                                           period January 1 to June 30, 2011. MCA–Ghana
                                                         signed a grant agreement with AGRA to improve
The auditors identified one instance of a material       and sustain incomes derived from agricultural
weakness in internal controls and several                activities by working with financial institutions
instances of noncompliance. However, because             and investors to make low–interest loans
the compact ended in February 2012, OIG did              available to key operators in the agricultural value
not make audit recommendations for these                 chain. The parties established an Agricultural
internal control and compliance findings.                Scheme Agreement with Stanbic Bank Ghana

(Report M–000–12–025–N). This                            Limited, which requires the Millennium

independent audit of MCA–Ghana covered                   Development Authority and AGRA to provide a

funds for the period of January 1 to June 30,            first loan loss guarantee in the amount of

2011. The purpose of the $5.4 million grant              $2.5 million for the bank to lend $25 million in

agreement with Sea–Freight Pineapple Exporters           furtherance of the grant project.

of Ghana (SPEG) is to enable SPEG to finance             The independent auditor reported that the fund
the purchase of postharvest equipment by its             accountability statement presented fairly, in all


           Semiannual Report to the Congress: April 1–September 30, 2012  118
                                       USAID Office of Inspector General


material respects, program revenues and                   material respects, program revenues and costs
expenditures for the period audited.                      incurred for the audited period.

Lesotho (Report No. M–000–12–023–N).                      Moldova (Report No. M–000–12–027–N).
The independent audit of MCA–Lesotho covered              The independent audit of MCA–Moldova
incurred costs totaling $31.0 million during the          covered incurred costs totaling approximately
period January 1 to June 30, 2011. In July 2007,          $11.3 million for the period from October 1,
MCC signed a 5–year, $362.6 million compact               2009, to December 31, 2011. The 5–year,
with the Kingdom of Lesotho to reduce poverty             $262 million compact with the Government of
through economic growth.                                  Moldova provides for the improvement of
                                                          agricultural productivity and access to markets
The auditors reported that, except for ineligible
                                                          and services through critical investments in
questioned costs of $119,120, the fund
                                                          irrigation infrastructure and roads. It also
accountability statement presented fairly, in all
                                                          provides for building capacity in the high–value
material respects, program revenues and costs
                                                          agriculture sector.
incurred for the period audited. The $119,120 in
ineligible costs pertained to (1) a deficiency in an      The auditors reported that the fund
evaluation panel, (2) a deficiency in price               accountability statement presented fairly, in all
reasonableness procedures, and (3) a deficiency in        material respects, program revenues and
contract award procedures. The ineligible costs           expenditures for the period audited. There were
also resulted in multiple significant deficiencies        no matters involving internal control that were
in the internal control structure. In addition, the       considered to be significant deficiencies or
contract award procedure deficiency represented           material weaknesses and no instances of
a material instance of noncompliance.                     noncompliance that were required to be
                                                          reported.
Mali (Report No. M–000–12–019–N). The
independent audit of Mali covered incurred costs          Morocco (Report No. M–000–12–020–N).
of $160.2 million for the period January 1 to             The MCA–Morocco audit covered incurred costs
December 31, 2011. The purpose of the                     of $73.6 million for the period January 1 to
$460.8 million compact is to contribute to the            June 30, 2011. The $697.5 million compact aims
reduction of poverty.                                     to reduce poverty and stimulate economic growth
                                                          through investments in fruit tree productivity,
The auditors reported that the fund
                                                          small–scale fisheries, and artisanal crafts.
accountability statement presented fairly, in all




           Semiannual Report to the Congress: April 1–September 30, 2012  119
                                       USAID Office of Inspector General


The auditors concluded that MCA–Morocco’s                 and resulted in noncompliance with Namibia’s
fund accountability statement presented fairly, in        Income Tax Act.
all material respects, program revenues, costs
                                                          Nicaragua (Two Audits)
incurred and reimbursed, and commodities and
technical assistance procured directly by MCC             (Report No. M–000–12–021–N). The MCA–
for the period audited.                                   Nicaragua audit covered costs of $10.2 million
                                                          for the period July 1, 2010, to May 26, 2011. The
The independent auditors reported the following
                                                          $113.5 million compact funds are intended to
significant deficiencies involving internal
                                                          advance Nicaragua’s progress toward economic
controls: (1) an unreconciled bank statement,
                                                          growth and poverty reduction, particularly by
(2) an eligibility verification system not being
                                                          increasing income and reducing poverty in Leon–
used, (3) an original technical proposal that was
                                                          Chinandega.
not signed, and (4) no explanation
communicated to bidders who were refused                  Auditors reported that except for questioned
work.                                                     costs of $7,516, the fund accountability
                                                          statement presented fairly, in all material
Namibia (Report No. M–000–12–018–N).
                                                          respects, program revenues, costs incurred and
The independent audit of MCA–Namibia
                                                          reimbursed, and commodities and technical
covered incurred costs totaling $17.9 million for
                                                          assistance procured directly by MCC for the
the period January 1 to June 30, 2011. The
                                                          period audited.
5–year, $304.5 million compact with the
Government of the Republic of Namibia was                 (Report No. M–000–12–022–N).The MCA–
intended to increase the competence of the                Nicaragua audit covered incurred costs of more
Namibian workforce and increase the                       than $1.7 million for the period May 27, 2011, to
productivity of agricultural and nonagricultural          September 23, 2011. The $113.5 million
enterprises in the rural areas.                           compact funds are to advance Nicaragua’s
                                                          progress towards economic growth and poverty
The auditors concluded that MCA–Namibia’s
                                                          reduction, particularly by increasing income and
fund accountability statement presented fairly, in
                                                          reducing poverty in Leon–Chinandega.
all material respects, program revenues and costs
incurred. The auditors noted that three                   The independent auditors reported instances of
employees’ basic salaries were reduced in order to        material weakness in the internal control
accommodate for housing allowances and car                structure and noncompliance with compact
allowances. This is considered a salary reduction         requirements. Except for unsupported



           Semiannual Report to the Congress: April 1–September 30, 2012  120
                                         USAID Office of Inspector General


questioned costs of $31,123, the fund                       other guidelines. However, the OIG made several
accountability statement presented fairly, in all           recommendations to improve the presentation
material respects, funds received from MCC, and             and disclosure of the fund accountability
program costs incurred and reimbursed.                      statement and the associated explanatory notes.

The internal control weakness concerned the lack            Quality Control Review—Namibia
of supporting documentation for some                        (Report No. M–000–12–001–Q). During this
disbursements. The auditors identified two                  reporting period, OIG conducted a quality
material instances of noncompliance relating to             control review of work performed by the firm
(1) three rehabilitated road sections not formally          that conducted semiannual audits of compact
delivered to Ministry of Transportation and                 funds in Namibia. OIG found that the audit
Infrastructure (MTI), and (2) not following                 work was adequately planned and that the
procedures for the disposal of assets.                      working papers supported the audit report
                                                            conclusions in accordance with generally
Quality Control Review—Morocco
                                                            accepted government auditing standards and
(Report No. M–000–12–002–Q). During this
                                                            other guidelines. However, the OIG made several
reporting period, OIG conducted a quality
                                                            recommendations to improve the presentation
control review of work performed by the firm
                                                            and disclosure of the fund accountability
that conducted semiannual audits of compact
                                                            statement and the associated explanatory notes.
funds in Morocco. OIG found that the audit
work was adequately planned and that the
working papers supported the audit report
conclusions in accordance with generally
accepted government auditing standards and




           Semiannual Report to the Congress: April 1–September 30, 2012  121
                               USAID Office of Inspector General



           Significant Recommendations Described Previously
                                 Without Final Action
                                                MCC
                               April 1–September 30, 2012

                                                                  Management   Final Action
  Report                                         Issue     Rec.
                   Subject of Report                               Decision       Target
  Number                                         Date      No.
                                                                     Date          Date
                 Audit of the Millennium
                 Challenge Corporation’s
                                                             9      03/30/11     12/31/12
                 Financial Statements for the
M–000–11–002–C                                              10      03/30/11     12/31/12
                 Period Ending                  03/30/11
                                                            11      03/30/11     12/31/12
                 September 30, 2010, and                    18      03/30/11     12/31/12
                 2009

                 The Office of Inspector
                 General’s Final Report on
                 the Review of Millennium
                                                            1       05/31/11     11/30/12
M–000–11–003–S   Challenge Corporation–
                                                05/31/11    2       05/31/11     11/30/12
                 Funded Contracts with                      3       05/31/11     11/30/12
                 Government–Owned
                 Enterprises in Ghana

                 The Risk Assessment of the
                 Millennium Challenge                       1       09/01/11     10/31/12
                                                            2       09/01/11     10/31/12
                 Corporation’s Information
M–000–11–001–O                                              3       09/01/11     12/31/12
                 Technology Governance          06/01/11
                                                            4       09/01/11     12/31/12
                 Over Its Information                       5       09/01/11     12/31/12
                 Technology Investments                     6       09/01/11     12/31/12




      Semiannual Report to the Congress: April 1–September 30, 2012  122
                              USAID Office of Inspector General


                                                              Management     Final Action
  Report                                     Issue     Rec.
                  Subject of Report                            Decision         Target
  Number                                     Date      No.
                                                                 Date            Date
                 Review of the Millennium
                 Challenge Corporation’s
M–000–11–002–S
                 compact with the           06/03/11     3        09/21/11     12/31/12
                 Government of Mali

                 Limited Scope Review of
                 the Millennium Challenge
                 Corporation (MCC)
                 Resources Managed by the
M–000–11–011–S   Millennium Development     09/21/11    10        09/21/11     12/31/12
                 Authority (MiDA), Under
                 the Compact Agreement
                 Between the MCC and the
                 Government of Ghana

                 Audit of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 by Millennium Challenge
                 Georgia Fund–Georgia
M–000–11–026–N   (MCG), Under the
                                            09/27/11     1        03/28/12     03/28/13
                 Compact Agreement
                 Between the MCC and the
                 Government of Georgia
                 from July 1, 2010, to
                 December 31, 2010

                 Audit of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 by Millennium Challenge
                 Account–Lesotho (MCA–
M–000–12–001–N   Lesotho, Under the                      9        04/10/12     04/10/13
                                            10/21/11
                 Compact Agreement                      10        04/10/12     04/10/13
                 Between the MCC and the
                 Government of Lesotho
                 from July 1, 2010, to
                 December 31, 2010




      Semiannual Report to the Congress: April 1–September 30, 2012  123
                              USAID Office of Inspector General


                                                               Management    Final Action
  Report                                      Issue     Rec.
                  Subject of Report                             Decision        Target
  Number                                      Date      No.
                                                                  Date           Date
                                                          1       11/15/11     11/15/12
                                                          2       11/15/11     11/15/12
                                                          3       11/15/11     11/15/12
                 Audit of the Millennium                  4       11/15/11     11/15/12
                 Challenge Corporation’s                  5       11/15/11     11/15/12
                 Financial Statements,                    6       11/15/11     11/15/12
                                                          7       11/15/11     11/15/12
M–000–12–001–C   Internal Controls, and
                                             11/15/11     8       11/15/11     11/15/12
                 Compliance for the Period               10       11/15/11     11/15/12
                 Ending September 30,                    11       11/15/11     11/15/12
                 2011, and 2010                          12       11/15/11     11/15/12
                                                         13       11/15/11     11/15/12
                                                         14       11/15/11     11/15/12
                                                         15       11/15/11     11/15/12

                 Audit of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 by Millennium Challenge
                 Account–Mongolia (MCA–
M–000–12–002–N   Mongolia), Under the
                                             11/30/11    2        03/16/12     03/16/13
                 Compact Agreement
                 Between the MCC and the
                 Government of Mongolia
                 from January 1, 2010, to
                 December 31, 2010




      Semiannual Report to the Congress: April 1–September 30, 2012  124
                              USAID Office of Inspector General


                                                               Management    Final Action
  Report                                      Issue     Rec.
                  Subject of Report                             Decision        Target
  Number                                      Date      No.
                                                                  Date           Date
                 Audit of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 by Millennium Challenge
                 Account–Burkina Faso
                 (MCA–Burkina Faso),
M–000–12–004–N
                 Under the Compact           01/24/12    5        08/01/12     08/01/13
                 Agreement between MCC
                 and the Government of
                 Burkina Faso from
                 January 1, 2010, to
                 December 31, 2010

                 Audit of the Fund
                 Accountability Statement
                 of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 by Sea–Freight Pineapple
                 Exporters Ghana (SPEG) A
M–000–12–007–N   Covered Provider Under                  1
                                             02/24/12
                 the Grant Agreement                     2
                 Dated September 19, 2008
                 Between the Millennium
                 Development Authority
                 (MiDA) and SPEG for the
                 Period From July 1, 2010,
                 to December 31, 2010

                 The Millennium Challenge
                 Corporation (MCC)
                 Resources Managed by
                 Alliance for Green
                 Resolution for Africa
                 (AGRA) A Covered
                 Provider under the Grant                1
M–000–12–009–N                                           2
                 Agreement Dated February    02/24/12
                                                         3
                 25, 2010 between the                    4
                 Millennium Development
                 Authority Audit (MiDA)
                 and AGRA for the Period
                 March 1, 2010, to
                 December 31, 2010.




      Semiannual Report to the Congress: April 1–September 30, 2012  125
                               USAID Office of Inspector General


                                                               Management     Final Action
  Report                                     Issue      Rec.
                  Subject of Report                             Decision         Target
  Number                                     Date       No.
                                                                  Date            Date
                 Millennium Challenge
                 Account (MCA) Ghana
                 Audit of the Fund
                 Accountability Statement
                 of the Millennium
                 Challenge Corporation
                 (MCC) Resources Managed
                 By Millennium
                                                          1
M–000–12–011–N   Development Authority
                                            03/16/12      2
                 (MiDA) under the                         3
                 Compact Agreement
                 Dated February 16, 2007
                 between the MCC and the
                 Government of Ghana for
                 the Period from July 1,
                 2010, to December 31,
                 2010.

                 Audit of the Millennium
                 Challenge Corporation’s                  1        03/22/12     03/29/13
M–000–12–001–P
                 Funding of Activities in   03/22/12      2        03/22/12     03/29/13
                 Mongolia                                 4        03/22/12     03/29/13


                 Audit of the Millennium                  1
                 Challenge Corporation                    2
                                                          3
                 (MCC) Resources Managed
                                                          4
                 by Millennium Challenge                  5
                 Account–Senegal (MCA–                    6
M–000–12–015–N   Senegal), Under the                      7
                                            03/29/12
                 Compact Agreement                        8
                 Between the MCC and the                  9
                                                         10
                 Government of Senegal
                                                         11
                 from April 1, 2009 to                   12
                 December 31, 2010                       13
                                                         14




      Semiannual Report to the Congress: April 1–September 30, 2012  126
                              USAID Office of Inspector General


                                                                Management   Final Action
  Report                                       Issue     Rec.
                  Subject of Report                              Decision       Target
  Number                                       Date      No.
                                                                   Date          Date
                 Follow–up Audit of the
                 Millennium Challenge                     1       03/30/12     03/29/13
M–000–12–003–P   Corporation’s                            2       03/30/12     03/29/13
                                              03/30/12
                 Implementation of Selected               3       03/30/12     03/29/13
                 Audit Recommendations                    4       03/30/12     03/29/13




      Semiannual Report to the Congress: April 1–September 30, 2012  127
                            USAID Office of Inspector General



                 Incidents in Which OIG Was Refused
                       Assistance or Information
                                         MCC
                           April1–September 30, 2012




Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
report to the head of the agency whenever requested information or assistance is
unreasonably refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




  Semiannual Report to the Congress: April 1–September 30, 2012  128
                            USAID Office of Inspector General



                                 Financial Audits
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                          MCC
                            April 1–September 30, 2012
                                                                        Amt. of
  Report         Date of                                                           Type of
                                        Report Title                    Findings
  Number         Report                                                            Findings
                                                                         ($000)
                            Audit of Millennium Challenge Corporation
                            (MCC) Resources Managed by Millennium
                            Challenge Account–El Salvador (MCA–El
M–000–12–016–N   05/11/12   Salvador) Under the Compact Agreement
                            Between the MCC and the Government of
                            El Salvador From January 1, 2010, to
                            December 31, 2010

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by the Millennium Challenge Account–
M–000–12–017–N   05/16/12   Benin (MCA–Benin) Under the Compact
                            Agreement Between the MCC and the
                            Government of the Republic of Benin from
                            July 1, 2011, to January 10, 2012

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account–Namibia
M–000–12–018–N   05/16/12   (MCA–Namibia) Under the Compact
                            Agreement Between MCC and the
                            Government of the Republic of Namibia
                            from January 1, 2011, to June 30, 2011,
                            (Report No. M–000–12–018–N)
                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account–Mali
M–000–12–019–N   06/06/12   (MCA–Mali), Under the Compact
                            Agreement Between the MCC and the
                            Government of Mali from January 1, 2011,
                            to December 31, 2011




     Semiannual Report to the Congress: April 1–September 30, 2012  129
                            USAID Office of Inspector General


                                                                         Amt. of
  Report         Date of                                                            Type of
                                        Report Title                     Findings
  Number         Report                                                             Findings
                                                                          ($000)
                            Audit of the Fund Accountability Statement
                            of the Millennium Challenge Corporation
                            (MCC) Resources Managed by Millennium
                            Challenge Account–Morocco (MCA–
M–000–12–020–N   06/05/12
                            Morocco) under the Compact Agreement
                            Between MCC and the Government of
                            Morocco for the period from January 1,
                            2011, to June 30, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account–                8         QC
M–000–12–021–N   06/12/12   Nicaragua (MCA–Nicaragua) Under the
                            Compact Agreement Between MCC and               8         UN
                            the Government of Nicaragua from July 1,
                            2010, to May 26, 2011 (Report No. M–
                            000–12–021–N)
                            Final–Close out Audit of the Millennium
                            Challenge Corporation (MCC) Resources
                            Managed by Millennium Challenge                 31        QC
M–000–12–022–N   06/18/12   Account–Nicaragua (MCA–Nicaragua)
                            Under the Compact Agreement Between             31        UN
                            MCC and the Government of Nicaragua
                            from May 27, 2011, to September 23, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account–Lesotho
M–000–12–023–N   08/09/12   (MCA–Lesotho), Under the Compact               119        QC
                            Agreement Between the MCC and the
                            Government of Lesotho from January 1,
                            2011, to June 30, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Development Authority            2,125      QC
M–000–12–024–N   08/20/12   (MiDA) Under the Grant Agreement
                            Between MCC and the Government of              250        UN
                            Ghana from January 1, 2011, to June 30,
                            2011




     Semiannual Report to the Congress: April 1–September 30, 2012  130
                            USAID Office of Inspector General


                                                                          Amt. of
  Report         Date of                                                             Type of
                                         Report Title                     Findings
  Number         Report                                                              Findings
                                                                           ($000)
                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Sea Freight Pineapple Exporters Ghana
M–000–12–025–N   08/21/12   (SPEG), a Covered Provider under the
                            Grant Agreement Between the Millennium
                            Development Authority (MiDA) and SPEG
                            from January 1, 2011, to June 30, 2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Alliance for Green Revolution for Africa
                            (AGRA) a Covered Provider Under the
M–000–12–026–N   08/21/12
                            Grant Agreement Between Millennium
                            Development Authority (MiDA) and
                            AGRA from January 1, 2011, to June 30,
                            2011

                            Audit of the Millennium Challenge
                            Corporation (MCC) Resources Managed
                            by Millennium Challenge Account–Moldova
M–000–12–027–N   09/27/12   (MCA–Moldova), Under the Compact
                            Agreement Between the MCC and the
                            Government of Moldova from October 1,
                            2009, to December 31, 2011




     Semiannual Report to the Congress: April 1–September 30, 2012  131
                            USAID Office of Inspector General



                              Performance Audits
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                          MCC
                            April 1–September 30, 2012
                                                                  Amt. of
  Report         Date of                                                     Type of
                                     Report Title                 Findings
  Number         Report                                                      Findings
                                                                   ($000)
                            Review of the Compact Closeout in
M–000–12–003–S   04/10/12                                           751        BU
                            Nicaragua

                            Audit of the Millennium Challenge
                            Corporation’s Implementation of
M–000–12–004–P   06/07/12
                            Selected Security Controls for Its
                            E–Travel System

                            Review of MCC and Implementing
                            Partner Management Controls, and
M–000–12–004–S   06/05/12   Compliance with Laws and
                            Regulations Related to Drug
                            Trafficking and Criminal Activities

                            Audit of the Millennium Challenge
M–000–12–005–P   06/15/12   Corporation–Funded Fruit Tree
                            Productivity Project in Morocco

                            Review of MCC–Funded Project
M–000–12–005–S   06/03/12                                           5,400      BU
                            Activities in Benin

                            Audit of the Millennium Challenge
M–000–12–006–P   09/18/12   Corporation’s Contract
                            Management Process

                            Review of the Millennium Challenge
M–000–12–006–S   07/16/12   Corporation’s Compact
                            Modifications




     Semiannual Report to the Congress: April 1–September 30, 2012  132
                            USAID Office of Inspector General



                             Miscellaneous Reports
       Associated Questioned Costs, Unsupported Costs, and
    Value of Recommendations That Funds Be Put to Better Use
                                           MCC
                            April 1–September 30, 2012
                                                                  Amt. of
  Report         Date of                                                     Type of
                                     Report Title                 Findings
  Number         Report                                                      Findings
                                                                   ($000)
                                   Quality Control Reviews
                            Audit of the Fund Accountability
                            Statements of the Millennium
                            Challenge Corporation (MCC)
                            Resources Managed by the
                            Millennium Challenge Account
M–000–12–001–Q   05/18/12   (MCA)–Namibia Under the
                            Compact Agreement dated July 28,
                            2008 Between the MCC and the
                            Government of the Republic of
                            Namibia for the period January 1,
                            2011, to June 30, 2011

                            Audit of the Fund Accountability
                            Statement of the Millennium
                            Challenge Corporation (MCC)
                            Managed by the Millennium
                            Challenge Account (MCA)–
M–000–12–002–Q   06/08/12   Morocco Under the Compact
                            Agreement dated August 31, 2007,
                            Between MCC and the
                            Government of Morocco for the
                            period January 1, 2011, to June 30,
                            2011




     Semiannual Report to the Congress: April 1–September 30, 2012  133
                                      USAID Office of Inspector General



                                    Reports With
                          Questioned and Unsupported Costs
                                               MCC
                                    April 1–September 30, 2012

                                                    Number
                                                            Questioned                     Unsupported
                                                      of
                  Reports                                     Costs                           Costs
                                                     Audit
                                                               ($)                             ($) 1
                                                    Reports
A. For which no management decision had                  6            1,148,172                  189,965
   been made as of April 1, 2012

B. Add: Reports issued April 1–                          4            2,282,366                  288,574
   September 30, 2012
                                                         10          3,430,538                  478,539
Subtotal

C. Less: Reports with a management decision              4            1,058,758                  145,850
   made April 1–September 30, 2012

            Value of recommendations                                    1,080                     1,080
            disallowed by agency officials

            Value of recommendations                                  1,057,678                  144,770
            allowed by agency officials

D. For which no management decision had                  6            2,371,780                  332,689
   been made as of September 30, 2012

1The ending balance at March 31, 2012, for questioned costs totaling $1,052,408 and for unsupported cost totaling
$6,900 was increased by $95,764 and $183,065 respectively, to reflect adjustments in recommendations from prior
periods.




       Semiannual Report to the Congress: April 1–September 30, 2012  134
                             USAID Office of Inspector General



                               Reports With
                        Recommendations That Funds
                            Be Put to Better Use
                                           MCC
                             April 1–September 30, 2012
                                                              Number of
                                                                           Value
                          Reports                               Audit
                                                                            ($)
                                                               Reports
                                                                  0          0
A. For which no management decision had been made as of
   April 1, 2012

                                                                  2       6,150,848
B. Add: Reports issued April 1–September 30, 2012

                                                                  2       6,150,848
 Subtotal
                                                                  2       6,150,848
C. Less: Reports with a management decision made April 1–
   September 30, 2012

           Value of recommendations agreed to by agency                   6,150,848
           officials

           Value of recommendations not agreed to by agency                  0
           officials

                                                                  0          0
D. For which no management decision had been made as of
   September 30, 2012




   Semiannual Report to the Congress: April 1–September 30, 2012  135
                             USAID Office of Inspector General




     Reports Over 6 Months Old With No Management Decision
                                           MCC
                            April 1–September 30, 2012

  Report                   Issue
                 Auditee                                          Status
  Number                   Date
                                      Audit of the MCC Resources Managed By Sea–Freight
                                      Pineapple Exporters Ghana (SPEG)–A Covered Provider
                                      under the Grant Agreement Between the Millennium
                                      Development Authority (MiDA) and SPEG from July 1,
                                      2010, to December 31, 2010.

                                      Ghana is the recipient of a $547 million compact managed by the
                                      Millennium Development Authority (MiDA).The 5–year compact
                                      is designed to increase farmer income through programs to
                                      augment production of high–value cash and food crops and to
                                      enhance exports of selected crops. MiDA signed a grant
                                      agreement with Sea–Freight Pineapple Exports– Ghana, (SPEG)
                                      in the amount of $5.4 million for postharvest equipment to
                                      benefit farmers. The independent audit of resources managed by
                                      SPEG covered approximately $2.1 million disbursed under the
                                      first phase of the grant over the period July 1 to December 31,
                                      2010.

                                      The auditors reported that the fund accountability statement
                  MiDA–
M–000–12–007–N             02/24/12   presented fairly, in all material respects, program revenues,
                  Ghana
                                      costs, and assets directly procured with MCC funds for the
                                      period audited. However, the auditors identified a material
                                      weakness in internal control related to loan repayments that
                                      were not properly reflected in the financial statements.
                                      Additionally, in their review of compliance with loan agreements,
                                      auditors found material noncompliance regarding outstanding
                                      loan balances of approximately $2 million.

                                      OIG issued two recommendations to address the findings
                                      related to updating transactions in the financial records and
                                      establishing a system to address the recovery of past due loans
                                      from beneficiaries.

                                      Management decisions have not been made on this audit because
                                      of MCC’s limited staff resources and ability to research the
                                      pertinent issues. This research has now been conducted and
                                      MCC anticipates providing a management decision to OIG by
                                      October 31, 2012.




      Semiannual Report to the Congress: April 1–September 30, 2012  136
                             USAID Office of Inspector General


  Report                   Issue
                 Auditee                                           Status
  Number                   Date
                                      Audit of the MCC Resources Managed By Alliance for
                                      Green Resolution for Africa (AGRA)–A Covered
                                      Provider under the Grant Agreement between the
                                      Millennium Development Authority (MiDA) and AGRA
                                      from March 31, 2010, to December 31, 2010

                                      Ghana’s Millennium Development Authority (MiDA), manager of
                                      its $547 million compact, signed a grant agreement with AGRA
                                      to improve and sustain incomes derived from agricultural
                                      activities though facilitation of low–interest loans. The fund
                                      statement for the $2.5 million guarantee was audited for the
                                      period March 1 to December 31, 2010. The guarantee is set
                                      aside to facilitate $25 million in bank loans.

                                      The auditors reported that the fund accountability statement
                                      presented fairly, in all material respects, program revenues, costs
                                      incurred and reimbursed directly by MiDA and commodities and
                                      technical assistance directly procured by MCC for the 10–month
                  MiDA–               period ending December 31, 2010.
M–000–12–009–N             02/24/12
                  Ghana
                                      However, the auditors identified significant deficiencies involving
                                      internal controls related to management of day–to–day
                                      operations of grants and the need to promote awareness and
                                      interest in the program. Additionally, the auditors found material
                                      weakness regarding noncompliance with grant terms.
                                      Specifically, (1) documents were inadequate to justify
                                      expenditure for a special vehicle, (2) records were inadequate to
                                      ascertain whether seeds were distributed to small farmers, and
                                      (3) accounting for interest earned did not meet grant agreement
                                      provisions.

                                      To correct these deficiencies, OIG made four recommendations.
                                      Management decisions have not been made on this audit because
                                      of MCC’s limited staff resources and ability to research the
                                      pertinent issues. This research has now been conducted and
                                      MCC anticipates providing a management decision to OIG by
                                      October 31, 2012.

                                      Audit of the MCC Resources Managed By Millennium
                                      Development Authority (MiDA) under the Grant
                                      Agreement between the Millennium Challenge
                                      Corporation and the Government of Ghana from July 1,
                  MiDA–
M–000–12–011–N             03/16/12   2010, to December 31, 2010
                  Ghana
                                      The 5–year, $547 million is meant to reduce poverty through
                                      economic growth, increase the production and productivity of
                                      high–value cash and food staple crops in some of the poorest


      Semiannual Report to the Congress: April 1–September 30, 2012  137
                             USAID Office of Inspector General


                                      regions, and enhance the competitiveness of Ghana’s agricultural
                                      products in regional and international markets.

                                      The independent audit of MiDA–Ghana covered incurred costs
                                      in the amount of $71,955,605 for the period of July 1 to
                                      December 31, 2010. The independent auditors reported that,
                                      except for the questioned costs, the fund accountability
                                      statement presented fairly, in all material respects, program
                                      revenues and expenditures for the period audited. The auditors
                                      reported a significant deficiency in internal controls and instances
                                      of noncompliance.

                                      OIG issued three recommendations to address the findings and
                                      questioned costs. Management decisions have not been made on
                                      this audit because of MCC’s limited staff resources and ability to
                                      research the pertinent issues. This research has now been
                                      conducted and MCC anticipates providing a management
                                      decision to OIG by October 31, 2012.

                                      Audit of the MCC Resources Managed By Millennium
                                      Challenge Account–Senegal (MCA–Senegal) under the
                                      Compact Agreement between the Millennium Challenge
                                      Corporation and the Government of Senegal from April
                                      1, 2009, to December 31, 2010

                                      The independent audit of MCA–Senegal covered incurred costs
                                      in the amount of $4.2 million for the period of April 1, 2009, to
                                      December 31, 2010. The 5–year, $540 million compact aims to
                                      rehabilitate major national roads, invest in irrigation and water
                                      resource management, and conduct policy reforms.
                 MCA–
M–000–12–015–N             03/29/12   The auditors reported that, except for the questioned costs, the
                 Senegal
                                      fund accountability statement presented fairly, in all material
                                      respects, program revenues and costs incurred for the audited
                                      period. The independent auditors also identified multiple
                                      significant deficiencies in internal controls and noncompliance.

                                      OIG issued 14 recommendations to address the findings and
                                      questioned costs. Management decisions have not been made on
                                      this audit because of MCC’s limited staff resources and ability to
                                      research the pertinent issues. This research has now been
                                      conducted and MCC anticipates providing a management
                                      decision to OIG by October 31, 2012.




      Semiannual Report to the Congress: April 1–September 30, 2012  138
                            USAID Office of Inspector General



          Significant Revisions of Management Decisions
                                         MCC
                           April 1–September 30, 2012



Section 5(a)(11) of the Inspector General Act of 1978 requires semiannual reports to
include a description and explanation of the reasons for any significant revised management
decision made during the reporting period. During the reporting period, MCC did not
make any significant revisions of previous management decisions.



               Management Decisions With Which the
                   Inspector General Disagrees
                                         MCC
                           April 1–September 30, 2012



Section 5(a)(12) of the Inspector General Act of 1978 requires semiannual reports to
include information concerning any significant management decisions with which the
inspector general disagrees. During this reporting period, the Inspector General agreed
with all significant management decisions.




  Semiannual Report to the Congress: April 1–September 30, 2012  139
                             USAID Office of Inspector General



           Significant Findings From Contract Audit Reports
                                          MCC
                           April 1–September 30, 2012



The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181, Section
842) requires inspectors general to submit information on contract audit reports that
contain significant audit findings in semiannual reports to Congress. The act defines
“significant audit findings” to include unsupported, questioned, or disallowed costs in
excess of $10 million and other findings that inspectors general determine to be significant.

During the reporting period, OIG had no significant findings from MCC contract audit
reports.




  Semiannual Report to the Congress: April 1–September 30, 2012  140
                                        USAID Office of Inspector General


                                          Significant Findings

                   United States African Development Foundation

Audit of the African Development                           originally intended. Targets were often unrealistic
Foundation’s Activities in Cape Verde                      and unachievable. Of the sampled targets that the
(Report No. 7–ADF–12–008–P). USADF                         grantees should have reached, only 44 percent
has worked in Cape Verde since 1986 to reduce              had been achieved. In addition, the protocol
reliance on food imports and increase export               authorizing USADF to fund development
potential. It also seeks to increase the availability      projects in Cape Verde states that recipients of
of credit through microfinance activities. In              USADF assistance are exempt from duties on
2008, USADF awarded a 3–year cooperative                   equipment they import or purchase in Cape
agreement to a Cape Verdean nongovernmental                Verde. Contrary to this guidance, OIG found
organization, Estrategos Consultores Associados            that Estrategos and USADF grantees were
(Estrategos), to build its capacity to support             routinely paying sales tax on equipment and
USADF grantees in Cape Verde. USADF funded                 supplies that they purchased in Cape Verde with
more than 29 grants, totaling just over $5                 grant funds. Estrategos explained that the process
million, that were active in Cape Verde during             of either removing the tax at the time of purchase
2010 and 2011.                                             or submitting a request for reimbursement of
                                                           taxes paid is complicated, which resulted in the
OIG found that the program in Cape Verde was
                                                           taxes being paid instead of removed. Estrategos
successfully expanding local capacity to promote
                                                           determined that it and the grantees had paid an
and support grassroots development. This success
                                                           estimated $36,015 worth of taxes since 2009.32
manifested itself in newly created jobs, increased
incomes, improved living standards, and less               OIG made seven recommendations.
reliance on imported goods for the beneficiaries           Management decisions have been reached on all
of the USADF grants. Perhaps even more notable             seven, and final action has been taken on one.
was that the grantees demonstrated increased
managerial and technical capacity to conduct
development activities, an improvement that
should help to ensure the sustainability of the
program’s impact.
                                                           32
                                                             Because the audit team identified this issue at the
                                                           end of audit fieldwork, it was not able to work with
However, the extent of this success did not reach          Estrategos to calculate or verify the accuracy of this
the magnitude that USADF and Estrategos                    estimate.


           Semiannual Report to the Congress: April 1–September 30, 2012  141
                                USAID Office of Inspector General



           Significant Recommendations Described Previously
                                  Without Final Action
                                              USADF
                                April 1–September 30, 2012

                                                                    Management          Final Action
  Report                                         Issue      Rec.
                     Subject of Report                               Decision              Target
  Number                                         Date       No.
                                                                       Date                 Date
                   Followup Audit of the
                   Awarding and Monitoring of
7–ADF–08–006–P                                  06/12/08      16        06/12/08             12/31/12
                   Grants by the African
                   Development Foundation

                   Audit of the African                       1         09/17/08*            12/31/12
                   Development                                7         09/17/08*            12/31/12
7–ADF–08–007–P                                  09/17/08
                   Foundation/Ghana Project                   14        09/17/08**           12/31/12
                   Activities                                17.4       09/26/08             12/31/12

                                                                 *Revised management decision 6/30/2011
                                                                **Revised management decision 5/03/2011




          Incidents in Which OIG Was Refused Assistance or
                             Information
                                              USADF
                               April 1–September 30, 2012


     Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
     report to the head of the agency whenever requested information or assistance is
     unreasonably refused or not provided.

     During this reporting period, there were no reports regarding instances in which
     information or assistance was unreasonably refused or not provided.




      Semiannual Report to the Congress: April 1–September 30, 2012  142
                                     USAID Office of Inspector General



                                          Financial Audits
          Associated Questioned Costs, Unsupported Costs, and
       Value of Recommendations That Funds Be Put to Better Use
                                                USADF
                                    April 1–September 30, 2012

During the reporting period, no financial reports were issued with associated questioned costs,
unsupported costs, or recommendations.



                                       Performance Audits
           Associated Questioned Costs, Unsupported Costs, and
        Value of Recommendations That Funds Be Put to Better Use
                                                 USADF
                                     April 1–September 30, 2012
                                                                                   Amt. of
    Report             Date of                                                                    Type of
                                                   Report Title                    Findings
    Number             Report                                                                     Findings
                                                                                    ($000)
                                           Economy and Efficiency

                                      Audit of the U.S. African Development
  7–ADF–12–008–P         08/28/12                                                       36          QC
                                      Foundation’s Activities in Cape Verde




                                     Miscellaneous Reports
          Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better
                                 Use
                                               USADF
                                    April 1–September 30, 2012

        During the reporting period, no miscellaneous reports were issued with associated
        questioned costs, unsupported costs, or recommendations that funds be put to better use.



         Semiannual Report to the Congress: April 1–September 30, 2012  143
                                     USAID Office of Inspector General




                      Reports With Questioned and Unsupported Costs
                                                USADF
                                     April1–September 30, 2012

                                                             Questioned   Unsupported
                                      Number of
           Reports                                             Costs         Costs
                                     Audit Reports
                                                                ($)           ($)

A. For which no management
   decision had been made as of            0                       0             0
   April 1, 2012
B. Add: Reports issued April 1–
                                           1                     36,015          0
   September 30, 2012

Subtotal                                   1                    36,015         0
C. Less: Reports with a
   management decision made                1                     36,015          0
   April 1–September 30, 2012

    Value of recommendations
                                                                 36,015          0
    disallowed by Agency officials

    Value of recommendations
                                                                   0             0
    allowed by Agency officials

D. For which no management
   decision had been made as of            0                       0             0
   September 30, 2012




           Semiannual Report to the Congress: April 1–September 30, 2012  144
                          USAID Office of Inspector General




            Reports With Recommendations That Funds
                     Be Put to Better Use
                                     USADF
                         April1–September 30, 2012



During the reporting period, no reports were issued with recommendations that funds be
put to better use.




      Reports Over 6 Months Old With No Management
                         Decision
                                     USADF
                         April1–September 30, 2012


During the reporting period, there were no reports more than 6 months old without a
management decision.




 Semiannual Report to the Congress: April 1–September 30, 2012  145
                            USAID Office of Inspector General




           Significant Revisions of Management Decisions
                                       USADF
                           April1–September 30, 2012


 Section 5(a) (11) of the Inspector General Act requires a description and explanation
 of the reasons for any significant revised management decision during the reporting
 period.

 During this reporting period, USADF did not make any significant revisions of
 management decisions.




      Management Decisions With Which the Inspector
                  General Disagrees
                                       USADF
                          April1–September 30, 2012



The Inspector General Act of 1978, as amended, requires semiannual reports to include
information concerning any significant management decisions with which the inspector
general disagrees.

During this reporting period, the Inspector General agreed with all significant
management decisions.




 Semiannual Report to the Congress: April 1–September 30, 2012  146
                                          USAID Office of Inspector General



              Noncompliance With the Federal Financial Management
                           Improvement Act of 1996
                                                   USADF
                                         April1–September 30, 2012



            Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
            update on issues outstanding under a remediation plan required by FFMIA, (Public Law
            104–208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to
            comply substantially with (1) federal financial management system requirements, (2)
            federal accounting standards, and (3) the U.S. Standard General Ledger at the transaction
            level. An agency that is not substantially compliant with FFMIA must prepare a
            remediation plan.

            USADF had no instances of noncompliance to report during this reporting period.


                                         Significant Findings From
                                          Contract Audit Reports
                                                     USADF
                                          April1–September 30, 2012


            The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181,
            Section 845) requires inspectors general to submit information on contract33 audit reports
            that contain significant audit findings in semiannual reports to the Congress.

            The act defines “significant audit findings” to include unsupported, questioned, or
            disallowed costs in excess of $10 million and other findings that an inspector general
            determines to be significant.

            USADF had no significant findings from contract audit reports.



33
     Includes grants and cooperative agreements.


              Semiannual Report to the Congress: April 1–September 30, 2012  147
                        USAID Office of Inspector General




                          Significant Findings

                    Inter–American Foundation


      There were no significant findings for IAF during the reporting period.




Semiannual Report to the Congress: April 1–September 30, 2012  148
                            USAID Office of Inspector General




      Significant Recommendations Described Previously
                             Without Final Action
                                          IAF
                           April1–September 30, 2012


During the reporting period, there were no significant recommendations described
previously without final action.



      Incidents in Which OIG Was Refused Assistance or
                         Information
                                         IAF
                           April1–September 30, 2012


Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to
report to the head of the agency whenever requested information or assistance is
unreasonably refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




 Semiannual Report to the Congress: April 1–September 30, 2012  149
                            USAID Office of Inspector General




                                  Financial Audits
   Associated Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use
                                           IAF
                            April1–September 30, 2012


 During the reporting period, no financial audits were issued with associated questioned
 costs, unsupported costs, or recommendations that funds be put to better use.




                               Performance Audits
   Associated Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use
                                            IAF
                            April1–September 30, 2012



 During the reporting period, no performance audits were issued with associated questioned
 costs, unsupported costs, or recommendations that funds be put to better use.



                            Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use
                                          IAF
                           April1–September 30, 2012


 During the reporting period, no miscellaneous reports were issued with associated
 questioned costs, unsupported costs, or recommendations that funds be put to better use.




  Semiannual Report to the Congress: April 1–September 30, 2012  150
                           USAID Office of Inspector General




       Reports With Questioned and Unsupported Costs
                                          IAF
                           April1–September 30, 2012




During the reporting period, no reports were issued with questioned or unsupported costs.




                Reports With Recommendations That
                     Funds Be Put to Better Use
                                         IAF
                          April1–September 30, 2012



During the reporting period, no reports were issued with recommendations that funds be
put to better use.



       Reports Over 6 Months Old With No Management
                          Decision
                                         IAF
                          April1–September 30, 2012



During the reporting period, there were no reports more than 6 months old without a
management decision.




 Semiannual Report to the Congress: April 1–September 30, 2012  151
                            USAID Office of Inspector General




         Significant Revisions of Management Decisions
                                          IAF
                           April1–September 30, 2012

Section 5(a) (11) of the Inspector General Act requires a description and explanation of the
reasons for any significant revised management decisions during the reporting period.

During the reporting period, there were no significant revisions of management decisions.




      Management Decisions With Which the Inspector
                  General Disagrees
                                          IAF
                           April1–September 30, 2012



The Inspector General Act of 1978, as amended, requires semiannual reports to include
information concerning any significant management decisions with which the inspector
general disagrees.

During this reporting period, the Inspector General agreed with all significant
management decisions.




 Semiannual Report to the Congress: April 1–September 30, 2012  152
                                          USAID Office of Inspector General



               Noncompliance With the Federal Financial Management
                            Improvement Act of 1996
                                                       IAF
                                          April1–September 30, 2012



            Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
            update on issues outstanding under a remediation plan required by FFMIA, (Public Law
            104–208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to
            comply substantially with (1) federal financial management system requirements, (2)
            federal accounting standards, and (3) the U.S. Standard General Ledger at the transaction
            level. An agency that is not substantially compliant with FFMIA must prepare a
            remediation plan.

            IAF had no instances of noncompliance to report during this reporting period.




                                        Significant Findings From
                                         Contract Audit Reports
                                                       IAF
                                         April1–September 30, 2012


            The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181,
            Section 845) requires inspectors general to submit information on contract34 audit reports
            that contain significant audit findings in semiannual reports to the Congress.

            The act defines “significant audit findings” to include unsupported, questioned, or
            disallowed costs in excess of $10 million and other findings that the Inspector General
            determines to be significant.

            IAF had no significant findings from contract audit reports.

34
     Includes grants and cooperative agreements.


              Semiannual Report to the Congress: April 1–September 30, 2012  153
                    USAID Office of Inspector General



                           Abbreviations


    BU           funds recommended to be put to better use

    DCAA         Defense Contract Audit Agency

    FFMIA        Federal Financial Management Improvement Act of 1996

    IAF          Inter–American Foundation

    MCA          Millennium Challenge Account

    MCC          Millennium Challenge Corporation

    NGO          nongovernmental organization

    OIG          Office of Inspector General

    OMB          Office of Management and Budget

    PEPFAR       President’s Emergency Plan for AIDS Relief

    PMI          President’s Malaria Initiative

    QC           questioned costs

    UN           unsupported costs

    USADF        United States African Development Foundation

    USAID        United States Agency for International Development




Semiannual Report to the Congress: April 1–September 30, 2012  154
                    USAID Office of Inspector General




Semiannual Report to the Congress: April 1–September 30, 2012  155
United States Agency for International Development
            Office of Inspector General
              1300 Pennsylvania Avenue, NW
                      Room 6.6D
                 Washington, DC 20523
